<html>
<title> - WILDLAND FIRE MANAGEMENT</title>
<body><pre>[Senate Hearing 113-52]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 113-52
 
                        WILDLAND FIRE MANAGEMENT

=======================================================================


                                HEARING

                               before the

                              COMMITTEE ON

                      ENERGY AND NATURAL RESOURCES

                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                                   TO

                    EXPLORE WILDLAND FIRE MANAGEMENT

                               __________

                              JUNE 4, 2013


                       Printed for the use of the
               Committee on Energy and Natural Resources




                  U.S. GOVERNMENT PRINTING OFFICE
82-103                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                      RON WYDEN, Oregon, Chairman

TIM JOHNSON, South Dakota            LISA MURKOWSKI, Alaska
MARY L. LANDRIEU, Louisiana          JOHN BARRASSO, Wyoming
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
BERNARD SANDERS, Vermont             MIKE LEE, Utah
DEBBIE STABENOW, Michigan            DEAN HELLER, Nevada
MARK UDALL, Colorado                 JEFF FLAKE, Arizona
AL FRANKEN, Minnesota                TIM SCOTT, South Carolina
JOE MANCHIN, III, West Virginia      LAMAR ALEXANDER, Tennessee
CHRISTOPHER A. COONS, Delaware       ROB PORTMAN, Ohio
BRIAN SCHATZ, Hawaii                 JOHN HOEVEN, North Dakota
MARTIN HEINRICH, New Mexico

                    Joshua Sheinkman, Staff Director
                      Sam E. Fowler, Chief Counsel
              Karen K. Billups, Republican Staff Director
           Patrick J. McCormick III, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Decker, Doug, Oregon State Forester, Salem, OR...................    16
Jungwirth, Lynn, Senior Fellow for Policy and Development, The 
  Watershed Center, Hayfork, CA..................................    30
Murkowski, Hon. Lisa, U.S. Senator From Alaska...................     3
Thorsen, Kim, Deputy Assistant Secretary, Public Safety, Resource 
  Protection, and Emergency Services, Department of the Interior.    11
Tidwell, Thomas, Chief, Forest Service, Department of Agriculture     5
Topik, Christopher, Director, Restoring America's Forests, The 
  Nature Conservancy, Arlington, VA..............................    22
Vosick, Diane, Director of Policy and Partnerships at the 
  Ecological Restoration Institute, Northern Arizona University, 
  Flagstaff, AZ..................................................    36
Wyden, Hon. Ron, U.S. Senator From Oregon........................     1

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    59

                              Appendix II

Additional material submitted for the record.....................    67


                        WILDLAND FIRE MANAGEMENT

                              ----------                              


                         TUESDAY, JUNE 4, 2013

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:10 a.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Ron Wyden, 
chairman, presiding.

       OPENING STATEMENT OF HON. RON WYDEN, U.S. SENATOR 
                          FROM OREGON

    The Chairman. The committee will come to order.
    Good morning. The purpose of this morning's hearing is to 
discuss wildland fire management.
    The 2013 fire season has hardly begun. Yet hundreds of 
families in California and New Mexico have already been forced 
to evacuate in the face of raging fires. As we speak, a major 
fire is burning on National Forest lands just 25 miles outside 
of Santa Fe.
    The latest fires are part of an ominous trend toward a 
bigger, hotter, longer fire season, simply, more treacherous in 
all the particulars. In 2012, 15 firefighters died combating 
blazes that engulfed more than 9 million acres in the Western 
United States. Two air tankers crashed and more than 4,200 
homes and other structures were destroyed, well over annual 
averages.
    The Federal agencies responsible for protecting Western 
communities from these fires must use the smartest, most cost-
effective firefighting strategies possible. As the risk from 
wild fire escalates, the status quo for firefighting simply is 
not going to be good enough. These intense fire seasons also 
present direct threats to America's communities.
    The Waldo Canyon fire in Colorado last year, for example, 
burned 346 buildings, a led to insurance claims totaling more 
than $350 million. 2013 is predicted to again be an intense 
fire season.
    Fires have already begun in my home State of Oregon, even 
in the Western part of our State which is typically less fire 
prone. Last week at town hall meetings and other gatherings in 
Oregon, I continually heard questions from these dedicated, 
committed professionals questions about whether they would have 
the adequate resources to fight these fires.
    Forecasts show that the challenges posed by wild fire are 
only going to grow in the coming years. The summer of 2012 was 
the third warmest on record. It included the warmest July on 
record in our country.
    The overall trend of increasing drought and wild fire in 
the West and Southwest has been attributed in numerous 
scientific reports to human-induced climate change. Scientific 
reports also confirm that the wildland fire season is becoming 
longer and more intense due to climate change.
    Today we have an expert panel of witnesses to explore the 
topic of wildland fire management. I want to just make 3 points 
and then recognize my friend and colleague, Senator Murkowski.
    First, there are actions the Federal Government can take 
that not only reduce the risk of catastrophic fire, but also 
save our taxpayers money. Studies have confirmed that wildland 
fire prevention activities such as hazardous fuels treatments 
and restoration can, in fact, reduce fire suppression costs. 
Yet this year's budget request from the Forest Service and the 
Department of the Interior calls for dramatic cuts to hazardous 
fuels treatments.
    Today the committee will hear from Diane Vosick at the 
Ecological Restoration Institute about a report they've 
assembled about the economic benefits of hazardous fuels 
projects. Especially at a time when folks are hurting in rural 
America and Oregon's timber communities, for example, where 
they desperately want to get back to work, these projects are 
some of the best investments our government can make.
    So we are going to ask a number of questions so that we can 
get into this baffling OMB position that there is no 
significant justification for the requests that are being made 
for these hazardous fuels treatment funds. My own take is that 
investing in these kinds of fire prevention activities are 
exactly what's needed. We will be getting into that issue.
    Second, our current fleet of air tankers is so ancient they 
are probably better placed in museums than in the sky. In 2002, 
the Forest Service had 44 air tankers under contract. Now they 
have 8.
    I am encouraged by the announcement last month by the 
Forest Service of 5 new ``Next Generation'' air tankers 
contracts that are pending. These air tankers are vital to 
helping fire fighters on the ground keep ever more destructive 
wildfires from threatening communities across the West year 
after year.
    I do know that at least one protest has been filed to the 
next generation air tanker proposal. I do understand that 
yesterday the Forest Service was able to award 3 of the next 
generation contracts while it continues to work on the protest. 
I look forward to hearing from the Chief and others what 
they're going to be doing to get those planes up and ready as 
soon as possible.
    Finally, the committee wants to focus on fire budgeting. 
The proportion of the Forest Service budget devoted to wildland 
fire management has increased steadily from 13 percent of the 
budget in 1991 to 41 percent of the budget in 2013. In many 
recent years, the Forest Service has exceeded its budget for 
wild fire suppression requiring it to transfer funds from other 
projects, colloquially called fire borrowing, to cover 
emergency wild fire suppression costs.
    Now, the FLAME Act was enacted in 2009 to establish a 
reserve of funding for emergency wildland fires that would be 
available to fight just those situations. Spectfully, the FLAME 
Act established a fund to cover the cost of larger or complex 
wild fire events and to serve as a reserve when amounts 
provided for wild fire suppression appropriation accounts were 
exhausted.
    Unfortunately the Office of Management and Budget has not 
been implementing the FLAME Act as intended. Instead, they 
calculate the FLAME fund as part of the 10-year average cost of 
fire suppression. It's time for the Office of Management and 
Budget to actually implement this law as intended. We've spoken 
with Secretaries Vilsack and Jewell about the need for a 
comprehensive discussion about wildland fire budgeting with the 
Office of Management and Budget.
    Finally, the committee looks forward to a rigorous 
discussion on actions that can be taken to reduce the threat of 
catastrophic fires, get the air-tankers needed to fight those 
fires mobilized, and to ensure that enough funding is provided 
to fight fires without sacrificing the agencies' other critical 
missions.
    I also want to welcome Mr. Doug Decker, the outstanding 
state forester from my home State. We look forward to his 
testimony and that of our other witnesses.
    Before I turn to our ranking member I do want to take note 
of a historic event that seems to have transpired just 
recently: Senator Franken has welcomed his first grandchild 
into the world. We congratulate our friend and colleague. Maybe 
he'll offer some thoughts about that special event when he has 
time. Unless he wants to do it now?
    Senator Franken. I just held my grandson in my arms when he 
was--a couple days ago and told him that no one expects him to 
know anything. There's no pressure on him now.
    [Laughter.]
    The Chairman. Perfect.
    A perfect summary of our challenges.
    [Laughter.]
    The Chairman. Senator Murkowski.

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Ah, to be young and innocent again, huh?
    Mr. Chairman, thank you for the opportunity to focus this 
morning on where we are with wildland fire management.
    Today we're going to be examining our national wild fire 
policy. This includes the efforts of land managers to 
coordinate and collaborate with partners at the State and 
Federal levels to improve wild fire response, prevention and 
restoration of fire adapted wildlands, the dynamic tensions 
between fire to sustain wildland health in certain ecosystems 
and the need to minimize negative impacts to people and their 
homes from wildlife. Of course, the escalating Federal costs of 
these activities, as you have noted. I think we all recognize 
that in a constrained budget environment we have to figure out 
how we're strategic. How we use our limited Federal resources 
wisely.
    Mr. Chairman, you have spoken to the historical increase 
that we're seeing in terms of wildland fires across the 
country, what is happening in this season. I think we're all 
anxious, as we await the summer and know that we will, once 
again, have forest fires burning across our country. Certainly 
as more and more people live in and around our forests, our 
grasslands and other wildland areas, the fire related 
challenges of managing these wildlands and the associated risk 
to life and property have significantly increased the 
complexity and the cost of assessing these wild fires.
    The total amount of funding appropriated for wild fire 
management has averaged $3.5 billion from FY 2008 to present. 
The majority of wildland fire management funding goes to the 
Forest Service. In FY2012 the Forest Service wildland fire 
management budget funding totaled nearly 41 percent of the 
total discretionary funds that are appropriated to that agency.
    It was because fire fighting was eating up the agency's 
budgets and causing the agency to engage in the fire borrowing, 
as you have mentioned, that we enacted the FLAME Act. As you 
have noted, Mr. Chairman, we have not seen the FLAME Act do 
what we had intended for it to do when we proposed that into 
law. Instead, the agency's budget proposals fund the 10-year 
rolling average using both suppression accounts and the FLAME 
reserve fund.
    The May 2013 forecast for annual suppression expenditures 
put out by the agency in season, as required by FLAME, seemed 
to put the agency on the same trajectory as last year. Then it 
looks like we're once again going to be looking at fire 
borrowing.
    My understanding is that the Office of Management and 
Budget may be part of the problem here. But regardless of who 
is involved, we need to figure out what's' happening. Agencies 
cannot continue to raid non-fire accounts to pay for fire 
fighting.
    Now this brings me to the aerial firefighting. 
Specifically, the increased use of aircraft is also 
contributing to the rising costs of our fighting wild fires. We 
all recognize that the agencies must have an aviation fleet for 
fire fighting, but quite frankly, I'm a little perplexed at how 
much the agencies have struggled with developing and executing 
an aviation strategy, particularly when it comes to modernizing 
our aged air tanker fleet.
    We've seen numerous studies, reports and plans over the 
years. Another GAO investigation is underway right now. But we 
still don't seem to have a real clear picture here on what a 
safe, efficient, effective and sustainable national aviation 
program should look like.
    We asked the question whether or not a newer, more modern 
aviation fleet ultimately helps rein in firefighting costs and 
whether or not it can mitigate the devastating impacts of wild 
fire. I've been listening to the agencies for years saying that 
yes, in fact, it can. I want to believe that.
    But really there hasn't been sufficient data collected on 
actual aviation fire fighting performance to back up the claim 
and ultimately to support the acquisition of an expensive new 
aircraft. Even the best business case has yet to pass muster 
with OMB. Then tied to the question of escalating suppression 
costs has been whether sufficient investment in hazardous fuels 
reduction and ecosystem restoration can reduce the risk of 
catastrophic fire and in turn, reduce suppression expenditures.
    Here in Congress we've already spent a tremendous amount of 
taxpayer money on fuel reduction activities. Back in FY2001 
Federal lands fuel reduction funding rose substantially to over 
$400 million. It continued to rise steadily through FY 2008 to 
nearly $620 million.
    Now the agencies are proposing substantial reductions in 
fuel reduction activities. Congress is having a harder time 
justifying increasing the expenditures. I think one of the 
reasons is that there are still some outstanding questions on 
where we make the difference here.
    So a great deal to be discussing this morning, clearly, a 
considerable impact in our Western States. I look forward to 
the discussion from the panelists this morning and the 
conversation that we will have from here. Thank you.
    The Chairman. Thank you, Senator Murkowski. Your excellent 
statement and the number of Senators on both sides of the aisle 
who are here this morning reflects the urgency of the 
situation. I look forward to working with you.
    For our panel we have Forest Service Chief Tom Tidwell, 
Interior Deputy Secretary Kim Thorsen, Chris Topik of The 
Nature Conservancy, Lynn Jungwirth of the Watershed Research 
and Training Center, Diane Vosick of the Ecological Restoration 
Institute, and Oregon State Forester, Doug Decker.
    We'll begin with you, Chief. We'll make all of your 
prepared statements a part of the record. If you could 
summarize in the interest of time, and the fact that we have so 
many Senators here, that would be helpful.
    Let's begin with you, Chief. Welcome.

STATEMENT OF THOMAS TIDWELL, CHIEF, FOREST SERVICE, DEPARTMENT 
                         OF AGRICULTURE

    Mr. Tidwell. Mr. Chairman, Ranking Member Murkowski, thank 
you again for having the opportunity to be here.
    Between the 2 of you, your opening remarks, basically I 
think laid out the challenges that we're dealing with. There's 
just no question that today the fires are larger and more 
complex. The fire seasons, they're hotter, they're drier and 
they're longer. From everything that we see, this is not going 
to be changing.
    Now this change of conditions has come about for a couple 
of reasons.
    One is this abundance of biomass that's on the landscapes 
which we can contribute to our successful suppression over the 
last many decades.
    But the other thing that's really driving it is just the 
changing climate that we're dealing with. Today the fire 
seasons that we face today, they're over 60 days longer than 
when I was a fire fighter. That's the snow melts earlier, 
fields dry out that much faster. I'll tell you 2 more months of 
fire season is really what's driving a lot of the conditions 
that we're faced with.
    Even though we continue to be close to 98 percent 
successful when we take initial attack, those 2 percent fires 
when they escape, they quickly explode almost on the landscape. 
We're seeing that again once again this year and down in New 
Mexico, out there in the powerhouse in California and then also 
again with fires in Colorado.
    The other thing that adds to this is of course the over 40 
million acres of dead trees we have throughout the interior 
West. It's also going to be fueling these fires over the next 
few years. Then you add to that the continued expansion of the 
wildland urban interface. Just with the Forest Service, we have 
62 million acres of national forest that are either in or near 
the wildland urban interface. It definitely adds to the 
complexity of fighting fires when the first thing you have to 
do is make sure you're doing everything to keep that fire from 
coming into the community or into that subdivision.
    Now what are we doing about this?
    This is a thing that I think it's important that it's part 
of the FLAME Act. Your direction for us is for us to work 
together between the Federal agencies and our State partners to 
come up with a cohesive strategy about how to deal with this. 
That's what we're moving forward with.
    The first part of that is to be able to restore fire 
adapted ecosystems. Tracks right with our accelerated 
restoration. The reason why we need to be doing more work out 
in the woods to restore these lands and reduce the hazardous 
fuels.
    The second key part of that is to help build fire adapted 
human communities so that our communities are developing their 
community wild fire protection plans. They're implementing fire 
wise techniques so that they can do their part to reduce the 
threat of fire on the private land.
    Then the third part of this is to continue for us to be 
able to suppress fires where we need to suppress fires.
    We have the resources we need between the Federal agencies, 
our State, county and local fire. We have the fire fighters. We 
have the aviation resources. Yes, we will have the large air 
tankers that we need this year to be able to respond to these 
fires.
    The thing I need to stress is that these conditions are not 
going to change. But I do think by focusing on our cohesive 
strategy and moving forward with all 3 pieces of it, it's 
essential for us to really make a difference. So that one, we 
can continue to protect our communities.
    Then restore these national forests and grasslands.
    Reduce the hazardous fuel so that when fires do occur and 
they will occur, that they burn at a much less severity. So 
that it's easier for our fire fighters to be effective with 
their suppression actions.
    Then the consequences to the water sheds are so much less. 
These areas recover so much faster following a light to 
moderate burn verses some of the severe burning conditions that 
we're facing today.
    This concludes my remarks. I look forward to your 
questions. Thank you.
    [The prepared statement of Mr. Tidwell follows:]

Prepared Statement of Thomas Tidwell, Chief, Forest Service, Department 
                             of Agriculture
    Chairman Wyden, Ranking Member Murkowski, and members of the 
Committee, thank you for the opportunity to appear before you today to 
provide the status of the U.S. Forest Service's wildland fire 
management program.
    Around the world, the last two decades have seen fires that are 
extraordinary in their size, intensity and impacts. In Australia in 
2009, the Black Saturday Bushfires killed 170 people. Domestically, 
Florida, Georgia, Utah, California, Texas, Arizona, New Mexico and 
Colorado, have all experienced the largest and/or the most destructive 
fires in their history just in the last six years. On average wildfires 
burn twice as many acres each year as compared to 40 years ago, and 
there are on average seven times as many fires over 10,000 acres per 
year. (Climate Central, 2012)
    In 2012 over 9.3 million acres burned in the United States. The 
fires of 2012 were massive in size, with 51 fires exceeding 40,000 
acres. Of these large fires, 14 exceeded 100,000 acres (NICC 2012). The 
increase in large fires in the west coincides with an increase in 
temperatures and early snow melt in recent years. This means longer 
fire seasons. The length of the fire season has increased by over two 
months since the 1970s (Westerling, 2006).
    We estimate that 65 to 82 million acres of National Forest System 
lands are in need of fuels and forest health treatments-up to 42 
percent of the entire system. Part of the problem is severe drought, 
resulting in extreme fire weather and very large fires. At the same 
time landscapes are becoming more susceptible to fire impacts, more and 
more Americans are choosing to build their home in wild lands. The 
number of housing units within half a mile of a national forest grew 
from 484,000 in 1940 to 1.8 million in 2000. The number of housing 
units within national forest boundaries rose from 335,000 in 1940 to 
1.2 million in 2000. Forest Service estimates indicate a total of 
almost 400 million acres of all vegetated lands are at moderate to high 
risk from uncharacteristically large wildfires, and over 70,000 
communities are at risk.
          national cohesive wildland fire management strategy
    In 2009, Congress passed the Federal Land Assistance, Management, 
and Enhancement (FLAME) Act, calling on federal land managers to 
develop a joint wildland fire management strategy. Working together 
with the Department of the Interior, we took the opportunity to involve 
the entire wildland fire community in developing a long-term National 
Cohesive Wildland Fire Management Strategy. Our strategy has three 
components:

          1. Restoring fire-adapted ecosystems--Hundreds of post-fire 
        assessments show that fuels and forest health treatments are 
        effective in reducing wildfire severity. Accordingly, our fuels 
        treatments have grown; from FY 2001 to FY 2011, the Forest 
        Service treated about 27.6 million acres, an area larger than 
        Virginia. We focus our treatments on high-priority areas in the 
        Wildland Urban Interface, particularly communities that are 
        taking steps to become safer from wildfire.
          2. Building fire-adapted human communities--With more than 
        70,000 communities in the Wildland Urban Interface (WUI) at 
        risk from wildfire, the Forest Service is working through 
        cross-jurisdictional partnerships to help communities become 
        safer from wildfires, for example by developing community 
        wildfire protection plans. In addition, the Firewise program 
        helps communities with actions to reduce the potential for 
        homes to be ignited from wildfires. This is done through using 
        techniques such as home siting and development, home 
        construction, and home landscaping and maintenance which 
        reduces that potential. Through the Firewise program, the 
        number of designated Firewise communities rose from 400 in 2008 
        to more than 700 in FY 2012.
          3. Responding appropriately to wildfire--Most of America's 
        landscapes are adapted to fire; wildland fire plays a natural 
        and beneficial role in many forest types. Where suppression is 
        needed to protect homes, property and resources we focus on 
        deploying the right resources in the right place at the right 
        time. Using improved decision support tools, fire managers are 
        making risk-based assessments to decide when and where to 
        suppress a fire-and when and where to use fire to achieve 
        management goals for long-term ecosystem health and resilience.
          fire impacts to natural resources and infrastructure
    In 2012 over 4,000 structures were destroyed, including 2,216 
residences (average annual residences lost is 1,416 from 1999 through 
2012, NICC). The greatest loss of structures occurred in Colorado. In 
addition, these losses have a devastating impact on citizens, 
communities and economies. Watersheds that supply drinking water for 
the cities of Fort Collins, Greeley, Colorado Springs, Alamogordo, and 
Holloman Air Force Base in New Mexico were damaged by wildland fires in 
2012. The communities continue to feel the impact with over 20 miles of 
water delivery systems (pipelines, canals) and several large storage 
reservoirs still affected by post-fire flooding.
    In addition, impacts to natural resources can often have long term 
and sometimes irreversible consequences. In 2012, the Whitewater Baldy 
fire in New Mexico severely burned critical habitat and holdout areas 
for relict lineages of Gila Trout (one of the original species listed 
as endangered under the Endangered Species Act in 1973), significantly 
setting back recovery efforts that had successfully resulted in 17 
populations occupying over 80 miles of stream. The Gila Trout Recovery 
Plan requires 39 populations established in roughly 170 miles of stream 
to justify full delisting. This impact not only has consequences 
related to the viability of a species, but also severely impacts the 
ability of the agency or other entities to conduct management 
activities that could have the potential to impact the population.
                    impacts of increased fire costs
    Costs of fire suppression have increased to consume nearly half of 
the entire Forest Service budget. In FY 1991, fire activities accounted 
for about 13 percent of the total agency budget; in FY 2012, it was 
over 40 percent. In the 1980s and 1990s the 10-year average of 
suppression costs remained relatively stable, as did the number of 
acres burned nationwide. This was an abnormally wet period in the 
United States and fire activity was relatively low. However, beginning 
in the extreme fire season of 2000, which cost $1 billion, this trend 
started to change. The cost of the FY 2000 fires alone caused the 10-
year average to rise by over $80 million--a 16 percent increase. Since 
FY 2000, the 10-year average has risen almost every year--from a little 
over $540 million to almost $900 million in just the three years 
between 2000 and 2003, and then to over $1 billion in 2010 and beyond.
    Staffing within the agency has also shifted to reflect an increased 
focus on fire. Since 1998 fire staffing within the Forest Service has 
increased 110 percent from over 5,700 in 1998 to over 12,000 in 2012. 
Over the same time period, National Forest System staffing has 
decreased by 35 percent from over 17,000 in 1998 to over 11,000 in 2012 
and Forest Management staffing has decreased by 49 percent from over 
6,000 in 1998 to just over 3,200 in 2012.
    Fire transfers occur when the agency has exhausted all available 
fire resources from the Suppression and FLAME accounts. From FY 2002 to 
FY 2012, the Forest Service made fire transfers from discretionary, 
mandatory, and permanent accounts to pay for fire suppression costs six 
times, ranging from a low of $100 million in FY 2007 to a high of $999 
million in FY 2002, and totaling approximately $2.7 billion. Of that 
total, $2.3 billion was repaid but still led to disruptions within all 
Forest Service programs. In FY 2012, the Forest Service transferred 
$440 million to the fire suppression account for emergency fire 
suppression due to severe burning conditions and increasing fire 
suppression costs (and was repaid within weeks).
    Each time the agency transfers money out of accounts to pay for 
fire suppression there are significant and lasting impacts across the 
entire Forest Service. Not only do these impacts affect the ability of 
the Forest Service to conduct stewardship work on national forests, 
they also affect our partners, local governments and Tribes.
    For example, in California, the Region lacked funding to complete 
trail work on the Pacific Crest National Scenic Trail or repair many 
other key trails and trailheads and was not able to leverage that 
funding by utilizing partners that provide thousands of volunteer hours 
for trail maintenance. This lack of maintenance work is predicted to 
cause sedimentation and damage to watersheds. Additionally, agreements 
with partners such as the California Conservation Corps on the Los 
Padres National Forest were deferred and relationships impacted.
                         firefighting resources
    The agency has the capability to protect life, property, and 
natural resources while assuring an appropriate, risk-informed, and 
effective response to wildfires that is consistent with land and 
resource management objectives. We do this through not only the 
resources of the Federal Government, but also with employees from 
States, Tribal governments, and local governments, contract crews, and 
emergency/temporary hires. Firefighter and public safety are the 
primary considerations for all operations. The agency continues to 
suppress about 98 percent of the fires that require initial attack. 
However, the few fires that continue to burn after they escape initial 
attack tend to grow quickly.
    Wildland fire response requirements are unpredictable. This 
requires a management strategy that can increase and decrease the 
workforce based on fire activity levels. The Forest Service employs 
both permanent firefighting assets, which also conduct fuels 
treatments, and seasonal assets to support suppression activities 
during peak fire season. Call When Needed (CWN) assets are important in 
meeting fire response requirements when activities exceed our standard 
asset capability. Firefighting assets are employed in a cost effective 
way when they are justified within our preparedness and suppression 
strategies. We evaluate each asset's cost effectiveness relative to the 
need they meet.
    Under the President's budget for FY 2014, suppression capability 
will be comparable to previous years. However, we recognize that given 
limited budgets, maintaining this capability will present challenges. 
With greater mobility and with agreement to focus assets on high risk 
areas, it is likely that high levels of initial attack success will 
continue. For the 2013 fire season, the available firefighting forces--
firefighters, equipment, and aircraft--are reduced to those available 
in 2012. Nonetheless, we will have close to 13,000 firefighters 
available from the Department of Agriculture and the Department of the 
Interior with approximately 70 percent coming from the Forest Service. 
The reduction resulted in fewer firefighters and engines, but the level 
of highly-trained smokejumpers, Type 1 national interagency incident 
management teams (the most experienced and skilled teams) available for 
complex fires or incidents, and Type 2 incident management teams 
available for geographical or national incidents, are comparable to 
those available in 2012. Depending on how the 2013 fire season 
develops, we are prepared to bring on additional CWN resources (engines 
and aircraft) to offset the reduction in firefighters and engines. 
However these additional resources will increase suppression costs 
since the cost of CWN resources averages 1.5 to 2 times the cost of 
exclusive use resources.
    Additionally, the Federal wildland firefighting community works 
with State and local fire departments, which serve a critical role in 
our initial attack and, in many cases, our extended attack success. The 
Forest Service uses its authority to provide State Fire Assistance 
funds to State partners to support State fire management capacity. We 
could not achieve the successes we have without these key partners.
    Nationally, the wildland firefighting agencies continue to employ a 
mix of fixed and rotor wing aircraft. The number of these aircraft may 
fluctuate depending on contractual and other agreements. Key components 
of the Forest Service 2013 aviation resources include:

  <bullet> Up to 26 large air tankers under contract or agreement;
  <bullet> 420 helicopters;
  <bullet> 15 leased Aerial Supervision fixed-wing aircraft;
  <bullet> Up to 12 Smokejumper aircraft;
  <bullet> 2 heat detecting infrared aircraft;
  <bullet> 3 water scoopers including 1 CL-415.

    An additional key component is the organized network of 295 
federal, state, and local government dispatch and coordination centers 
which provide tactical, logistical, and decision support to the federal 
wildland fire agencies.
                        fire adapted communities
    The spread of homes and communities into areas prone to wildfire is 
an increasing management challenge. From 2000 to 2030, we expect to see 
substantial increases in housing density on 44 million acres of private 
forest land nationwide, an area larger than North and South Carolina 
combined (USDA Forest Service, 2005). Currently, more than 70,000 
communities are now at risk from wildfire, and less than 15,000 have a 
community wildfire protection plan or an equivalent plan. (USDA Forest 
Service, 2012) Federal engagement with State and local fire agencies 
and other partners is central to our collective success in assisting 
communities at risk from wildfires. Wildfires know no boundaries and we 
must work within an all-lands context to prevent human caused fires, 
mitigate risk to communities, and manage for and respond to wildfires. 
According to studies cited in the 2013 USDA Forest Service General 
Technical Report (RMRS-GTR-299), more than one-third of all housing 
units in the continental U.S. are located within the WUI, and the 
trends suggest that these numbers will continue to grow.
    To help address the risk faced by communities in the WUI, the 
Forest Service began developing the Fire Adapted Communities program in 
2009, with a 2012 launch (including the website www.fireadapted.org and 
an Ad Council national public awareness campaign). This program assists 
communities to become fire adapted and is critical to protecting 
residents, firefighters, property, infrastructure, natural resources, 
and cultural values from wildfires. The strategy emphasizes that 
mitigation is a shared responsibility by Federal, State, local, and 
private stakeholders and that pre-fire mitigation is part of the 
solution to escalating wildfire suppression costs in the WUI.
    The Forest Service's Fire Adapted Communities effort brings 
together a wide array of government and non-government partners to 
educate the public about the full suite of mitigation tools that can 
help communities adapt to wildfire. Fire Adapted Communities messaging 
is delivered by partners including the National Fire Protection 
Association International Association of Fire Chiefs, The Nature 
Conservancy Ad Council, National Volunteer Fire Council, and the 
National Association of State Foresters, who leverage federal dollars 
with their own program dollars for maximum effect. Fire Adapted 
Communities create a safer place for firefighters, give response teams 
more decision space, reduce the need for additional suppression in the 
community, and reduce large fire suppression costs.
                          restoring ecosystems
    The Forest Service is restoring the ability of forest and grassland 
ecosystems to resist climate-related stresses, recover from climate-
related disturbances, and continue to deliver important values and 
benefits. By restoration, we mean restoring the functions and processes 
characteristic of healthier, more resistant, more resilient ecosystems, 
even if they are not exactly the same systems as before. Restoring and 
maintaining fire resilient landscapes is critical and essential to our 
stewardship responsibilities for the national forests. Factors 
including human activities and land development, loss of indigenous 
burning practices, and fire suppression have all led to changes in 
forests that historically had frequent fires. Some forests have 
experienced a buildup of trees and brush due to a lack of fire. In some 
areas fuel loads on the forest floor have increased where low intensity 
fires were historically the norm. These forest types are now seeing 
high severity fires under even moderate weather conditions.
    Approaches to restoring fire-adapted ecosystems often require 
treatment or removal of excess fuels (e.g. through mechanical thinning, 
prescribed fire, or a combination of the two), reducing tree densities 
in uncharacteristically crowded forests, and application of fire to 
promote the growth of native plants and reestablish desired vegetation 
and fuel conditions. Excess fuels are those that support higher 
intensity fires than those under which the ecosystem evolved, and can 
include leaf litter and debris on the forest floor as well as the 
branches and foliage of small trees that provide ladder fuels allowing 
surface fires to transition to crown fires. Fuel treatments result in 
better outcomes on the land, more resilient and healthier ecosystems 
that provide the many benefits society wants and needs, including 
water, scenic and recreational values, wood products, and biodiversity; 
communities that are better able to withstand wildfire; and safer 
conditions and more options for firefighters. Fuel treatments change 
fire behavior and provide more options to engage a fire. This can 
decrease fire size, intensity, divert fire away from high value 
resources, and can result in reduced suppression costs.
    When a wildfire starts within or burns into a fuel treatment area, 
an assessment is conducted to evaluate the resulting impacts on fire 
behavior and fire suppression actions. Of over 1,600 assessments 
conducted to date, over 90 percent of the fuel treatments were 
effective in changing fire behavior and/or helping with control of the 
wildfire (USFS, 2012).
    In FY 2012, the Forest Service accomplished 1.2 million acres of 
prescribed fire, 662,475 acres of mechanical treatment to reduce 
hazardous fuels and managed 141,314 acres of wildfires to benefit 
natural resources as well as reduce hazardous fuels for a total 
accomplishment of over 2 million acres. The WUI remains the highest 
priority and nearly 1.3 million acres of the total treated acres were 
in the WUI. Of these treatments, 93 percent of the acres accomplished 
were identified as a treatment priority in a community wildfire 
protection plan or an equivalent collaborative plan. Hazardous fuels 
treatments also produced 2.8 million green tons used for energy and 
nearly 1 million CCF of wood products. In FY 2012, 20 biomass grant 
awards from the Woody Biomass Utilization Grant program totaling 
approximately $3 million were made to small business and community 
groups across the country. This $3 million dollar investment leveraged 
over $400 million dollars of Rural Development Grants and Loan 
Guarantees for woody biomass facilities. The Woody Biomass Utilization 
Grant program has contributed to the treatment of over 500,000 acres 
and removed and utilized nearly 5 million green tons of biomass at an 
average cost of just $66 per acre. Grantees also reported a combined 
1,470 jobs created or retained as a result of our grant awards.
                         issues for the future
    The largest issue is how we adapt our management to anticipate 
climate change impacts and begin to mitigate their potential effects. 
Additionally, the agency needs to continue to advance the Cohesive 
Strategy and treatment of landscapes collaboratively through our 
Accelerated Restoration Strategy to increase the number of acres and 
watersheds restored across the system, while supporting jobs and 
increasing annual forest products sales. Finally, we must discuss and 
find ways to fund programs while minimizing the effect on all Forest 
Service operations.
    This concludes my statement.

    The Chairman. Very good. Thank you, Chief.
    Ms. Thorsen.

 STATEMENT OF KIM THORSEN, DEPUTY ASSISTANT SECRETARY, PUBLIC 
SAFETY, RESOURCE PROTECTION, AND EMERGENCY SERVICES, DEPARTMENT 
                        OF THE INTERIOR

    Ms. Thorsen. Chairman Wyden, Ranking Member Murkowski, 
members of the committee, thank you for the opportunity to 
testify today on Interior's readiness for the 2013 wildland 
fire season.
    The Department of the Interior, along with our partners in 
the Forest Service, is prepared for this season with our 
available resources. Just a couple of days ago the National 
Wildland Fire Potential Outlook for the period of June through 
September was released. That outlook predicts above normal fire 
potential for much of the West.
    As you know a variety of conditions, which have been 
discussed this morning, contribute to actual fire activity and 
severity. But this outlook gives us an important insights as to 
when, where and how to position our resources for the summer. 
Much like other departments across the Federal Government 
programs within Interior have felt the impact from 
sequestration.
    As we developed our sequestration implementation plan we 
made every effort to prioritize preparedness for the upcoming 
fire season and to absorb the cuts in a way that it would not 
compromise our ability to respond to fires this season. 
Therefore, we focused cuts to the wildland fire program in 
areas such as travel, training, contracted services and 
operating supplies first. Overall the sequestration resulted in 
a $37.5 million cut to Interior's fire program.
    The long term impacts of sequestration are impossible to 
avoid. We have had to make difficult choices that will reduce 
our overall capacity such as not filling permanent staff 
vacancies, reducing seasonal firefighter employment periods and 
reducing the number of hazardous fuels crews. In addition other 
reductions in seasonal hiring across Interior will have a 
residual impact on the overall numbers of fire fighters 
available for dispatch, since many of these hires, while being 
non-fire positions are red carded or trained to fight fire.
    In aviation this year Interior has 27 single engine air 
tankers or seats on exclusive use contracts. Double the number 
we have had in the past and 42 on call, when needed, contracts. 
The Department made a conscious decision to double the number 
of seats on exclusive use contracts in order to be prepared for 
the 2013 season and to reduce the overall cost to the program. 
We also have small and large helicopters and water scoopers 
available.
    The reality of today's Federal funding challenges 
highlights the importance of working together across landscapes 
and with our partners to achieve our goals. Interior is 
committed to the national cohesive wildland fire management 
strategy to restore and maintain resilient landscapes, create 
fire adaptive communities and respond to wild fire, to realize 
those goals.
    I want to conclude my comments by noting several 
programmatic challenges facing the Department's wildland fire 
management program.
    We need to realign the overall program to better integrate 
with land and resource management activities as we continue to 
develop strategies to deal with the long term affects of 
declining budgets, the changing climate, evolving work force 
and the continued need to develop technologies and decision 
support tools.
    The Department of the Interior is prepared to make the 
wildland fire fighting challenges of today and tomorrow with 
the most efficient use of its available resources.
    Specific actions include continued reduction of hazardous 
fuels in priority areas where there is the greatest opportunity 
to reduce the risk of severe wild fires.
    Continued improvement in decisionmaking on wildland fires 
by leveraging the wildland fire decision support systems, 
capabilities to predict what may happen during a wild fire, to 
safeguard lives, protect communities and enhance natural 
resource ecosystem health.
    Continued enhancement to wild fire response that comes from 
efficient use of national shared resources, prepositioning of 
firefighting resources and improvements in aviation management.
    Continued review of wild fire incidents to apply lessons 
learned and best practices to policy and operations.
    Continued strategic planning and collaboration with the 
Forest Service, our tribal partners, State partners and local 
government partners to develop meaningful performance measures 
and implementation plans to address the challenges posed by 
wild fires in the Nation.
    The Department of the Interior and the Department of 
Agriculture work collaboratively of all aspects of wildland 
fire management along with our Federal, tribal, State and local 
partners.
    We will continue to improve safety, effectiveness, cost 
efficiency and community and resource protection with all of 
our available resources.
    The concludes my statements. Thank you for this interest in 
the Department's wildland fire management program and for the 
opportunity to testify today.
    [The prepared statement of Ms. Thorsen follows:]

 Statement of Kim Thorsen, Deputy Assistant Secretary, Public Safety, 
Resource Protection, and Emergency Services, Department of the Interior
Introduction
    Chairman Wyden, Ranking Member Murkowski, and members of the 
Committee, thank you for the opportunity to testify today on Department 
of the Interior's readiness for the 2013 wildland fire season. The U.S. 
Department of the Interior (DOI), along with the Forest Service within 
U.S. Department of Agriculture, is prepared for the 2013 wildland fire 
season with our available resources.
2012 Wildfire Season
    The 2012 wildfire season was an active year. The fire season was 
especially notable because about 9.3 million acres burned across the 
United States of which 4.4 million acres were on DOI lands. It was one 
of the largest fire seasons in terms of annual acreage burned, based on 
the reporting of fire statistics from 1960 to present. Fifty-one fires 
exceeded 40,000 acres in 2012, ten more than in 2011. Over 4,200 
structures were reported destroyed by wildfires, including over 2,200 
residences, nearly 2,000 outbuildings, and approximately 70 commercial 
structures.
    This is well above the annual average of 1,400 residences, 1,300 
outbuildings, and 50 commercial structures (data from 1999 through 
2012, NICC).
    More than twenty percent of the United States (510 million acres) 
is managed or held in trust by the Department's bureaus with fire 
management responsibilities. Those lands stretch from Florida to 
Alaska, from Maine to California. DOI has achieved a high success rate 
in suppressing fires during the initial attack stage, which helps 
control cost.
2013 Fire Season
    We are expecting the 2013 fire season to be similar to last year's. 
The National Wildfire Potential Outlook for the period of June through 
August predicts above-normal fire potential for June over much of 
California and Oregon, south central Washington, most of Arizona and 
New Mexico, and southern Utah and Colorado. These above-normal 
conditions will remain in California, Oregon and Washington through 
July and August, while also expanding into central Idaho and 
southwestern Montana.
    Wildland fire behavior and the Department's response are influenced 
by complex environmental and social factors as discussed in the 2009 
Quadrennial Fire Review (QFR), the National Cohesive Wildland Fire 
Management Strategy, and other strategic foundational documents used to 
guide the Wildland Fire Management program. The impacts of climate 
change, cumulative drought effects, increasing risk in and around 
communities, and escalating emergency response costs continue to impact 
wildland fire management and wildfire response operations. Through the 
end of May the Nation has experienced nearly 18,000 fires on just over 
240,000 acres mainly in the East, South, and Southwestern geographic 
areas where fire season typically begins early in the year. Although 
these numbers are less than the ten year average, due to wet conditions 
in the East and South, we expect normal to above normal fire conditions 
throughout the West this year. Conditions in California up through 
Oregon and Washington are expected to be above normal as the summer 
progresses.
Effects of Sequestration
    Much like other Departments across the federal government, programs 
within Interior have felt the impact from sequestration. As we 
developed our sequestration implementation plan, we made every effort 
to prioritize preparedness for the upcoming fire season and to absorb 
the cuts in a way that would not compromise our ability to respond to 
fires this season. Therefore, we focused cuts to the wildland fire 
management program in areas such as travel, training, contracted 
services, and operating supplies first. Overall, the sequestration 
resulted in a $37.5 million cut to Interior's fire program and resulted 
in a reduction of approximately 7 percent of FTE the Department's 
firefighter seasonal workforce, with reduced lengths of employment for 
those hired.
    The long-term impacts of sequestration are impossible to avoid. We 
have had to make difficult choices that will reduce our overall 
capacity such as not filling permanent staff vacancies, reducing 
seasonal firefighter employment periods, and reducing the number of 
hazardous fuels crews. In addition, other reductions in seasonal hiring 
across Interior will have a residual impact on the overall numbers of 
firefighters available for dispatch, since many of these hires, while 
being non-fire positions, are ``red-carded'' or trained to fight fire 
when needed.
Expected Available Fire Resources
    Among its bureaus, the Department will deploy just over 3,400 
firefighters, including 135 smokejumpers, 17 Type-1 crews; 750 engines; 
more than 200 other pieces of heavy equipment (dozers, tenders, etc.); 
and about 1,300 support personnel (incident management teams, 
dispatchers, fire cache, etc.); totaling nearly 5,000 personnel.
    In aviation, this year, Interior has 27 single-engine airtankers or 
SEATS on exclusive use contracts--double the number we have had in the 
past, and an additional 42 on call-when-needed contracts. The 
Department made a conscious decision to double the number of SEATs on 
exclusive use contracts in order to be prepared for the 2013 season and 
to reduce the overall costs to the program. SEATs are a good fit for 
the types of fires that the Interior agencies experience, which usually 
burn at lower elevations, in sparser fuels, on flatter terrain. We also 
have small and large helicopters and water scoopers available. We will 
utilize Forest Service contracted heavy airtankers and, if necessary, 
Modular Airborne FireFighting System (MAFFS) aircraft from the 
Military. Agreements are in place to acquire supplemental aircraft from 
our state and international partners, if necessary.
Department of Defense Assistance
    Over the past year, officials from the Departments of the Interior 
and Agriculture have worked with officials from Northern Command 
(NorthCom), in Colorado, to develop a new approach for obtaining 
support from the Department of Defense (DoD) should their assistance be 
needed during the 2013 fire season and into the future.
    Previously, the DoD provided ground forces configured as 
battalions--550 soldiers each. Future requests for support will now 
include approximately ten 20-person crews from regionally based 
installations, within a reasonable distance from the incident. This 
ability will provide flexibility in the use of DoD resources as well as 
providing the anticipated numbers needed based on historical use. Our 
staffs are in the process of developing options for training that will 
include a smaller training cadre and include qualified DoD personnel. 
An Incident Awareness Assessment is also being conducted to identify 
potential gaps and areas where DoD may be able to provide specialized 
and/or surge capability in imagery products for use on wildfire 
incidents.
Fiscal Year 2014 Budget
    The President's FY 2014 budget proposes a total of $776.9 million 
to support the fire preparedness, suppression, fuels reduction, and 
burned area rehabilitation needs of the Department. The budget fully 
funds the inflation-adjusted 10-year average of suppression 
expenditures of $377.9 million, with the funding split between $285.9 
million in the regular suppression account and $92.0 million in the 
Federal Land Assistance, Management, and Enhancement (FLAME) Fund. This 
represents a program increase of $205.1 million over the 2012 enacted 
level, because the full 10-year average was not appropriated in 2012 
and the program relied on available balances from prior years. 
Consistent with the FLAME Act, the regular suppression account will 
fund the initial attack and predictable firefighting costs, while the 
FLAME Fund will fund the costs of large, catastrophic-type fires and 
also serve as a reserve when funds available in the regular suppression 
account are exhausted. While the budget provides funding to cover 
anticipated preparedness and suppression needs, the Department 
recognizes the need to invest not just in firefighting related 
activities, but also hazardous fuels reduction, community assistance, 
and rehabilitation of burned areas. Interior has made significant 
improvements to management information tools to provide program 
leadership information on determining where funds may best be directed. 
The Department will continue to pursue efficiencies and reforms that 
reduce project cost, increase performance, ensure the greatest value 
from invested resources, all while strengthening the accountability and 
transparency of the way in which taxpayer dollars are being spent.
Hazardous Fuels Reduction Program
    The 2014 budget requests $95.9 million for the Department's 
Hazardous Fuels Reduction (HFR) program, a reduction of $88.9 million 
from 2012 and $49.4 million from 2013. The increase in complexity and 
intensity of fires over the last ten years presents enormous budgetary 
challenges for the wildland fire program. With today's fiscal climate, 
and competition for limited resources, we are being asked to make tough 
choices. The reduction to the fuels budget is one of those tough 
choices. This presents an opportunity to re-evaluate and recalibrate 
the focus of the HFR program to align and support the direction in the 
National Cohesive Wildland Fire Management Strategy and the Federal 
Wildland Fire Management Policy. Affirming a commitment to the 
intergovernmental goals of the Cohesive Strategy, HFR program 
activities will be planned and implemented to mitigate risks posed by 
wildfire. The program uses a risk-based prioritization process to 
ensure activities are implemented in the areas of greatest risk from 
wildfire, and will foster closer alignment and integration of the 
program into the bureaus' broader natural resource management programs. 
To encourage this, the 2014 program includes $2 million to conduct 
additional research on the effectiveness of hazardous fuels treatments. 
As a result, the Department will take a serious look at how we can make 
the most difference on the ground with what we have. The program will 
continue to focus fuels reduction on the highest priority projects in 
the highest priority areas resulting in the mitigation of risks to 
communities and their values.
Partnerships
    The realities of today's federal funding challenges, such as the 
reduction to the hazardous fuels program, highlights the importance of 
working together across landscapes, and with our partners to achieve 
our goals.
    The federal government wildland fire agencies are working with 
tribal, state, and local government partners to prevent and reduce the 
effects of large, unwanted fires through preparedness activities like 
risk assessment, prevention and mitigation efforts, mutual aid 
agreements, firefighter training, acquisition of equipment and 
aircraft, and dispatching; community assistance and hazardous fuels 
reduction. These actions demonstrate Interior's continued commitment to 
the goals of the National Cohesive Wildland Fire Management Strategy 
(restore and maintain resilient landscapes, create fire-adapted 
communities, and response to wildfire).
Federal Wildland Fire Management Policy
    The Department will also continue to take full advantage of the 
current Implementation Guidelines for the Federal Wildland Fire 
Management Policy. Our unwavering commitment to firefighter and public 
safety in managing wildfire is the foundation of the wildland fire 
management program within each DOI bureau. We will continue to respond 
quickly and effectively to control unwanted wildland fires. Initial 
action on human-caused wildfire will continue to suppress the wildfire 
at the lowest risk to firefighter and public safety. When appropriate, 
we will also allow fire managers to manage a wildfire for multiple 
objectives and increase managers' flexibility to respond to changing 
incident conditions and firefighting capability, while strengthening 
strategic and tactical decision implementation supporting public safety 
and resource management objectives.
    Actions by wildland fire managers will be supported by the best 
available science and decision support systems such as the Wildland 
Fire Decision Support System (WFDSS). These tools afford our wildland 
fire managers an enhanced ability to analyze wildfire conditions and 
develop risk informed strategies and tactics, which result in the 
reduced exposure to unnecessary risk during a sequester-impacted 
wildfire season.
Long-Term Programmatic Challenges
    There are several longer-term programmatic challenges facing the 
Department's wildland fire management program including the need to re-
align the overall program to better integrate with land and resource 
management activities We must continue to develop strategies to deal 
with the long-term effects of declining budgets, the changing climate, 
evolving workforce, and the continued need to develop technologies and 
decision support tools to better inform our wildland fire managers of 
the future.
    The Department of the Interior is prepared to meet the wildland 
firefighting challenges of today and tomorrow with the most efficient 
use of its available resources. DOI will maintain operational 
capabilities and continue to improve the effectiveness and efficiency 
of the wildland fire management programs. These efforts are coupled 
with other strategic efforts and operational protocols to improve 
oversight and use of the latest research and technology in order to 
ensure wildland fire management resources are appropriately focused. 
Specific actions include:

  <bullet> Continued reduction of hazardous fuels in priority areas, 
        where there is the greatest opportunity to reduce the risk of 
        severe wildfires;
  <bullet> Continued improvement in decision-making on wildland fires 
        by leveraging the Wildland Fire Decision Support System's 
        capabilities to predict what may happen during a wildfire, to 
        safeguard lives, protect communities, and enhance natural 
        resource ecosystem health;
  <bullet> Continued enhancement to wildfire response that comes from 
        efficient use of national shared resources, pre-positioning of 
        firefighting resources, and improvements in aviation 
        management;
  <bullet> Continued review of wildfire incidents to apply lessons 
        learned and best practices to policy and operations; and
  <bullet> Continued strategic planning in collaboration with the 
        Forest Service and our tribal, state, and local government 
        partners to develop meaningful performance measures and 
        implementation plans to address the challenges posed by 
        wildfires in the nation.
Conclusion
    The Department of the Interior and the Department of Agriculture 
(USDA) work collaboratively in all aspects of wildland fire management, 
along with our other federal, tribal, state and local partners. 
Together, with all our available resources, we will provide a safe, 
effective wildland fire management program. We will continue to improve 
effectiveness, cost efficiency, safety, and community and resource 
protection with all our available resources.
    This concludes my statement. Thank you for your interest in the 
Department's wildland fire management program and for the opportunity 
to testify before this Committee. I welcome any questions you may have 
and appreciate your continued support.

    The Chairman. Ms. Thorsen, thank you.
    Mr. Decker.

   STATEMENT OF DOUG DECKER, OREGON STATE FORESTER, SALEM, OR

    Mr. Decker. Good morning, Chairman Wyden, Ranking Member 
Murkowski, members of the committee and colleagues here. I'm 
Doug Decker, Oregon State Forester and Director of the Oregon 
Department of Forestry. I'm pleased to be with you this morning 
to offer a view from a State where 60 percent of our forests 
are owned by the Federal Government and also to speak on behalf 
of the National Association of State Foresters.
    Most States have statutory responsibility to protect State 
and private forest lands from fire. Last year the States 
provided fire protection on more than a billion acres 
nationally. For us in Oregon the fire mission is the 
cornerstone of our agency culture. It's a major part of what we 
do and who we are and the reason our agency was first organized 
in 1911.
    We are Oregon's largest fire department. I'm proud to say 
this morning that we have a strike team of engines and 
personnel headed from Oregon to New Mexico to help out on the 
fires down there.
    In Oregon our fire conditions are more than a month ahead 
of normal. We've already had double the number of fires that we 
usually see this time of year and triple the number of acres 
burned. We've seen evacuations of subdivisions. As Senator 
Wyden mentioned, even in the coast range, the moist part of 
Oregon, we've had active fires in May. We're very concerned 
about the fire season ahead.
    In Oregon, as elsewhere, more people are living in fire 
prone landscapes. Fire seasons are indeed longer. Fuel loads 
are uncharacteristically high, particularly in Federal forests. 
All of this produces risk and cost that can really overwhelm 
even our best fire management efforts.
    The trends also highlight important differences in mission 
and risk tolerance between State and Federal agencies. Clearly 
we need to understand and accommodate these differences. Our 
mission at the State level is very clear. It's to put out every 
fire as quickly and as safely as possible. It's a posture that 
we believe minimizes resource damage, minimizes suppression 
costs borne by land owners and in Oregon also by all 
Oregonians.
    Our Federal partners, by contrast, are tasked both with 
suppressing fires and in some cases allowing fire to achieve 
resource benefits. In effect this transfers risk from Federal 
lands to adjoining or intermingled State protected lands. I 
think it's important to note that this transfer has actually 
already occurred even before a fire starts given the expanses 
of Federal land that are at risk today of uncharacteristically 
severe fire. Unfortunately reductions, proposed reductions, in 
land management and hazardous fuel programs make it more 
difficult to address these problems at a meaningful scale.
    This brings us to the Blue Mountains of Northeast Oregon, 
one of the Nation's first pilot projects under the Cohesive 
Wildfire Strategy. You know the strategy targets improving fire 
response, creating better fire adapted communities and 
implementing active management and restoration as a way of 
having more fire resilient landscapes. In the Blues the 
Department of Forestry shares 3,500 miles of boundary with the 
U.S. Forest Service. In these communities and under the 
Cohesive Wildfire Strategy pilot, we're all working together to 
look for better ways to strengthen what we believe is an 
already sound fire response.
    Our collective ability to respond successfully to fires is 
directly linked with how resilient the landscape is to fire and 
how well we've adapted our communities to wildfire in these 
areas. In the Blues we're having very frank discussions about 
risk tolerance, about the values at risk on private land and 
how and when to use fire as a management tool. We're also 
looking for ways to improve the economics of forest management 
as a way to increase the fire resilience of the landscape.
    On the subject of fire costs and speaking here for Oregon 
as well as for the National Association of State Foresters, we 
are concerned about the escalation of suppression costs for all 
agencies. Those costs often come at the expense of the very 
programs that are intended to restore the lands and to mitigate 
the risks. With many others, the association supports 
adequately funding Federal fire suppression and maintaining the 
FLAME reserve accounts in a way that doesn't come at the 
expense of other programs. We know that that was the intent 
when FLAME was enacted in 2009. We think it's an essential 
element to our long term collective success.
    Thank you for the opportunity to share their perspectives. 
I look forward to our questions and answers.
    [The prepared statement of Mr. Decker follows:]

  Prepared Statement of Doug Decker, Oregon State Forester, Salem, OR
    The Oregon Department of Forestry (ODF) and the National 
Association of State Foresters (NASF) appreciate the opportunity to 
submit testimony as the Committee explores the many and complex issues 
surrounding wildland fire management. The mission of ODF is to serve 
the people of Oregon by protecting, managing, and promoting stewardship 
of Oregon's forests to enhance environmental, economic, and community 
sustainability. Among other responsibilities and activities, ODF 
manages state-owned forestlands, administers the Oregon Forest 
Practices Act and provides forestry assistance to Oregon's 143,000 non-
industrial private woodland owners. Additionally, ODF provides fire 
protection for 16 million acres of private, state and locally owned 
forests in Oregon, including federal lands in western Oregon owned by 
the Bureau of Land Management. ODF's fire protection goals are clear: 
to devise and use environmentally sound and economically efficient 
strategies to minimize the cost of protecting Oregon's timber and other 
forest values from loss caused by wildland fire.
    The NASF represents the directors of the state forestry agencies in 
all fifty states, eight territories, and the District of Columbia. 
State Foresters deliver technical and financial assistance, along with 
forest health, water and wildfire protection for more than two-thirds 
of the nation's forests. The mission and duties of state agencies with 
forestry and wildfire protection responsibilities vary significantly 
from state to state; however most have statutory responsibility to 
provide wildland fire protection for state and private lands. In 2012, 
state forestry agencies provided this service on over 1 billion acres 
and helped train nearly 83,000 rural firefighters. State Foresters work 
closely with federal partners to deliver forestry programs and wildfire 
protection.
2012-2013 Fire Season
    Wildland fire protection and management continues to increase in 
both cost and complexity across the country. With more people living in 
fire-prone landscapes, longer fires seasons due at least in part to our 
changing climate, and forests with fuel loads well outside the historic 
range of variability, we are continuing to see larger fires along with 
longer and more variable fire seasons. The conditions in our forests-
particularly federal forests-have created a situation that can easily 
overwhelm fire management efforts, challenge fire management entities-
especially in multi-jurisdictional fires-and produce billions of 
dollars in suppression costs and resource loss each year. The scope of 
the wildland fire problem is immediately evident in the Forest Action 
Plans,\1\ wherein wildland fire was uniformly identified as a 
significant threat and a priority issue for states.
---------------------------------------------------------------------------
    \1\ See Forest Action Plans website, www.forestactionplans.org. 
Last accessed May 21, 2013.
---------------------------------------------------------------------------
    In 2012, a total of 67,774 fires were reported across the country, 
burning 9.3 million acres across all ownerships. These fires destroyed 
over 5,200 structures, including at least 3,500 homes. NASF estimates 
that nearly 72,000 communities are at risk of wildland fire, of which 
only 20% are covered by a Community Wildfire Protection Plan.
    The National Interagency Fire Center recently reported that the 
2013 fire season across the country has been slower than usual, with 
16,436 fires burning 219,920 acres as of May 21, 2013.\2\ These early 
season numbers are due in large part to cooler than normal weather in 
the southeastern United States. In Oregon, the 2013 fire season has 
actually been well above normal with more than 100 fires this year 
already, including evacuations of subdivisions in central Oregon and 
active burning even in Oregon's moist Coast Range. Much of the West, 
including Oregon, Arizona, New Mexico, California, Colorado, Idaho, 
Montana, Utah, and Washington are expecting above normal fire activity 
throughout the summer.\3\
---------------------------------------------------------------------------
    \2\ The 10-year average for this same period is 27,657 fires 
burning 1,078,441 acres. National Interagency Fire Center www.nifc.gov/
fireinfo/nfn.htm. Last accessed May 21, 2013.
    \3\ National Significant Wildland Fire Potential Outlook. Issued 
May 1, 2013. Available at www.nifc.gov/fireinfo/fireinfo__main.html 
Last accessed May 21, 2013.
---------------------------------------------------------------------------
Wildland Fire Challenges
    Oregon's fire season--which has already begun, as mentioned above--
appears to be roughly one and a half months ahead of the typical 
seasonal cycle. Very recent moisture is providing some much-needed 
relief, even if only temporarily. Much of the state experienced below-
average precipitation through late winter and spring. When coupled with 
recent above-average temperatures and lightning, this created unusually 
volatile early season burning conditions and challenged our resources 
with 40 fires during the first weekend in May. These fires spanned the 
entire state, from the Coast Range to the eastside, and presented 
unique challenges as the majority of Oregon's state and federal 
seasonal firefighters were not yet in place.
    In addition to facing what is expected to be a very challenging 
fire season in Oregon and across much of the West, we are also working 
to address issues that are especially keen in western states with 
significant federal forest acreage. It is a constant challenge for 
states to reconcile our different missions and responsibilities with 
those of our federal partners. In Oregon, the responsibility of our 
Protection from Fire Division is clear when it comes to fire 
suppression: put the fire out as quickly and safely as possible. This 
is accomplished in Oregon through aggressive initial attack. We seek to 
keep fires as small as possible, which limits the risks to firefighting 
personnel from extended attack fire suppression and minimizes damage to 
the forest resources that forest landowners and all Oregonians pay ODF 
to protect. We strive to control 97 percent of all fires we fight at 
less than 10 acres, protecting property and saving millions in fire 
costs and damage.
    Conversely, our federal partners do not have the same clear 
direction to engage in full suppression, but are tasked with both 
suppressing fire and also using fire by allowing it to burn under 
certain conditions in order to accomplish resource benefits. Our 
federal partners, such as the USDA Forest Service (Forest Service), are 
able to do this largely because they have a different risk tolerance 
than the states. Because states are paid to protect private forestlands 
by the landowners, the states typically do not engage in anything less 
than full suppression of wildland fires during fire season. The 
differences in risk tolerance become a real problem for states when the 
strategies willingly assumed by federal partners-typically allowing 
fires to grow large to address other resource goals, or introducing 
fire in intermingled ownership patterns--are transferred as risk to 
non-federal lands. Even before a fire starts or is managed on federal 
forests, there are millions of federal forests where the transfer of 
risk has already occurred as a result of less active management or 
essentially passive management for a variety of reasons. As a result, 
millions of federal forest acres are at risk of catastrophic wildfire; 
this in turn has become central to the challenge of protecting 
adjoining private forests.
    One of the guiding principles of the National Cohesive Wildland 
Fire Management Strategy (Cohesive Strategy) states ``[w]here land and 
resource management objectives differ, prudent and safe actions must be 
taken through collaborative fire planning and suppression response to 
keep unwanted wildfires from spreading to adjacent jurisdictions.''\4\ 
Divergent forest management and fire policies and fire crossing 
ownerships--and even state boundaries--strain working relationships 
between local managers, communities, and forest landowners. They can 
also result in substantial resource damage and loss. Much of the work 
of active management, collaboration and pre-planning that needs to be 
addressed under the Cohesive Strategy must occur in the off season if 
it is to succeed during a fire event.
---------------------------------------------------------------------------
    \4\ Wildland Fire Leadership Council Commitment to Cohesive 
Strategy, January 27, 2012. Available at www.forestsandrangelands.gov/
strategy/. Last accessed May 22, 2013.
---------------------------------------------------------------------------
An Oregon Lens-Northern Blue Mountain Pilot Project
    Alongside the Forest Service, ODF has taken a lead role in one of 
the Nation's first pilot projects under the Cohesive Strategy. The Blue 
Mountain Pilot is based around the same three goals as the Cohesive 
Strategy:

          1. Respond to Wildfire-seeking to ensure a safe, effective, 
        and efficient response to wildland fire.
          2. Create Fire-Adapted Communities-seeking to help 
        populations create and modify infrastructure such that it can 
        withstand a wildfire without loss of life or property.
          3. Restore and Maintain Resilient Landscapes-seeking to 
        implement management across all ownerships and jurisdictions to 
        work towards landscapes that are resilient to fire-related 
        disturbances.

    The work of ODF and its partners in the Blue Mountain Pilot Project 
will serve as a backdrop for the remaining issues covered in this 
testimony. I will touch on specifics of our pilot project in the Blues, 
and relate them to challenges State Foresters experience at the 
national level.

  <bullet> Responding to wildfire

    One of the fundamental challenges in the area encompassing the Blue 
Mountain Pilot,\5\ and a challenge that is replicated across much of 
the West, where large federal holdings exist, stems from intermixed 
ownerships and the conditions on the ground-including a growing 
wildland urban interface and fuel loads well beyond the historic range 
of variability. Within the Blue Mountain Pilot area, ODF shares roughly 
3,500 miles of property and protection boundary with the Forest 
Service. High fuel loads and differences in fire policy and risk 
tolerance between federal land managers and ODF can create issues on 
both sides of the boundary.
---------------------------------------------------------------------------
    \5\ The Blue Mountain Pilot Project is located in northeastern 
Oregon and includes 2.4 million acres of the Wallow-Whitman National 
Forest, roughly 1 million acres of the Umatilla National Forest, nearly 
2 million acres of private ODF protected lands, and 2.1 million acres 
managed by a host of agencies including the Bureau of Land Management, 
Bureau of Indian Affairs, the Umatilla Tribe, Rangeland Fire Protection 
Associations, rural fire districts and unprotected lands.
---------------------------------------------------------------------------
    With intermixed ownership and protection, interagency coordination 
of fire suppression and management is key-along with specifically 
communicating and coordinating with local landowners. Work is ongoing 
in the Blue Mountain Pilot to find ways for federal, state, rural and 
local responders to work together and better coordinate staffing levels 
and resource availability based on fire danger and conditions on the 
ground. Recognizing and utilizing local landowner and/or contract 
resources are important parts of this overall effort.
    Nationally and in Oregon, State Foresters have played a substantial 
role in helping equip rural fire departments and assisting communities 
to prepare for wildland fire through the Volunteer Fire Assistance and 
State Fire Assistance Programs. In Oregon, nonprofit Rangeland 
Protective Associations and a fire detection camera system are two 
proven successes that started through these programs. Unfortunately, 
these programs have experienced significant cuts in recent years and 
are slated for additional cuts under the President's proposed budget. 
The reductions also come as state budgets for wildfire programs have 
declined nearly 15 percent (between 2008 and 2010).
    Funding of federal fire suppression efforts is one of the greatest 
challenges we face in fire response. The fire suppression budget at the 
Forest Service has continued to grow in recent years and now accounts 
for nearly one-half of total spending for the Agency. State Foresters 
and other partners have real concerns about the continued escalation of 
fire costs. As suppression costs have risen, the Forest Service has had 
to transfer money from other programs to fund fire suppression. As the 
Committee is aware, the Federal Land Assistance, Management and 
Enhancement (FLAME) Act was intended to address this problem. 
Unfortunately, the emergency funds established for the Forest Service 
and the Department of the Interior (DOI) have not been funded as 
intended under the FLAME Act.
    In fact, during fiscal year (FY) 2012 the Forest Service 
transferred $440 million and the DOI transferred $23 million from non-
suppression programs within the agencies to cover the cost of fire 
suppression. While the federal FY 2013 Continuing Resolution restored 
the transferred funds, the transfers and possibility of future 
transfers continue to impact programs within the agencies. Fire 
transfers also impact non-federal partners including states. The FY 
2012 fire transfer at the Forest Service left twenty State Competitive 
Resource Allocation Projects authorized under State and Private 
Forestry programs unfunded, potentially harming partnerships cultivated 
by states in developing these projects.
    The latest FLAME Forecast Report\6\ from the Administration 
predicts another costly fire season in 2013. Median forecasts for 
suppression costs at the Forest Service and DOI are $1.191 billion and 
$329 million respectively. The FY 2013 Continuing Resolution provided 
funding at the ten-year average suppression expenditure level of $931 
million ($616 million for suppression and $315 for FLAME) to fund fire 
suppression at the Forest Service\7\ and $378 million ($286 million for 
suppression and $92 million for FLAME) to fund fire suppression at the 
DOI.\8\ When cuts mandated under the sequester were applied, total 
suppression funding available to the Forest Service dropped to $807 
million and $349 million for the DOI.\9\ Comparing actual available FY 
2013 funding with the agencies' cost forecasts, funding at the Forest 
Service is $384 million below the forecasted level. The DOI funding 
level is actually $20 million above the forecast, but $29 million below 
the ten-year average. These findings, particularly for the Forest 
Service, indicate that transfers are likely in FY 2013. These transfers 
will again disrupt agency programs, including forest management 
programs that would help to reduce wildfire suppression costs in the 
future.
---------------------------------------------------------------------------
    \6\ Federal Land Assistance, Management and Enhancement (FLAME) Act 
Suppression Expenditures for Interior and Agriculture Agencies: May 
2013 Forecasts for Fiscal Year 2013. April 18, 2013.
    \7\ Fiscal Year 2013 USDA Forest Service Budget Justification. 
Available at http://www.fs.fed.us/aboutus/budget/. Last Accessed May 
29, 2013.
    \8\ The U.S. Department of the Interior Budget Justifications and 
Performance Information Fiscal Year 2014-Wildland Fire Management. 
Available at http://www.doi.gov/pmb/owf/BPM--Resources.cfm. Last 
accessed May 29, 2013.
    \9\ Id.
---------------------------------------------------------------------------
    One solution to minimize the need for the Forest Service and DOI to 
transfer monies from non-suppression accounts to suppression is to 
treat the FLAME reserve accounts as they were intended when the FLAME 
Act was enacted in 2009. In order for this to happen, State Foresters, 
along with a wide-range of partners, support funding the FLAME accounts 
separately from the ten-year suppression average, and not at the 
expense of other agency programs.\10\ Additionally, any remaining 
balance in the FLAME accounts at the end of FY 2013 should be carried 
over, as intended under the FLAME Act, to FY 2014.
---------------------------------------------------------------------------
    \10\ Written Public Testimony from Members of the Fire Suppression 
Funding Solutions Partner Caucus. Available at http://
www.stateforesters.org/testimony-members-fire-suppression-funding-
solutions-partner-caucus. Last accessed May 30, 2013.

---------------------------------------------------------------------------
  <bullet> Creating Fire-Adapted Communities

    One of the challenges facing interagency leaders on our Blue 
Mountain Pilot Project is to grow that sweet spot represented by the 
overlapping themes of resilient landscapes, adequate fire response, and 
fire-adapted communities. In northeastern Oregon, creating fire-adapted 
communities involves asking what else can be done, working together, to 
manage the risk and to focus work in the highest priority areas. One of 
the ways that this decision-making and resource allocation process can 
be informed is through the Western Wildfire Risk Assessment. This is an 
effort led by the Council of Western State Foresters to quantify the 
magnitude of the current wildland fire problem in the West and provide 
baseline data for understanding the impact of mitigation activities, 
and to monitor change over time. The information provided through the 
Western Wildfire Risk Assessment is being used to inform national, 
regional, state and local planning efforts.\11\ The Southern Group of 
State Foresters has completed a similar project and the Northeastern 
Association of State Foresters also utilizes regional risk assessment 
tools.
---------------------------------------------------------------------------
    \11\ An example of the potential utility of the Western Wildfire 
Risk Assessment is the Colorado Wildfire Risk Assessment Portal 
developed by Colorado State Forest Service with input from the Western 
Wildfire Risk Assessment.
---------------------------------------------------------------------------
    Importantly, the Blue Mountain Pilot Project leadership recognizes 
that fire-adapted communities are closely linked to broader forest 
health and restoration issues. Because of this linkage, federal, state 
and local partners are engaging in frank and open conversation about 
risk tolerance, values at risk and the use of fire as a management 
tool. The Pilot Project is seeking to find ways to improve the 
economics of forest management to maintain resilient landscapes that 
will in turn help protect communities.

  <bullet> Restoring and Maintaining Resilient Landscapes

    Forests across the nation face a host of threats from disturbance 
mechanisms such as insects, disease, and wildland fire. Much of the 
forestlands within the Blue Mountain Pilot Project are representative 
of forests across the country in urgent need of active management to 
address forest health issues. Unfortunately, one of the direct results 
of the increased spending on wildland fire suppression at the Forest 
Service is that fewer dollars are available to fund on-the-ground 
management activities that can reduce fire risk, such as the Hazardous 
Fuels program, which is slated for substantial cuts in the President's 
proposed budget. Unfortunately, until we can find a way to invest in 
management of forests before they burn, this problem will only be 
exacerbated as we undercut our ability to address the cause of the 
problem by directing most of our limited resources at efforts to treat 
the symptoms.
    A recent report prepared for Oregon Governor John Kitzhaber and 
Oregon's Legislative leaders found that ``[a]n investment in forest 
health restoration has the potential to save millions of dollars in 
state and federal funds by avoiding costs associated with fire 
suppression, social service programs and unemployment benefits.''\12\ 
The report notes that ``[f]or every $1 the [Forest Service] spends on 
forest restoration, the agency avoids a potential loss of $1.45.''\14\ 
In addition to reducing the fire risk, investing in active forest 
management can improve the social, economic and ecological health of 
our forests and the communities that depend on them.
---------------------------------------------------------------------------
    \12\ National Forest Health Restoration: An Economic Assessment of 
Forest Restoration on Oregon's Eastside National Forests at pg. IV. 
Nov. 26, 2012. Available at www.oregonstate.edu/inr/national-forest-
health-restoration. Last accessed May 21, 2013.
    \13\ Id.

---------------------------------------------------------------------------
  <bullet> Wildland Fire Billing

    Before concluding, I would like to touch briefly on another matter 
that affects the ability of state and federal agencies to work together 
as efficiently as possible. State foresters are working with the Forest 
Service and members of Congress to clarify the Forest Service's 
authority to continue coordinating the national response to wildland 
fires by facilitating mobilization and billing for state resources sent 
to support firefighting efforts in another state. This is a key role 
that the Forest Service has fulfilled for several decades and was only 
recently called into question. It is critically important to provide 
the Forest Service with the clarifying language they need to continue 
this role and we appreciate the support we have received from Congress 
in working to codify this authority. Having a central clearinghouse for 
fire billing saves the states and the federal government critical 
resources and time.
    Finally, state foresters are also working with their partners at 
the Forest Service and the DOI Office of Wildland Fire to further 
understand direction that came from the National Wildfire Coordinating 
Group (NWCG) this past winter\14\. The release of the NWCG direction 
has created confusion as to who will handle billing for state resources 
sent out of state to assist in suppression of fires managed by a DOI 
agency. States have historically submitting billing packages to the 
Forest Service at the Albuquerque Service Center and have received 
assurances from the Forest Service that this process will continue 
through the current fire season.
---------------------------------------------------------------------------
    \14\ See NWCG memorandum dated December 10, 2012 on Single Point 
Interstate Billing available at http://www.nwcg.gov/general/memos/nwcg-
020-2012.html. Last accessed May 21, 2013.
---------------------------------------------------------------------------
Conclusion
    I appreciate the opportunity to appear before the Committee today 
on behalf of the Oregon Department of Forestry and the National 
Association of State Foresters. Wildland fire response is one of the 
most challenging facets of our jobs. The NASF and I stand ready to 
assist the Committee in finding ways to address the challenges we all 
face as the wildland fire problem continues to grow and consume larger 
and larger portions of our federal budget. Finally, I would like to 
thank the Committee for its continued leadership and support of efforts 
to both respond to wildland fire and to take the necessary actions to 
address the underlying causes through increasing active management of 
all forestlands.

    The Chairman. Mr. Decker, thank you. At those town hall 
meetings in Eastern Oregon last week people were really talking 
about the collaborative work that you and the. We want to 
explore that with you through questions.
    Mr. Decker. Very good.
    The Chairman. Mr. Topik.

 STATEMENT OF CHRISTOPHER TOPIK, DIRECTOR, RESTORING AMERICA'S 
         FORESTS, THE NATURE CONSERVANCY, ARLINGTON, VA

    Mr. Topik. Mr. Chairman, Senator Murkowski and members of 
the committee, I want to thank you very much for inviting The 
Nature Conservancy here today. I'm going to focus on 3 portions 
of my longer written testimony: collaboration, proactive 
management needs and the need to support emergency fire 
suppression without trading off proactive management.
    Mr. Chairman, The Nature Conservancy is deeply vested in 
science and nature based solutions to forest conservation and 
the use of fire. We conducted our first prescribed burn on a 
TNC preserve 50 years ago. We work all over America with a wide 
variety of communities and partners to restore forests in a way 
that makes people, water and wildlife more resilient in the 
face of wildfire. We facilitate the National Fire Learning 
Network and our land fire science team is a key asset.
    My first issue is collaboration as a foundation for 
success.
    This was once considered to be innovative. But it is an 
essential way to increase forest restoration and contribute to 
local economies. By bringing together county commissioners, 
local mill owners, water and utility managers, fire protection 
officials, conservation groups, scientists and others, 
collaborative groups can identify mutually beneficial solutions 
to forest health challenges.
    The Collaborative Forest Landscape Restoration Program has 
been a valuable vehicle for prioritizing and testing science 
based approaches to forest restoration. We must continue this 
exciting program. We need to apply the lessons learned from the 
CFLR program to improve forestry throughout the Nation as 
forest plans are developed under the new forest planning rule. 
We must also increase our emphasis on and support for community 
collaboration as a fundamental aspect of successful forest 
restoration planning and implementation that meets local needs 
and national priorities.
    My second major issue is proactive management as a 
responsible investment.
    Strategic proactive hazardous fuels treatments have proven 
to be a safe and cost effective way to reduce risks to 
communities and increase forest stability. The Nature 
Conservancy is also very disappointed to see that the 
President's budget proposes devastating cuts to hazardous fuels 
programs at Interior and the Forest Service. The Nation has 
experienced a 57 percent increase in acres burned this past 
decade. The National Interagency Fire Center predicts extreme 
fire potential for most of the West this summer. It does not 
make sense to reduce the Nation's investment in one of the 
proven Federal programs that get us ahead of this problem.
    We're also concerned to see the President's budget 
emphasizes protecting structures nearly to the exclusion of 
natural areas that support life and livelihood. We urge a 
balanced approach among treatments in wildland and developed 
areas.
    Mr. Chairman, I hope that this committee will also support 
careful, appropriate use of fire as a safe and cost effective 
management tool. We all need to work with the public to 
increase understanding of accepting some risk of managed fire 
is essential to reduce overall chances of damaging mega fires.
    My last issue is providing sufficient funding for emergency 
wildfire response.
    The Nature Conservancy recognizes the need for robust, 
proactive Federal and State firefighting operations to protect 
life, property and natural resources. Unfortunately wildfire 
suppression expenditures are currently far out of balance and 
threaten to overtake the vital management and conservation 
purposes for which the Forest Service and Interior bureaus were 
established. Fire suppression costs have soared due to several 
factors.
    Paying for this tremendous emergency cost results in 
borrowing. Even the threat of fire borrowing has a chilling 
effect on the ability of land managers to plan activities and 
retain skilled contractors and work force. The FLAME Act of 
2009 was a bipartisan effort to change the funding mechanism 
for wildfire suppression. But unfortunately implementation has 
not proceeded as intended, as you all have mentioned.
    Last year the Administration again had to transfer more 
than $450 million for non-suppression programs. Forecasts for 
the coming fire season suggest another costly year ahead and 
more disruptive moneys will have to be transferred. Vital 
forest improvements including hazardous fuels will not get done 
to protect our communities and wildlands.
    Mr. Chairman, we must move beyond the harmful disruptive 
cycle of underfunding suppression needs and then robbing from 
other critical programs to fill the gaps. The FLAME accounts, 
to be fully funded, separately from and above the 10-year 
average used to calculate annual suppression needs. Remaining 
balances in the FLAME account at the end of the year should 
carry over into the next Fiscal Year.
    Mr. Chairman, I further recommend that an expert panel be 
commissioned to provide options for more effective and 
sustainable approach to supporting Federal emergency wildfire 
suppression. The critical life and safety mission associated 
with wildfire suppression should be guaranteed adequate 
funding. This should not come at the expense of other vital 
conservation, public service and science activities of the many 
agencies and bureaus which share the same Federal funding 
source.
    One option the committee might consider is establishment of 
a disaster prevention fund that could be utilized to support 
vital Federal fire suppression actions during emergencies, just 
as the disaster relief fund is utilized to help communities 
recover after disasters. Fire suppression is different from 
other natural disasters. Since Federal response is needed most 
acutely during the actual event.
    I conclude by reminding the committee that climate change 
is making the fire problem much worse. Our forests are becoming 
warmer, drier and subject to more extreme weather events and 
longer fire seasons. Time is of the essence.
    We need to shift our Nation's approach to wildfire from an 
emphasis on costly and reactive emergency response to a more 
balanced approach. This requires significant congressional 
attention to help create truly fire adapted communities while 
restoring resilient watersheds to provide ongoing benefits to 
society and nature.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Topik follows:]

Prepared Statement of Christopher Topik, Director, Restoring America's 
             Forests, The Nature Conservancy, Arlington, VA
    Mr. Chairman and members of the Committee, thank you for the 
opportunity to participate in this important conversation about the 
role of fire in our nation's forests and communities. My name is 
Christopher Topik and I am the Director of The Nature Conservancy's 
Restoring America's Forests Program. The Nature Conservancy is an 
international, non-profit conservation organization working around the 
world to protect ecologically important lands and waters for people and 
nature. Our mission is to conserve the lands and waters upon which all 
life depends.
    The Conservancy's work across North America is guided by an 
ambitious vision that involves developing nature-based solutions to 
some of humanity's most pressing global challenges. Primary among our 
North American priorities is our Restoring America's Forests program, 
through which we aim to foster a dramatic increase in the proactive, 
science-based restoration of our nation's federal forests, thereby 
reducing the tremendous human and environmental costs associated with 
unnaturally large and damaging megafires.
    The Nature Conservancy is deeply vested in forest conservation and 
the use of fire. We conducted our first prescribed burn on a TNC 
preserve 50 years ago, and we work with a wide variety of communities 
and partners to restore forests in a way that makes people, water and 
wildlife more resilient in the face of wildfire. Our collaborative 
approach supports management and planning that increases the capacity 
of forests to sustainably provide Americans with myriad benefits and 
services, now and into the future. Our leadership roles in facilitating 
the national Fire Learning Network and LANDFIRE science team are 
examples of this work.
    The values at stake in our forests are enormous and serve to 
underline the important role forested landscapes play in our quality of 
life. Forests cover more than a third of our nation; they store and 
filter half our nation's water supply; provide jobs to nearly a million 
forest product workers; absorb 13% of our nation's carbon emissions; 
generate more than $13 billion in recreation and other related economic 
activity on Forest Service lands alone; and, of course, provide habitat 
to thousands of American wildlife and plant species. These are not 
benefits restricted to rural or forest-dependent communities; rather 
they are integral to the well-being of every single American.
    The new reality of ever larger and more frequent megafires is 
stretching the capacity of our forests to sustainably provide a full-
range of benefits and services - and our public coffers to provide the 
funding to address wildfire suppression and post-fire recovery needs. 
Time is of the essence in shifting our nation's approach to wildfire 
from an emphasis on costly and reactive emergency response to a more 
balanced approach that includes significant investment in proactively 
restoring and maintaining resilient landscapes and creating truly fire 
adapted communities. The U.S. Forest Service's 2012 Report on 
Increasing the Pace of Restoration and Job Creation on Our National 
Forests\1\ estimates that there are as many as 65 million acres of 
National Forest System land at high or very high risk of catastrophic 
wildfires. These numbers are further magnified when the condition and 
management needs on other federal and non-federal lands are considered.
---------------------------------------------------------------------------
    \1\ http://www.fs.fed.us/publications/restoration/restoration.pdf
---------------------------------------------------------------------------
    The societal, environmental and fiscal costs of fire in our 
nation's forests continue their precipitous climb. During the 2012 
wildfire season, alone, a relatively small 68,000 fires burned across 
nearly 10 million acres and resulted in a $1.9 billion bill for federal 
wildfire suppression (on top of the nearly $1.5 billion required to 
staff the federal fire programs). The cost of wildfire management 
currently consumes more than 40% of the U.S. Forest Service budget, 
leaving an ever smaller pool of funds to support hazardous fuels 
reduction, timber management, wildlife habitat improvement, 
recreational access, watershed protection and the wide variety of other 
important services that the American people value and expect.
    Climate change is exacerbating the fire problem as our forests are 
becoming warmer, dryer and subject to both more extreme weather events 
and longer fire seasons. The Forest Service itself expects severe fires 
to double by 2050\2\. Last year was the third biggest fire year since 
1960, with 9.3 million acres burned- the Forest Service is estimating 
20 million acres to burn by 2050. We are already seeing these impacts: 
the Four Corners region has documented temperature increases of 1.5-2 
degrees Fahrenheit over the last 60 years\3\. It should come as no 
surprise that New Mexico has had back-to-back record fires the last two 
years, Arizona had its largest fire in 2011, and Colorado had its most 
damaging fire in 2012.
---------------------------------------------------------------------------
    \2\ http://www.globalchange.gov/what-we-do/assessment/nca-overview; 
http://www.denverpost.com/breakingnews/ci--22943189/feds-project-
climate-change-will-double-wildfire-risk?source=email
    \3\ Managing Changing Landscapes in the Southwestern United States, 
Center for Science and Public Policy, 2011, find here: http://
azconservation.org/downloads/category/southwest__regional
---------------------------------------------------------------------------
    The National Cohesive Wildland Fire Management Strategy (Cohesive 
Strategy) establishes a helpful framework for guiding us toward a more 
balanced approach to fire, forests and communities, but it will take 
more than a document to enact the kind of fundamental and swift change 
that is needed. We must also collectively put our time, money and 
resources behind our words.
    During this time of tight federal budgets and pressing forest 
restoration needs, it is essential that we invest the limited resources 
we have both strategically and proactively in order to maximize the 
benefit for people, water and wildlife, while also reducing the costs 
for future generations.
    Below are some additional thoughts on how to pursue this important 
course of action.

          1. Collaboration is a Foundation for Success

    The scale and complexity of the situation facing our nation's 
forests and communities means that we must find ways to forge agreement 
among diverse interests about the ``where, when and how'' of forest 
management and then focus our resources on those landscapes that are 
poised for success. Collaboration, once considered ``innovative'' and 
``new,'' has become an essential tool in the tool box of those hoping 
to reduce wildfire risks, increase forest restoration and contribute to 
the sustainability of local economies. By bringing together county 
commissioners, local mill owners, water and utility managers, fire 
protection officials, conservation groups, scientists and others, 
collaborative groups can identify mutually beneficial solutions to 
forest health challenges and, sometimes by enduring a few bumps and 
bruises, pave the way for smooth and successful projects on the ground.
    Although effective collaboration takes many forms, the 
Collaborative Forest Landscape Restoration (CFLR) Program has been a 
valuable vehicle for prioritizing and testing a variety of 
collaborative, science-based approaches to forest restoration that both 
reduce wildfire risks and contribute to local jobs and economic 
opportunities.
    In just three short years since its inception, the CFLR Program has 
provided support to 20 projects in 14 states, with an additional 3 high 
priority restoration projects receiving support from non-CFLR funds. 
Through these projects, the CFLR Program is demonstrating that 
collaboratively-developed forest restoration plans can be implemented 
at a large scale with benefits for people and the forests. From fiscal 
year 2010-fiscal year 2012, the cumulative outputs generated by the 
funded projects already total: 94.1 million cubic feet of timber; 7,949 
jobs created or maintained; $290 million in labor income; 383,000 acres 
of hazardous fuels reduction to protect communities; 229,000 acres of 
fire prone forest restoration; and 6,000 miles of improved road 
conditions to reduce sediment in waterways.
    Equally important is the long-term commitment these projects have 
fostered to both community sustainability and forest resilience.
    We must continue to fully fund the CFLR Program as authorized by 
this Committee, including the matching fund and monitoring 
requirements, as well as the project planning and preparation 
activities that facilitate implementation success, over the ten year 
life span of the projects. We must also increase our emphasis on and 
support for collaboration as a fundamental aspect of successful forest 
restoration planning and implementation. This should involve applying 
lessons learned through the CFLR Program to improve National Forest 
management throughout the system as collaborative, large-scale projects 
are created and new land management plans are developed under the new 
forest planning rule.

          2. Proactive Management is a Responsible Investment

    Across the nation, communities and land managers are struggling 
with how to address tens of millions of acres of National Forest, and 
several million acres of other federal and non-federal lands, in need 
of treatment to reduce the risk of unnaturally large or damaging 
wildfires. In the absence of large-scale restoration management, the 
federal government spends up to $2 billion annually on emergency fire 
suppression to minimize loss of lives, property, community 
infrastructure and vital natural resources. Hundreds of millions more 
are spent by local, state and federal governments, as well as private 
citizens, to address the devastating and often long-lasting impacts 
left in the wake of wildfires.
    Strategic, proactive hazardous fuels treatments have proven to be a 
safe and cost-effective way to reduce risks to communities and forests 
by removing overgrown brush and trees, leaving forests in a more 
natural condition resilient to wildfires. When implemented 
strategically, at a meaningful scale, these treatments can make a 
crucial difference in the size, spread and severity of wildfires. They 
can improve the safety and effectiveness of firefighters and provide 
protection for a community or essential watershed that might otherwise 
see extensive loss.
    Many of these hazardous fuels reduction projects are also providing 
jobs and other economic benefits to rural communities. For example, a 
recent economic assessment of forest restoration in Oregon revealed 
that ``an investment in forest health restoration has the potential to 
save millions of dollars in state and federal funds by avoiding costs 
associated with fire suppression, social service programs and 
unemployment benefits.''\4\ In addition, for every $1 million invested 
in hazardous fuels treatments, approximately 16 full-time equivalent 
jobs are created or maintained, along with more than half a million in 
wages and over $2 million in overall economic activity.\5\
---------------------------------------------------------------------------
    \4\ National Forest Health Restoration: An Economic Assessment of 
Forest Restoration on Oregon's Eastside National Forests. Prepared for 
Governor John Kitzhaber and Oregon's Legislative Leaders. November 26, 
2012. Quote on page (iv). http://www.oregon.gov/odf/BOARD/docs/
2013__January/BOFATTCH__20130109__08__03.pdf
    \5\ The Employment and Economic Impacts of Forest and Watershed 
Restoration in Oregon. Max Nielsen-Pincus and Cassandra Moseley, 
Institute for Sustainable Environment, University of Oregon. Spring 
2010, page
---------------------------------------------------------------------------
    It is absolutely essential that we maintain federal investments and 
skilled capacity in reducing hazardous fuels. The Ecological 
Restoration Institute's (ERI) valuable new study on the efficacy of 
hazardous fuels treatments presented at this hearing is part of a 
growing body of literature documenting the many instances in which on-
the-ground actions have modified wildfire behavior, thereby allowing 
firefighters to safely engage in protecting infrastructure and 
landscapes.\6\ Others have also compiled evaluations of a number of 
studies of hazardous fuels treatments that show that in most areas, 
when done right, the activities are effective. Rather than repeat those 
references, I will described a couple instances where I personally 
witnessed the role strategic fuels reduction treatments can play in 
enabling an entire community to survive a horrific wildfire.
---------------------------------------------------------------------------
    \6\ http://library.eri.nau.edu/gsdl/collect/erilibra/index/assoc/
D2013004.dir/doc.pdf
---------------------------------------------------------------------------
    I refer first to the Esperanza Fire, an arson caused blaze which 
tragically cost the lives of five firefighters in California's San 
Bernardino National Forest in October 2006. The Esperanza Fire also 
destroyed 30 homes, but the entire town of Idyllwild may well have been 
destroyed if not for the extensive hazard reduction activities that 
were implemented in the area thanks to funding from the U.S. Forest 
Service and Natural Resources Conservation Service. During an official 
oversight trip for my previous job with the House Appropriations 
Committee, I toured the entire Idyllwild area the day before the fire, 
and then witnessed the fire's progression from a distance. Defensible 
space treatments implemented along the main roads into and out of 
Idyllwild fostered the safe passage of citizens and firefighters; areas 
where strategic thinning had reduced overly dense stands of trees 
served to modify the potential for crown fire; and reduced brush in 
proximity of structures helped to slow fire spread.
    The post-fire assessment of Arizona's record-setting 2011 Wallow 
Fire also clearly demonstrated that homes and forest were saved in and 
around the town of Alpine by management treatments applied in tandem 
with FireSafe practices near structures. I had the good fortune of 
flying with Project Lighthawk last summer over the entire Wallow Fire 
burn site. The fire area was huge, over half a million acres, and a 
very complicated and complex burn pattern occurred. It was clear that 
the extensive tree thinning treatments around the town of Alpine caused 
the fire to calm down so that firefighters, including the Conservancy's 
own Southern Rockies Wildland Fire Module, could protect extensive 
infrastructure.
    My informal case studies, along with those that have been more 
formally documented in recent publications, provide further evidence 
that proactive forest management pays. But it is also clear that the 
scale and pace of this proactive forest management must increase and 
that treatments must be balanced between both developed and wildland 
areas.
    The Nature Conservancy was very disappointed to see that the 
President's FY 2014 Budget proposes devastating cuts to the Hazardous 
Fuels Reduction programs for both the U.S. Forest Service and the 
Department of the Interior. The nation has experienced a 57% increase 
in acres burned this past decade; the National Interagency Fire Center 
is predicting extreme fire potential for most of the West this 
summer\7\. It does not make sense to reduce the nation's investment in 
one of the few proven federal programs that get us ahead of the 
problem.
---------------------------------------------------------------------------
    \7\ http://www.predictiveservices.nifc.gov/outlooks/outlooks.htm
---------------------------------------------------------------------------
    We are also concerned to see that the President's FY 2014 Budget 
emphasizes protecting structures nearly to the exclusion of natural 
areas that support life and livelihood. The Conservancy agrees that 
funding is urgently needed to create community protection buffer zones 
that can limit the damage from wildfire. Fighting fires will remain 
costly until such buffers are in place and people feel safe.
    But shifting too much funding away from undeveloped forest areas 
where fires have been excluded for a century, and conditions remain 
overly dense and susceptible to unnaturally damaging wildfire, will 
have a long-term negative impact on forest health and resiliency. The 
Nature Conservancy urges a balanced allocation of funding between 
treatments in wildland and developed areas.
    Strategic mechanical fuels reduction in wildlands, combined with 
controlled burning to reduce fuels across large areas, can 
significantly reduce the chance that megafires will adversely impact 
the water supply, utility infrastructure, recreational areas and rural 
economic opportunities on which communities depend.
    We hope that this Committee will work with the Appropriations 
Committee, the Administration and others to foster funding that 
facilitates proactive management and hazardous fuels reduction, 
including the use of fire as a safe and cost-effective management tool, 
at a meaningful scale. We also encourage sustained investment in 
applied research, such as the Joint Fire Science Program, that develop 
both information and tools that enable land managers to maximize the 
effectiveness and ecological benefit of fuels treatments.

          3. Provide Sufficient Funding for Emergency Wildfire Response

    The Nature Conservancy recognizes that even with a robust, 
proactive approach to land management, federal fire preparedness and 
suppression resources will need to be maintained at an effective level 
to protect life, property and natural resources. Unfortunately, 
wildfire suppression expenditures are currently far out of balance and 
threaten to overtake the vital management and conservation purposes for 
which the USDA Forest Service and Department of the Interior bureaus 
were established.
    The dramatic increase of homes near natural areas that are prone to 
frequent and unnaturally damaging fire has added significantly to the 
cost of fire suppression. In the past, paying for this tremendous cost 
often resulted in ``borrowing'' or outright transfer of funding from 
critical land management and conservation programs into fire 
suppression accounts. Fire borrowing, and the threat of fire borrowing, 
has a chilling effect on the ability of land managers to plan the 
complex activities that modern forestry requires and retain skilled 
contractors and workforce. Previous hearings and GAO work documented 
the tremendous adverse impacts of this fire borrowing helping to 
generate the public outcry and Congressional action that led to the 
FLAME Act.\8\
---------------------------------------------------------------------------
    \8\ Wildfire Suppression Funding Transfers Cause Project 
Cancellations and Delays, Strained Relationships, and Management 
Disruptions GAO-04-612, June 2004
---------------------------------------------------------------------------
    The FLAME Act of 2009\9\ was signed into law as part of a 
bipartisan effort to change the funding mechanism for wildfire 
suppression by establishing two emergency wildfire accounts funded 
above annual suppression. The original version of this Act passed the 
House of Representatives in March 2009 with a vote of 412-3. These 
FLAME reserve accounts were intended to serve as a safeguard against 
harmful fire borrowing and should have represented an important change 
in the funding mechanism for wildfire suppression.
---------------------------------------------------------------------------
    \9\ Federal Land Assistance, Management and Enhancement Act of 
2009. Title V of Division A of 123 STAT. 2904 PUBLIC LAW 111-88-OCT. 
30, 2009.
---------------------------------------------------------------------------
    One of the cornerstones of the FLAME Act was the establishment of 
two FLAME wildfire suppression reserve accounts, one each for the 
Forest Service and the Interior Department. In passing the FLAME Act, 
Congress intended to fully fund federal wildfire suppression needs, 
while avoiding the need to transfer monies from other agency programs 
to fund emergency wildfire suppression expenses. Annual suppression was 
to be calculated using an improved predictive modeling that included 
the ten-year average and other indicators. The FLAME reserve accounts 
were to be funded at levels beyond average annual suppression 
expenditures and not at the expense of other agency programs. 
Additionally, any balances remaining in the FLAME accounts were to 
carry-over into future years so that funds retained in years when we 
have less than average expenditures could be held over for the 
inevitable, high cost years.
    Disappointingly, the implementation of the FLAME Act has not 
proceeded as intended. Due to several factors, last year the 
Administration again transferred hundreds of millions of dollars from 
the agencies' non-suppression programs into emergency response accounts 
before the end of FY 2012.
    Forecasts for the fiscal year 2013 wildfire season suggest another 
costly year ahead and strongly indicate that funds will again be 
transferred from non-suppression accounts, resulting in severe 
disruption of agency programs, including the hazardous fuel reduction 
and other forest management programs that would help to reduce wildfire 
suppression costs in the future.
    In order to move beyond this harmful and disruptive cycle of 
underfunding suppression needs and then robbing from other critical 
programs to fill the gaps, we recommend that the FLAME Accounts be 
fully funded as intended, separately from and above the ten-year 
average used to calculate annual wildfire suppression needs. We also 
recommend that annual suppression needs be fully funded using the ten-
year average along with more predictive modeling based on current 
weather conditions, fuel loads and other data that contribute to 
wildfire risk. Finally, we ask that any remaining balance in the FLAME 
accounts at the end of FY 2013 carry over into FY 2014.
    The Nature Conservancy further recommends that an expert panel be 
commissioned to provide options for a more effective and sustainable 
approach to federal emergency wildfire suppression funding. The 
critical life and safety mission associated with wildfire suppression 
should be guaranteed adequate funding, with oversight and efficiency 
safeguards, but this funding should not come at the expense of the 
other vital conservation, public service and science activities for 
which the federal land management agencies, and other agencies and 
bureaus which share the same federal funding source, were established. 
The Conservancy recommends that a new, separate federal funding source 
be established so vital fire suppression activities are funded distinct 
from existing land management requirements. One option the Committee 
might consider is the establishment of a ``Disaster Prevention Fund'' 
that could be utilized to support vital federal fire suppression 
actions during emergencies just as the Disaster Relief Fund is utilized 
to help communities recover after disasters. Fire suppression is 
different from other natural disasters, since the federal response is 
needed most acutely during the actual event. Such support should 
complement prevention and risk reduction activities discussed earlier, 
and post-fire recovery and restoration actions.

          4. Communities Must Be Part of the Solution

    Federal agencies alone cannot prevent the loss of homes, 
infrastructure and other values in the wildland-urban interface (WUI). 
Individuals and communities living in the WUI must meaningfully invest 
in preparing for and reducing their own risk from fire. Post-fire 
studies repeatedly show that using fire resistant building materials 
and reducing flammable fuels in and around the home ignition zone are 
the most effective ways to reduce the likelihood that a home will 
burn\10\. Similarly, community investments in improved ingress and 
egress routes, clear evacuation strategies, strategic fuel breaks and 
increased firefighting capacity can go a long way toward enabling the 
community to successfully weather a wildfire event.
---------------------------------------------------------------------------
    \10\ See, for example, Four Mile Canyon Fire Findings. Graham, et 
al. Pages 64-69. http://www.fs.fed.us/rm/pubs/rmrs__gtr289.pdf
---------------------------------------------------------------------------
    Many communities across the nation are already deeply engaged in 
trying to proactively address their role within fire driven forest 
ecosystems, but this engagement must be both sustained and increased. 
For more than 10 years, The Nature Conservancy has worked cooperatively 
with the U.S. Forest Service and the Department of the Interior to 
foster the Fire Learning Network (FLN) that brings communities together 
and helps them build collaborative, science-based strategies that 
protect both people and ecosystems. The FLN supports public-private 
landscape partnerships that engage in collaborative planning and 
implementation, and provides a means for sharing the tools and 
innovations that help them scale up. Locally, the FLN helps federal 
land managers to: convene collaborative planning efforts; build trust 
and understanding among stakeholders; improve community capacity to 
live with fire; access training that helps fire professionals work with 
local communities; and address climate change and other emerging 
threats.
    Community commitment is also necessary to effectively shift our 
national approach to wildfire from a costly emphasis on disaster 
response to a balanced and proactive strategy with multiple benefits. 
Research increasingly shows that rising wildfire suppression costs are 
directly linked to the growing presence of homes and related 
infrastructure in the wildland-urban interface.\11\ A corresponding 
analysis by Headwaters Economics revealed that with 84% of the WUI is 
still undeveloped, so there is tremendous potential for the costs 
associated with wildfire protection to exponentially increase.\12\ 
According to the same study, if just half of the WUI is developed in 
the future, annual firefighting costs could explode to between $2.3 and 
$4.3 billion. By comparison, the U.S. Forest Service's total average 
annual budget is $5.5 billion.
---------------------------------------------------------------------------
    \11\ Wildfire, Wildlands and People: Understanding and Preparing 
for Wildfire in the Wildland Urban Interface. Stein, et al. Page 7. 
http://www.fs.fed.us/rm/pubs/rmrs__gtr299.pdf.
    \12\ http://headwaterseconomics.org/wildfire/fire-research-
summary/.
---------------------------------------------------------------------------
    Given the potential for devastating increases in both values lost 
and public expense, a diverse range of agencies and organizations 
(including The Nature Conservancy) have begun promoting the concept of 
``fire-adapted communities.'' The Fire Adapted Communities Coalition 
established and hosts www.fireadapted.org, which provides access to a 
wide variety of educational materials and tools in support of community 
wildfire protection planning and action.
    The U.S. Forest Service defines a fire-adapted community as a 
knowledgeable and engaged community in which the awareness and actions 
of residents regarding infrastructure, buildings, landscaping, and the 
surrounding ecosystem lessen the need for extensive protection actions 
and enables the community to safely accept fire as a part of the 
surrounding landscape.\13\ This level of individual and community 
preparedness goes beyond just developing a plan and begins to make the 
fundamental shift that must occur if we are going to get beyond our 
current wildfire suppression burden and toward restoring resilience to 
our nation's forests.
---------------------------------------------------------------------------
    \13\ http://www.fs.fed.us/fire/prev__ed/index.html.
---------------------------------------------------------------------------
    Programs such as State and Volunteer Fire Assistance provide 
important resources to help states and local communities develop and 
sustain community wildfire protection capacity. We encourage both the 
federal land management agencies and this Committee to prioritize 
programs that foster the development of fire-adapted communities and, 
specifically, to allocate other federal resources in a way that rewards 
communities for proactive actions that collectively result in national 
benefit. Building local community capacity to learn to live with fire 
is the most cost effective way of reducing harmful impacts to society, 
while also allowing for enhanced, safe and controlled use of fire to 
restore wildlands as appropriate.

          5. Efficiency and Innovation to Increase the Pace of Success

    The Nature Conservancy strongly supports the Administration's goal 
of accelerating restoration in our Nation's forests as described in the 
February 2012 report, Increasing the Pace of Restoration and Job 
Creation on Our National Forests. In this report, the agency 
acknowledges that the pace and scale of restoration must dramatically 
increase if we're going to get ahead of the growing threats facing our 
forest ecosystems, watersheds and forest-dependent communities. In 
order to facilitate this accelerated rate of treatment, we must make 
effective use of all available management tools and explore 
opportunities to increase the efficiency of planning and implementation 
processes.
    Stewardship contracting, for example, is an innovative and critical 
tool that allows the U.S. Forest Service and Bureau of Land Management 
to implement projects that restore and maintain healthy forest 
ecosystems, foster collaboration and provide business opportunities and 
local employment. Stewardship contracts are the only administrative 
tool that can ensure up to 10 year supplies of timber, a level of 
certainty that encourages job creation and long-term industry 
investment. Without Congressional action, Stewardship Contracting 
authority will sunset on September 30, 2013. Permanent reauthorization 
is urgently needed to provide surety for contractors and communities 
and to ensure that the USFS and BLM retain this important proactive 
tool to address our daunting forest restoration needs.
    The beneficial use of fire as a tool for resource management is 
another area where greater forest restoration efficiency and 
effectiveness could be achieved. By increasing the use of both 
controlled burns and naturally ignited wildland fires to accomplish 
resource benefit, land managers can accomplish both ecological and 
community protection goals on a larger scale and at reduced cost. In 
fact, some states annually reduce fuels on more than 100,000 acres in 
wildlands with fire treatments. The Nature Conservancy recommends that 
both Congress and the Administration make it clear that the safe and 
effective use of fire is a priority for land management agencies, and 
provide the necessary funding, training and leadership support needed 
to foster increased fire use where appropriate.
    We were pleased to see the emphasis on collaborative, science-based 
and adaptive management contained in the new National Forest System 
Land Management Planning Rule and draft Directives. We hope that, once 
finalized, this new framework will be promptly implemented and will 
guide a new round of forest planning that is both more meaningful and 
more efficient, and sets the stage for timely implementation of 
projects that achieve multiple benefits on the ground. Clear guidance 
and support for the development and implementation of monitoring 
strategies will also be essential to the Rule's success.
    Finally, while we are committed to the principles of public 
engagement and environmental review embodied in the National 
Environmental Policy Act (NEPA), we believe there may be opportunities 
to significantly increase the efficiency of these processes through 
targeted adjustments in policy and implementation. The U.S. Forest 
Service is currently testing and tracking a variety of innovative NEPA 
strategies that hold promise for broader application. Adaptive NEPA, 
for example, is a relatively new approach in which the official record 
of decision allows sufficient leeway for some variety of subsequent 
federal actions, thereby greatly streamlining the analysis, allowing 
for more efficient project implementation, and enabling land managers 
to more effectively incorporate emerging science. These innovative 
approaches to NEPA should be expanded and additional opportunities 
sought for streamlining policies and processes in a way that increases 
the pace and scale of implementation while holding true to the core 
values inherent in the Act.
Conclusion
    Thank you for your attention to the important issues related to 
wildfire, forests and communities. We appreciate the opportunity to 
offer The Nature Conservancy's perspective on how we might shift our 
focus toward a more proactive and cost-effective management approach 
that provides multiple benefits to people and nature. Please let us 
know if we can provide any additional information or assistance to the 
Committee as you move forward in this arena.

    The Chairman. Thank you, Mr. Topik.
    Ms. Jungwirth.

   STATEMENT OF LYNN JUNGWIRTH, SENIOR FELLOW FOR POLICY AND 
         DEVELOPMENT, THE WATERSHED CENTER, HAYFORK, CA

    Ms. Jungwirth. Thank you, Senator Wyden. It's a pleasure to 
be here. I represent, I think, public land communities.
    We're those little towns in the middle of your national 
forest. We've worked for 20 years to help end the forest wars, 
get people working together and make those towns vital and keep 
your public lands and our public lands in good condition. We 
are very affected by our wildland fire policy and we are even 
more affected by our wildland fires.
    So we have 2 approaches to this.
    One is about the budget and we're very happy that you're 
willing to take on OMB in their conversation. We, sort of, feel 
that in the national fire plan and in this cohesive fire 
strategy there are 3 pieces. People talk about 3 pieces, 
suppression, hazardous fuels treatment and/or restoration and 
fire adapted communities.
    Our Federal Government funds suppression to the detriment 
of everything else. So preparedness in this wildland fire 
management budget is $1.2 billion. Hazardous fuels, even at a 
reduced rate, is in the hundreds of millions and at one time 
was at $600 million.
    The community assistance piece of this budget was missing 
for the first 10 years. Funded through the Economic Action 
Program at $12 million a year to help us learn how to live with 
fire, build our biomass plants, get our work done, train our 
work force. It disappeared after the first 2 years. It has only 
been resurrected since 2009 when the Forest Service decided 
perhaps they should proactively help communities learn to live 
with fire. It is funded as a mere $2 million a year.
    So if you want to have a robust culture of fire that deals 
with fire, treats the landscapes, make it work economically, 
you have to give the Forest Service some tools to work with 
communities, private business at the local level where the land 
and the fire is, so that we can make this transition. We've had 
no tools to make that transition. So that's one part of the 
budget we'd like you to think about.
    The other part is when you have a tornado you do not ask 
the National Weather Center to help those people with that 
disaster. The National Weather Center does not fund FEMA. Why 
is the Forest Service, your premier natural resource management 
agency, asked to fund fire disasters out of its natural 
resource budget?
    We believe that any fire that takes more than a local type 
3 team is an escaped fire. It is an emergency to ask the Forest 
Service to fund emergencies out of its own budget is a mistake. 
It will lead us to this horrible negative feedback loop we are 
now in.
    So we're with Chris. We think we need to convene on this. 
We need to make a better, more sane decision for the people of 
America.
    We're losing our forests. Our communities are losing their 
health. We're losing property. We're losing lives.
    So on to solutions. What can we do know to reduce costs 
over time?
    One of the things that we've learned is that collaborative 
planning does work. People will use fire use if they've had a 
chance to meet together and decide when and where and in what 
condition it is appropriate. That can reduce costs over time 
but that decision needs to be before the fire starts.
    So we, sort of, embrace collaboration as a way to get this 
integration going. We know that if the Forest Service would 
take their vegetation management plans and integrate them with 
our CWPPs we could get more land treatments done on the 
landscape. But that doesn't happen on a regular basis. So we're 
having a hard time integrating the civil side with the agency 
side.
    Finally, a skilled work force at the local level is going 
to save you a lot of money. In the West we identified 6,200 
communities at risk. If each of us had a 20 man crew that was a 
conservation crew/fuels crew/fire crew you've got a 120,000 
more fire fighters that you don't have to pay for every single 
day.
    There are ways to be more efficient about this. There are 
ways to do it smarter. There's ways to save money. There is a 
way to make the Forest Service be kin to be again the premier 
natural resource agency in the world.
    Thank you very much.
    [The prepared statement of Ms. Jungwirth follows:]

  Prepared Statement of Lynn Jungwirth, Senior Fellow for Policy and 
             Development, The Watershed Center, Hayfork, CA
    Thank you for the opportunity to participate in the discussion 
concerning wildland fire management. My perspective is as a member of a 
public land community, snuggled deep in the heart of the Shasta-Trinity 
National Forest, and as a leader in community forestry in the United 
States for the past 20 years.
    I also serve as a core group leader of the Rural Voices for 
Conservation Coalition (RVCC), a community forestry policy education 
group comprised of county supervisors, environmentalists, forest 
industry, conservation industry and local non-governmental 
organizations who work collaboratively at the ground level to improve 
forest health, provide sustainable commodity volumes and increase 
economic opportunities for forest and range communities. RVCC members 
represent over 80 community forestry groups and in 8 western states.
    I served on the Western Governor's Association's Forest Health 
Advisory Group from its inception and in that capacity was able to help 
draft the first National Fire Plan (the 10 year strategy) and the 
recent Western Region Cohesive Wildland Fire Strategy where I 
participated in the Fire Adapted Communities working group.
    Our local organization, the Watershed Center, was founded twenty 
years ago prior to the closure of our local sawmill (and the loss of 
over 40% of our town's payroll dollars). Our forest was included in the 
Northwest Plan for the Recovery of the Northern Spotted Owl and we 
needed to build our capacity to adapt to the subsequent economic and 
social turmoil in our community. To help meet our community's needs we 
developed training programs for displaced forest workers, started a 
local small business incubator, built restoration programs and youth 
programs. We also facilitated a county wide fire planning effort 
starting in 1998, and participate in the long standing Trinity County 
Fire Safe Council. We aimed at rebalancing the community's relationship 
to the local landscape through stewardship and restoration. Today, our 
small organization in a town of 2,000 people employs 45 local workers 
during the summer field season (in restoration, fuels reduction, 
prescribed fire, natural resource surveys and planning, and youth 
programs) and has contributed over $1 million to the local economy each 
year for the past 20 years.
    There are hundreds of organizations like ours throughout the 
national forests of the west. By working collaboratively at the local 
level we have learned to create social agreement, leverage and 
integrate public and private resources, and build our strength and 
skills to deal with this stewardship responsibility we all feel for the 
land and our community. The knowledge our community forestry and range 
and fire management collaboratives have created over the years is now 
being shared throughout the west with community and agency actors in an 
attempt to more quickly spread successful innovations in wildland fire 
prevention, mitigation, and suppression. In 2011, as part of the 
learning of the Western Regional Cohesive Strategy planning group, The 
Watershed Center and its partners surveyed over 500 local organizations 
to find out what they felt were key elements contributing to successful 
fire adaptation strategies.
    We have learned that a fire disaster is the result of never just 
one thing, and a fire safe community is never the result of just one 
thing. Becoming fire adapted is complex, the landscape and the people 
are not separable, and we must set up local institutions, 
infrastructure and culture for living with fire until at least the next 
ice age.
First, the budget
    The first Ten-Year National Fire Plan (2000-2010) was developed 
through a robust collaborative process and had four focus areas:

          1. Firefighting-Suppression and Preparedness
          2. Rehabilitation and Restoration of Fire Adapted Ecosystems
          3. Hazardous Fuels Reduction
          4. Community Assistance

    Over the years from 2000 to 2003 funding for fire fighting 
increased 57%, restoration and rehabilitation remained relatively even 
and hazardous fuels gained slightly, about 4%. The Economic Action 
Program, the highly effective and efficient community assistance 
flagship was funded at $12 million per year for the first two years and 
then zeroed out. This pattern persisted throughout the entire 10 years 
and continues today.
    We believe it is a fatal flaw.
    It is a fatal flaw to increase suppression resources at the expense 
of restoration and fuels reduction. It is a fatal flaw to take away 
tools which allow the local Forest Service personnel to work with local 
communities and build social capacity to manage fire on the landscape. 
It is a fatal flaw to think that suppression by itself can solve the 
myriad of issues exposed by the increasing fire risk.
    In 2009 the Forest Service decided to think about a proactive 
approach to community wildfire protection. By 2011 a small, elegantly 
conceived and implemented program, funded at about $2 million was 
launched and a national Fire Adapted Communities Coalition was created. 
By 2012 the National Fire Protection Association (a strong partner) 
launched an excellent web-site to help communities access tools and 
information to help themselves become fire adapted (fireadapted.org). 
So this small investment of $2 to $2.6 million a year carries the 
agency commitment to community assistance to the over 72,000 community 
groups now identified at risk. Community preparedness through 
mitigation pays off. The return on $1 of mitigation investment in the 
Colorado Springs Fire was $527 in reduced costs. $2.6 million in a 2014 
wildland fire proposed budget of $2.2 billion is strikingly absurd. A 
billion dollars for preparedness within the agency and $2.6 million to 
support fire adaptation and preparedness among the communities at risk, 
many of whom are federal forest communities?
    While the administration and congress appear to be walking away 
from supporting hazardous fuels reduction and community protection, 
mitigation, and preparedness, the Secretary of Agriculture and the 
Chief of the Forest Service announce that ``the federal government 
can't deal with the fire risks alone''. It is both a relief and a 
terror to hear those words.
    We never intended for the federal government to try to do it alone. 
We know that only through shared risks and shared responsibility can we 
protect our landscapes and our communities. We are now being told to 
``take responsibility''. Well, we've been trying to do that through our 
Community Wildfire Protection Plans, our Firewise Communities programs, 
our local offices of emergency services, our Fire Safe Councils. The 
counties of the west are mobilizing to an extent never seen before. But 
the west is littered with CWPPs that are not being fully implemented. 
Why? Because we can write rules and regulation for private development, 
individual homeowners can pick up a rake and get to work, NRCS will 
help us with fuels reduction on private agricultural and forest lands, 
State Fire Assistance will help with clearing around homes but we have 
very little ability to tackle the fire threat from our adjacent federal 
lands.
    We cannot implement the WUI and the strategically placed fuels 
treatments identified in spatially explicit CWPPs and there are 
thousands of locally crafted, collaboratively designed CWPPs throughout 
the nation. You know the problems with planning, NEPA, appeals, etc so 
I won't go into that. Suffice it to say, we can't get the work done. 
So, OMB has decided to reduce funding for hazardous fuels in both DOI 
and Forest Service in 2014. That is pretty much the source of our 
terror. If you don't help us build our capacity to become fire adapted 
(gaining knowledge and experience) and then don't take down the 
roadblocks to use that knowledge on the land we will all fail.
    It appears that our three pronged approach of suppression, land 
treatments, and community capacity has in reality turned into a one 
pronged spear of suppression. For over a decade our investments have 
been wrong.
    Today the new ``Cohesive Wildland Fire Strategy'' has a strong 
focus on interagency and intergovernmental coordination and leveraging 
the three goals of the strategy. Its three goals areas are: 1. 
Suppression 2. Landscape Resilience, and 3. Fire Adapted Communities. 
It was created by a very robust national planning effort that included 
many more organizations and individuals than the 2000 National Fire 
Plan. But once again, congress and the administration believe the way 
to cut suppression costs in the long run is to increase suppression 
budgets, fund the 10 year rolling average out of the Forest Service 
base budget and, if that's not enough, make the agency borrow from its 
own accounts to cover the difference. The budgets and resources are not 
lined up with the new strategy and the current reality. We will not 
burn our way out of this risk.
    If a local Type 3 team cannot contain a fire and a Type 2 or Type 1 
Incident Command Team is brought in, then the fire is an emergency and 
it should be funded off-budget. Period.
Enough with the budget priorities, on to solutions!
    In the 2000 National Fire Plan we collaboratively described the 
silos of suppression, restoration, hazardous fuels reduction, and 
community assistance. We invested heavily in suppression but our states 
and communities began organizing to deal with fire risks.
    In the 2013 National Cohesive Wildland Fire Strategy, we decided 
coordination among state, federal, and local actors was a way to co-
ordinate among the silos. We appear to be investing heavily in 
suppression but trying to work out inter-agency coordination 
administratively.
    We predict the next iteration will finally focus on integration of 
these silos. That will require evaluation of some of these proposals:

          1. Integrated budgets, performance measures, and targets.--
        For example: hazardous fuels reduction projects/restoration 
        projects have acres treated targets and personnel are rewarded 
        for exceeding targets by reducing unit costs. What if they were 
        rewarded for meeting targets by treating acres in the WUI and 
        identified in CWPPs? Back country acres could count 1:1. 
        Strategic WUI acres could count 3:1. Strategic WUI acres that 
        provided saw timber and utilized biomass could count 5:1. 
        Timber targets that met hazardous fuels reduction goals in the 
        WUI and CWPP strategic areas could count 2:1. Hazardous fuels 
        treatments in the back country that protected critical fish and 
        wildlife habitat could likewise have a multiplier effect. 
        People need to be rewarded for reaching multiple objectives.
          2. Integration of agency Wildland Fire Management Plans with 
        CWPPS and tribal eco-cultural restoration plans.--We do all 
        lands watershed planning, we need to do all lands fireshed 
        planning. Integrate those plans into the WFDSS, incident 
        decision support documents. Not only will incident teams 
        understand the fire breaks, roads, and water sources available 
        to them on private lands and the restoration goals on public 
        lands, but this up front integration will anticipate the annual 
        tension between the ``fire use'' mission of the federal 
        agencies and the ``fire suppression'' mission of the state and 
        local entities by some pre-event guidance about when, where, 
        and how to use fire for resource benefit with spatially 
        explicit documents. It could even enable pre-event planning for 
        mitigation of the post-event impacts so the arguments over BAER 
        and salvage and reforestation could be anticipated and dealt 
        with. The gulf between the Incident Command professionals and 
        the local restoration and fire protection efforts was 
        identified in our Fire Adapted Communities Survey as the most 
        important issue to be addressed. We are planned, digitized, 
        mapped, and organized. Use us.
          3. Integrate the skilled workforce.--Business Operations can 
        help us build local multi-skilled, cross-trained public and 
        private sectors crews who can remain in place doing 
        conservation practices, prescribed fire, hazardous fuels 
        reduction, and planning on public and private lands. This cross 
        trained workforce can also be trained and equipped to be the 
        volunteer fire department ``wildland division'' to respond with 
        our federal partners as initial attack for fire incidents. It 
        means using agreements with local ngos and volunteer fire 
        departments for fuels management. It means deliberately using 
        stewardship contracting authority to package work across a full 
        field season for crews of twenty and awarding them locally as a 
        best value to the nation. Local contractors and ngos can then 
        use NRCS funded projects, private landowner projects, state 
        fire assistance projects to fill out the field season and keep 
        that crew available not only for wildfire events, but also for 
        on-call pile burning and prescribed fire. This model is 
        emerging and we need to make it easier to do. An in-place 
        stewardship workforce is our next big task.
          4. Use the tribes.--Building a culture of fire takes times. 
        Building the desire in the culture to learn how to live with 
        fire takes a long time. Tribal cultures are leading the way 
        with their eco-cultural restoration plans. We need to be brave 
        enough to support them. Our federal agencies need to be nuanced 
        enough and flexible enough to engage with these highly 
        motivated and highly knowledgeable people and let them help us 
        find our way forward to locally adapted socio-ecological 
        systems.

    The people who live and work in and adjacent to our federal lands 
have tried to be good partners to the federal agencies. We have to 
figure out how to live with fire on this landscape. It is only 
increasing. Instead of putting all fire out, we need to increase the 
good fires and decrease the bad ones. We need to figure out the role of 
logging and silviculture to adapt to climate change and mitigate fire 
risk. And since we are going to be experiencing fire on our lands over 
and over and over, we need to find a way to manage the forest resources 
to produce revenue for its perpetual management and protection. Like 
the Secretary says, ``we can't do it alone''. Thank you for the 
opportunity to participate in this most important discussion.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    The Chairman. Thank you.
    Ms. Vosick.

STATEMENT OF DIANE VOSICK, DIRECTOR OF POLICY AND PARTNERSHIPS 
   AT THE ECOLOGICAL RESTORATION INSTITUTE, NORTHERN ARIZONA 
                   UNIVERSITY, FLAGSTAFF, AZ

    Ms. Vosick. Chairman Wyden, Senator Murkowski and members 
of the committee, thank you for this opportunity to present the 
conclusions from a recent study completed by the Ecological 
Restoration Institute at Northern Arizona University. We 
examined the ecological and economic effectiveness of hazardous 
fuels reduction and restoration treatments in our study.
    My name is Diane Vosick. I'm the Director of Policy and 
Partnerships at the ERI. Our institute, under the direction of 
Dr. Wally Covington, is well known for its work in developing 
ecological restoration treatments that include burning, 
thinning and thinning and burning and testing the results of 
those treatments. We also look at the economic and the social 
implications of restoration as well.
    Today I'm joined by my colleague Dr. Yeon-Su Kim, who is 
the lead economist for this project and is a faculty member of 
the School of Forestry.
    In January 2012 the Office of Wildland Fire at the 
Department of Interior asked us to examine some persistent 
questions that have been asked by the Office of Management and 
Budget as well as by the Government Accountability Office 
regarding the effectiveness of fuel treatments and restoration. 
I'm not going to go into great detail on the report. You all 
should have a copy of that report. But I am going to focus my 
remarks on the conclusions that we reached that are pertinent 
to the topic today. How can we improve our Federal wildland 
fire management?
    The answer based on our analysis is straightforward. We 
need to be more aggressive about solving underlying problems of 
degraded forest health and excess fuels by affecting more 
treatments that restore the landscape. Our study provides ample 
economic and ecological evidence for this approach.
    In summary we did several things.
    First, we used an evidence based approach, similar to the 
one used in medicine to go through the literature and analyze 
the effectiveness of treatments.
    What we found in the literature is that treatments can 
reduce fire severity and tree mortality during a wildfire. We 
also found that treatments are effective at storing carbon 
onsite.
    We also looked at wildfire simulations and that showed that 
treatments can change fire behavior, fire severity and increase 
firefighting effectiveness thereby reducing suppression costs.
    Treatments are shown to be effective in protecting 
communities in both wildfire simulations and also in just 
getting out in the field and looking at them. I would draw your 
attention to page 11 of this report and a picture of treatments 
outside the city of Alpine. These treatments protected the city 
of Alpine during the 2011 wildfire, were extremely effective. I 
mean, it's a pretty dramatic representation.
    But what we have found is that WUI treatments are 
effective. However, if treatments had occurred at broader 
scales such as outside the wildland urban interface there would 
be a greater impact on reducing these large severe mega-fires. 
We can improve the ecological and economic effectiveness of 
treatments if we get on the problems sooner, before forests 
have degraded and are departed from their natural conditions.
    Finally we found that if present trends of development in 
the wildland urban interface continue during a time of 
increasing drier and warmer climate, we will see increases in 
suppression costs.
    One of the key questions we were also asked was when will a 
Federal dollar invested in treatments result in a Federal 
savings in suppression?
    As I mentioned previously we demonstrated through the 
literature that treatments can be effective. However, asking 
the question this way is an insufficient analysis for 
understanding the full value that treatments impart to both the 
ecosystem as well as communities. In addition, it fails to ask 
the question what is the consequence of inaction?
    You all have in front of you a copy of the Schultz Full 
Cost Accounting fire. We did this in partnership with the 
School of Business at NAU. It presents a pretty grim example of 
what happens as a result of inaction.
    We sought to calculate the full cost of this fire and the 
subsequent post fire flooding that occurred in the Flagstaff 
and Coconino County area. Through surveys and interviews we 
calculated that this fire cost between $133 million and $147 
million. The biggest cost was the loss in property values to 
adjacent land owners, $60 million. The most devastating cost 
was the loss of a 12 year old in the post fire flooding.
    So in conclusion the evidence shows that treatments are 
effective. However, looking at treatments only in terms of 
suppression savings is inadequate to understand the full value 
that we accrue by doing this work. In order to get ahead of the 
large and severe fires more treatments are needed and they are 
needed outside the wildland urban interface where the big mega-
fires boil up. By treating degraded landscapes sooner we can be 
more economically and ecologically effective.
    Finally we need to manage our wildland urban interface to 
reduce fire risk and suppression costs.
    Thank you for this opportunity to speak to the committee.
    [The prepared statement of Ms. Vosick follows:]

Prepared Statement of Diane Vosick, Director of Policy and Partnerships 
 at the Ecological Restoration Institute, Northern Arizona University, 
                             Flagstaff, AZ
    Chairman Wyden, Senator Murkowski, and members of the Committee, 
thank you for the opportunity to present conclusions from a recent 
study completed by the Ecological Restoration Institute at Northern 
Arizona University examining the ecologic and economic effectiveness of 
hazardous fuels reduction and restoration treatments.
    My name is Diane Vosick. I am the Director of Policy and 
Partnerships at the Ecological Restoration Institute. Our Institute, 
under the direction of Dr. Wally Covington, is well known for 
scientific research on how to restore forest ecosystems and lower fire 
risk to communities. In addition to examining the biological responses 
to forest restoration, we also examine the economic and social 
implications of forest restoration throughout the West. Also, and 
perhaps most important, we take the best available knowledge about 
restoration and communicate it in a language that is accessible to a 
wide variety of audiences, including collaborative groups and land 
managers who are designing and implementing forest restoration 
approaches at large scales. I am joined today by my colleague and the 
lead economist on the report, Dr. Yeon-Su Kim, Professor at the School 
of Forestry at NAU.
    In January 2012, the Office of Wildland Fire at the Department of 
Interior asked us to conduct a third-party analysis of several 
persistent questions asked by the Office of Management and Budget and 
the Government Accountability Office about the effectiveness of fuel 
reduction treatments. We assembled a group of wildfire economists to 
examine five questions:

          1. Have the past 10 years of hazardous fuel reduction 
        treatments made a difference? Have fuel reduction treatments 
        reduced fire risk to communities?
          2. What are the relative values of treatment programs at the 
        landscape scale?
          3. How can we improve current and future economic returns to 
        restoration-based hazardous fuel reduction treatments?
          4. What are the fuel treatment, wildland-urban interface, and 
        climate change effects on future suppression costs?
          5. When or will investments in fuel reduction treatments lead 
        to a reduction in suppression costs?

    Rather than going into detail on the answers to each of these 
questions, I will focus on the findings that pertain to the subject of 
this hearing, ``How can we improve federal wildland fire management?''
    The answer is straightforward--we need to be more aggressive about 
solving the underlying problems of forest health and excess fuels. Our 
study provides ample economic and ecological evidence for why this 
makes sense.

  <bullet> Using an evidence-based approach that uses the best 
        available science, similar to the approach used in medicine to 
        identify effective therapies, we concluded that fuels and 
        restoration treatments can reduce fire severity and tree 
        mortality in the face of wildfire. Treatments also increase the 
        amount of carbon stored on-site over the long term.
  <bullet> In addition, various wildfire simulations show that 
        treatments can change fire behavior and fire severity and 
        increase fire-fighting effectiveness. Thus, suppression costs 
        can be reduced.
  <bullet> Treatments are shown to be effective in protecting 
        communities in wildfire simulations and in real wildfire 
        experiences. HOWEVER, if treatments occurred at broader scales-
        such as outside the wildland-urban interface, or WUI, then 
        there would be a greater impact on reducing damage from large 
        fires.
  <bullet> We can improve the economic and ecological effectiveness of 
        treatments by acting before forests become too departed from 
        their natural conditions.
  <bullet> If present trends of development in the WUI and warmer and 
        drier conditions continue, we will see increases in suppression 
        costs.

    One of the key questions we were asked was when investments in 
federal fuel treatments will offset federal suppression costs. As I 
mentioned previously, well placed hazardous fuel reduction and 
restoration treatments can reduce suppression costs. However, the 
question is insufficient to illuminate all the collateral benefits of 
treatments that go beyond suppression savings. Also, it does not 
address the full cost of catastrophic wildfire on all sectors of 
society if we fail to take action.
    Studies conducted by the ERI demonstrate that treatments are 
beneficial to improving water resources, aesthetics and recreation 
opportunities, forest health and resilience, and wildlife habitat.
    The case study of the Schultz Fire (which is included in the full 
report) provides a grim example of what happens when we fail to act. We 
sought to calculate the full cost of the fire and the post-fire 
flooding that impacted Flagstaff, Arizona, and Coconino County 
following the fire in June of 2010. Through surveys and interviews, we 
calculated that the full cost of the 15,000-acre Schultz Fire is 
between $133 and $147 million. The cost was spread across four federal 
agencies, three state agencies, three utilities, local municipalities, 
nonprofits, and citizens. One of the largest costs is nearly $60 
million in lost property values associated with the event, and one of 
the most devastating costs was the loss of a 12-year-old child. In 
contrast, had we treated every acre that burned at the high cost of 
$1,000 per acre, we could have saved between $9 to $10 in avoided fire 
and flood cost per each dollar spent.
    In conclusion:

  <bullet> The evidence shows that fuels treatments are ecologically 
        and economically effective. However, assessing the value of 
        treatments only in terms of reducing suppression costs is an 
        inadequate analysis for understanding the full economic and 
        ecological value of treatments.
  <bullet> In order to get ahead of the cost of large and severe fire, 
        more treatments will be needed outside the wildland-urban 
        interface.
  <bullet> By treating degraded landscapes sooner, we can maximize 
        economic and ecological effectiveness.
  <bullet> And finally, development in the wildland-urban interface and 
        intermix should be managed to reduce risk.

    Thank you for the opportunity to speak before the Committee.
    We respectfully submit the two studies referenced in this 
presentation as part of our testimony (The Efficacy of Hazardous Fuel 
Treatments http://library.eri.nau.edu/gsdl/collect/erilibra/index/
assoc/D2013004.dir/doc.pdf and a Full Cost Accounting of the 2010 
Schultz Fire http://library.eri.nau.edu/gsdl/collect/erilibra/index/
assoc/D2013006.dir/doc.pdf).

    The Chairman. Ms. Vosick, thank you.
    Chief, let's start with the air tankers. These air tankers 
are supposed to be strategic assets, not museum pieces. We've 
got something like a quarter of the tankers today that we did 
in 2002. I believe our country needs at least 7 additional next 
generation air tankers flying this fire season.
    We learned yesterday that the Forest Service was able to 
award 3 of the 7 pending contracts for next generation air 
tankers. I gather the other 4 are under a stay because of this 
ongoing protest.
    Will the 3 additional air tankers, the ones that were 
awarded yesterday, be able to operate this summer?
    Mr. Tidwell. Yes, in fact one of them was flying in 
Southern California over just the last couple days. So we 
already have one of those aircraft operating. We're expecting 
the other 2. They're going through their static and drop tests. 
That they'll be soon be ready to fly.
    The Chairman. OK.
    What is being done to bring on the additional 4 next 
generation contracts this summer?
    Mr. Tidwell. We're working through the protest process 
which is part of our contracting regulations. We'll continue to 
work through that to be able to see where we end up.
    The Chairman. We've just got to cut through that. I 
understand there are issues with respect to stays. I want us to 
do everything that's necessary to override those stays because 
we have got to have timely operation of these 7 additional 
planes. I want you to tell Senator Murkowski and I, as well as 
this committee, what we need to do to deal with that.
    Now I next want to turn to the situation with OMB because I 
think this is so critical to the question of what this 
committee needs to do to ensure that we get the resources for 
fire prevention.
    So Chief, and Deputy Assistant Secretary Thorsen, when did 
you last meet with OMB to determine how much funding should be 
set aside for the upcoming fire season?
    Mr. Tidwell. We have routine meetings with the staff at OMB 
throughout the year to keep them abreast of what's happening in 
the fire season. But in each year prior to development----
    The Chairman. When was the last one, Chief? I want to find 
out when the last one was, who was there and what was said 
because we have got to turn this around. As you know on this 
committee, this waltz between the agencies and the Office of 
Management and Budget just goes on year after year after year. 
The urgency of preventing fire is what is on the mind of the 
committee.
    So when was the last meeting with OMB?
    Mr. Tidwell. I'll have to get back to you as to the date 
and who attended that meeting. But I'll be glad to provide 
that.
    The Chairman. Ms. Thorsen, do you know when the last 
meeting was?
    Ms. Thorsen. Not by date, sir. But we too also have ongoing 
conversations with OMB. These discussions have been going on in 
the Administration on what kinds of alternatives might be 
available.
    The Chairman. OK. I would like to know for the record when 
the last meeting was. I would like to know who was there.
    The Chairman. Now, given the fact that you have these 
meetings on an ongoing basis, what has been the position of 
OMB, particularly on this very odd argument they seem to be 
making that says there's really no justification for these 
prevention moneies? So I gather that has been the position. If 
you could tell me more about what was said by OMB officials in 
your response, that would be helpful because what we're going 
to do when we get this is try to figure out how to pull the 
relevant parties together and turn this around.
    This waltz has gone on long enough. I am committed to 
turning this around. So what has been the tenor of these 
discussions with respect to this argument that they say you 
can't justify the prevention and then what do you say?
    Both the Chief and Ms. Thorsen.
    Mr. Tidwell. The tenor of the discussions has always been 
around the increasing costs and what can we do to be able to 
address that. It's one of the things why we've been 
implementing our risk management decisions. So that when we do 
have a large wildfire we can do a better job to make the best 
decision, using the best science, the best expertise, the best 
technology to recognize that when our actions are going to be 
ineffective and unnecessary we shouldn't be putting people and 
pilots at risk.
    Because of these actions we've been implementing over the 
last few years, just last year alone, we saved over $377 
million by avoiding risk that would not have made any 
difference on those fires. So this is the discussion we're 
having with OMB is to be able to show that the actions we're 
taking, we're doing everything we can to be able to manage 
appropriately but at the same time to be able to have the 
resources that are necessary.
    The Chairman. My time is up. I know that 2 of you have to 
handle, very gingerly, these discussions with respect to OMB. 
But I also know that they have repeatedly questioned the 
justification for prevention. I'm committed to getting to the 
bottom of this.
    This has got to stop. My time is expired. We'll have 
another round of questions.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Chief, it seems that everyone here on the panel would agree 
that our situation with our hazardous fuels and how we deal 
with the treatment is critical. It's a priority. Secretary 
Jewell has described the condition of our Western forests as a 
tinder box. I think that you have pretty much told this 
committee the same thing.
    Again the consensus is that this work is important work. 
It's necessary. It's valuable. That we need to invest more in 
treatments, not only where we have the wildlife urban 
interface, but beyond that as well.
    Yet, when we look at the budget it looks like we're going a 
different direction. The budget cuts to hazardous fuels 
programs at both agencies, a 50 percent cut at Interior, a 30 
percent cut at Forest Service. This is a significant departure 
then from what appears to be the consensus in the direction 
that we're taking.
    Furthermore, you're taking $50 million from the hazardous 
fuel program and proposing to use it for modernization of the 
larger air tanker fleet.
    So can you give me the rationale behind taking the money 
from hazardous fuels and using it to pay for the air tanker 
modernization?
    Mr. Tidwell. Senator, it comes down to just the simple 
reality of having to address the suppression needs with the new 
aircraft. At the same time just between FY2012 and our request 
from 2014 to meet the 10-year average for the Forest Service we 
had to put another $138 million into suppression to meet the 
10-year average. So when you look at what you've already 
brought out that over 41 percent of our budget is currently in 
fire. It gets to a point where you just have to stop putting so 
much into the fire program.
    So, you know, one place was to look at reducing, you know, 
fuels, you know, for FY2014 with a focus on doing the highest 
priority work in the wildland urban interface and then using 
our restoration efforts to be able to accomplish that hazardous 
fuels reduction outside of the WUI. It's just a simple problem 
with having to increase funding in suppression and only having 
so much of a budget to be able to work with.
    Senator Murkowski. We all understand the budget limitations 
and the constraints. But it seems to me that when you take the 
money from the program, you would reduce the number of fires 
you're going to have to deal with. It seems to me when we're 
moving money from one pot to another, taking it from hazardous 
fuels, I think that is pretty risky.
    I made comments in my opening that we haven't clearly 
defined what our aviation fleet should look like. When we look 
to the efficacy of suppression and the hazardous fuels 
treatments, we also need to be looking at the efficacy of our 
aerial firefighting as we work to reduce the suppression costs. 
So it would seem that in order to show the value of each 
aircraft were to this firefighting program you've got to be 
able to track some kind of performance data.
    How do you do that? What are you using to determine 
aviation performance data?
    Mr. Tidwell. Last year we started to keep track of where 
every retardant drop was put down and then using a sample of 
the effectiveness by basically talking to the people on the 
ground tracking the conditions. We want to expand that again 
this year to the point that in the future all of the aircraft 
will have a system onboard so they can automatically track 
those loads. Then we'll be able to do this systematic review so 
that we can learn where we're being the most effective, which 
of the aircraft.
    That's part of the strategy that we--the way we designed 
our next generation contract is to have a mix of different 
aircraft. Then by being able to evaluate their performance then 
we can decide which of these aircraft is the best buy? Which 
are the most effective airframe for us to pursue?
    So that's what we're going to be working with, especially 
as we bring on the next generation aircraft.
    Senator Murkowski. Isn't it the situation though that you 
have different fires that require different types of 
suppression and clearly different types of aviation assets? 
What works in Alaska, you know, the scoopers that can come and 
just suck it out of the lake right there? Then fly low over 
those fires is one thing that works there as opposed to 
application of flame retardant in some of your fires in the 
West.
    So I'm hoping that it's not going to be a one-size-fits all 
approach. That you are really, really are looking at the 
efficacy of how we deal with all of our fires in a pretty big 
area.
    Mr. Tidwell. Yes, it will include the use of water 
scoopers. It will include the use of the VLATs that are on. 
Hopefully we'll have on call when needed. It will also you look 
at our large air tankers, medium air tankers and down to the 
single engine air tankers that the Department of Interior 
provides.
    We need that full mix of different aircraft to approach or 
to deal with the fires that you've described. There's so many 
different conditions across this country we have to deal with. 
That's why we need a mix of different aircraft to be able to 
address all these conditions.
    Senator Murkowski. Thank you, Mr. Chairman.
    The Chairman. Senator Udall.
    Senator Udall. Thank you, Mr. Chairman.
    Let me start by associating myself wholeheartedly with your 
comments and the Ranking Member's about OMB. I think you may be 
a little too kind when you talk about a waltz. It feels to me 
like OMB isn't even entering the dance floor. I agree that we 
have to move in a way that takes into account what happens when 
we remove those fuel loads.
    In that spirit I want to turn to Mr. Topik and thank you 
for your expertise. I want to thank The Nature Conservancy for 
all the great work you're doing in Colorado. Let me ask you 
your opinion of this topic.
    I have a hard time, as I've said, understanding why OMB 
would propose cutting a program that aims to reduce the 
severity of fires by removing the fuel source. I've introduced 
legislation that would tap into the FEMA disaster relief fund 
per what I think Ms. Jungwirth powerfully said, to help support 
wildlife mitigation projects. Can you briefly address the 
effectiveness and the cost of fire mitigation?
    Mr. Topik. I believe there is an abundance of evidence that 
hazardous fuels treatments in the right places have lasting 
effects that are positive for both the environment and for fire 
suppression. I just was given a new study that's coming out 
today or tomorrow on a meta-analysis of 62 different hazardous 
fuel studies. Once again in the bulk of the areas where 
treatments occur there are positive benefits.
    There are some places where you may have stand replacing 
kinds of fires such as in the Chaparral Fires we're seeing 
where it doesn't obtain. But there is a preponderance of 
evidence such as the Ecological Restoration Institute's work 
that shows that it does work.
    I would encourage the--to be so bold that the--my love of 
the Constitution is that the Congress has the power of the 
purse here and that I really appreciate you all addressing 
these issues. I think it's so vital that we've heard for years 
that an ounce of prevention is worth a pound of cure. We need 
to do it.
    Senator Udall. Thank you for that.
    Chief, let me turn to you and return to the topic of 
aircraft.
    You're well aware that the NDAA, the National Defense 
Authorization Act provides direction to the Department of 
Defense to transfer divested C-27Js to the Forest Service. Can 
you provide an update on the receipt of those divested 
aircraft? In particular have you had enough access to the C-27s 
in order to determine the specs and the potential modifications 
that may be needed? Do you see any other potential road blocks 
in this process?
    Mr. Tidwell. Currently we were waiting for the Air Force to 
complete their analysis and determination why these aircraft 
are surplus or not. As soon as that's completed. They determine 
that they are we are ready to take possession of those 
aircraft.
    We have started to do some of the analysis as to what it 
will take to retrofit either a MAFs unit or a tank on these so 
they'll--we can retrofit them for retardant. At the same time 
to recognize that modifications we'll have to make on these to 
take a military aircraft and to make it into our mission, some 
of the equipment, armor that are on these aircraft, they're not 
necessary for our missions. So we'll have to make those 
modifications.
    Senator Udall. Allow me to reiterate that I've been on your 
doorstep about the next generation contracts as has the 
Chairman and the Ranking Member. I will also be on the doorstep 
of the Air Force if this doesn't happen as quickly as it needs 
to happen. I don't unnecessarily want to put you in the middle 
of this, but I want you to know that we've got to get this 
done. So I want to be updated on it.
    You mentioned call when needed contracts just a few minutes 
ago. You know fires don't wait for contracts to be signed. 
You've said you'll have access to these air resources.
    Could you share with us the fiscal effects of relying on 
these types of contracts? Then back to the C-27Js, would they 
be a cost effective addition to the tanker fleet?
    Mr. Tidwell. You're point on the call when needed 
resources. They do come at a higher cost. That's why we work 
together with the Department of Interior to look at the 
resources that we need at the start of the year. That's what we 
try to contract for because that's the exclusive use contracts 
are definitely cheaper.
    Call when needed contract will run about one and a half to 
2 times as much for the same resource as an exclusive use 
contract. So we do everything we can to have the resources we 
need at the start of the year, but as the fire seasons develop 
and we need to bring on additional resources we can use call 
when needed. We usually use that with helicopters.
    As far as the C-27Js, they will be an efficient asset that 
the work that we've done so far that we feel that we'll operate 
a little bit less than what we currently are anticipating with 
the next generation. That includes the requirement that we have 
to be able to also include in the operation the replacement 
costs. So as we fly these aircraft we also have to set aside 
additional funds so that when 20 years from now we'll have 
funds set up in an account so we can buy another aircraft. When 
you factor that in it's still a little bit more efficient than 
our current contract.
    The other key part about the C-27Js which I think is just 
essential for us to have a part of. Our fleet needs to be 
government owned, contractor operated. It gives us that 
certainty, that even under the most difficult situations we're 
going to have some aircraft to fly.
    Our contractors over the years have done an excellent job. 
But they have to deal in the business world. We've all seen 
some of the things that have happened when we've had to shut 
down these aircraft because of safety concerns and then other 
things happen when a contractor decides no longer to fly in the 
middle of a fire season. So ideally if we could have some 
government owned, contractor operated and then contractor 
owned, contractor operated aircraft, I think that provides us 
the best mix of large air tankers.
    Senator Udall. Chief, thank you for that.
    What I hear you saying is that you want to fight 21st 
century fires with 21st century aircraft. We're fighting 21st 
century fires with Korean War era aircraft. We need the next 
generation aircraft at our disposal. We need these C-27Js at 
our disposal.
    Thank you.
    The Chairman. Thank you, Senator Udall. I know Colorado 
just got pounded last year. I'm going to work very closely with 
you. I know the committee will. We just appreciate your 
expertise and passion for this.
    Senator Heller is next, but he is being very gracious and 
Senator Risch will go. Then we'll have Senator Franken and then 
Senator Heller.
    Senator Risch. Thank you very much.
    This hearing is--we're supposed to talk about what's going 
to happen this year. I'm pleased to say we had Secretary 
Vilsack and Secretary Jewell at the National Interagency Fire 
Center in Boise last month to look at the prospects for this 
year and look at the readiness of that agency. I can tell you 
they are ready. The difficulty, of course, is ready for a 
certain amount. If they get overwhelmed it's very difficult.
    They have excellent equipment. They have even better 
personnel. They're experienced. So they know how to do this. 
They're ready.
    They actually got tested on Friday. We had a fire just 
about 50 miles west of Boise. Everything, every landscape is 
different whether it's Colorado, Eastern Oregon, and I'm 
talking rangeland now, Alaska or Nevada or Arizona.
    But right in the Boise area we had a very dry spring. The 
result of that is we have very limited fuel on the rangelands. 
So this was a 380 acre fire. The wind was blowing about 20 
miles an hour. In an ordinary year it probably would have been 
a several thousand acre fire. But they were able to get right 
on it. The fuel load was low. They kept it to 2, 300 acres.
    I'm glad we're talking about solutions because I think 
everyone now is aware of the problems that we have. We need to 
talk about solutions. Long term solutions are important.
    When I was Governor we got a roadless rule in Idaho. We're 
the only State that does have a State sponsored roadless rule. 
It was affirmed by the ninth circuit this year. I want to 
again, publicly thank Chief Tidwell for the Forest Service 
commitment to that.
    One of the real benefits of that particular plan and one of 
the things we've focused on was small communities that Ms. 
Jungwirth talked about. That has, in the roadless areas, 
particular emphasis on prescription type of preparations for 
fires that come through there. We're very helpful with that.
    But having said all that. I have some suggestions. Chief 
Tidwell these numbers will be interesting to you.
    You have about, we, the Forest Service, has about 20, a 
little over 20 million acres in Idaho. Now if you take out of 
that the roadless and the wilderness you take out about 12 and 
a half million acres. So you get down to around 7 and a half, 8 
million acres, something like that.
    Idaho, on the other hand has endowment funds. We've got 2 
sections out of every township. Utah's got 4 and some other 
States got a lot more than that. But we only got 2. But none 
the less we've got 2.4 million acres.
    Last year we took 330 million board feet of timber off of 
those 2.4 million acres. We got $50 million for school 
endowment programs.
    The Forest Service, on the other hand, has 3, 4 times that 
or more that's available for that. But compared to our 330 
million, you only took off 79 million board feet. But last year 
1.6 million acres burned in Idaho.
    So a lot of that timber that you could have taken off of it 
is laying on the ground now. It's black, probably not 
salvageable. The solution here seems almost too clear.
    The Forest Service needs to step it up. If you step it up 
you'll get rid of the fuel. You'll do a whole lot better as we 
go forward.
    I mean the difference is stunning. 79 million of yours 
compared to 330 million of ours where you have 4 or 5 million--
or you have 4 or 5 times the amount of land. So I hope you will 
step it up. It will do better as we go forward.
    As far as the BLM is concerned, I know you have 
environmental people that are after you all the time. But 
again, if you get the cows on it in the spring and you get the 
fuel off in the spring, you're going to have less severe fires. 
I think that there's a recognition of this coming. I hope the 
agency will go forward in that respect.
    So, thank you for holding this hearing. I think the 
solutions are important. I think we're all coming together 
better on the fact that we can do better. We're going to have 
to do better as we go forward with seemingly less resources and 
a climate that is more susceptible to fire.
    So thank you for your good work that you do. Thank all of 
you for your support.
    Mr. Decker, I'm glad to hear that Oregon has got the pretty 
much the same view that Idaho does. As far as the State grounds 
are concerned, we're doing really, really well. I hope the 
Federal Government will be a good neighbor and will do as well 
as the State is on their grounds on stopping fires and on doing 
long range planning that's necessary.
    My time is up. Thank you, Mr. Chairman.
    The Chairman. That point about the Oregon/Idaho partnership 
is particularly important, Senator Risch. We're going to 
prosecute that.
    Senator Risch. By the way your comment, previously, about 
Colorado being hard hit last year. We had 3 fires.
    The Halstead Fire of 182,000 acres.
    Trinity Ridge, 138,000.
    Both in Southwestern Idaho. One of them burned from July to 
October. People in Boise sat on the edge of their seats every 
night turning on the news. We were afraid we were going to lose 
some of those small communities. We watched at night after 
night after night because of the hard work of the State and the 
Federal firefighters we were able to stop it.
    We had a Mustang Fire that was 150,000 acres.
    So we weren't--we paid our dues last year too, Mr. 
Chairman.
    Thank you.
    The Chairman. Good point.
    Senator Franken.
    Senator Franken. Thank you, Mr. Chairman. Thank you for 
this hearing and to the Ranking Member. Thank you for all the 
witnesses. This has been just fascinating.
    Senator Risch brought up school trust funds and Chief, in 
the interest of time I'm going to submit a question for the 
record regarding the boundary water canoe area land exchange. I 
want to urge you to take a good look at the funding request 
submitted by the Superior National Forest and to encourage you 
to continue to work with Minnesota on both the sale and 
exchange aspects of that issue.
    Senator Franken. I think last time we had a hearing on 
wildfires or maybe it was 2 times ago, we talked about climate 
change. From the testimony that I'm hearing I think this is 
very crucial. I think this is just a--we're talking about where 
we're spending money.
    Last--you said, Chief Tidwell that the season now is 60 
days longer than when you were fighting fires. Do the 
scientists at the Forest Service say that this is related to 
climate change? You said they did 2 years ago. Do they 
continue? Has anything changed their mind?
    Mr. Tidwell. No, nothing's changed their mind. What we're 
seeing today is a product of the changing climate. Not only the 
longer fire season, but the record temperatures that we seem to 
set every year, the record low relative humidities we set every 
year and, you know, it's just all a part of it.
    These are the changed conditions that we have to now deal 
with.
    Senator Franken. We're talking a lot about funding here. 
You know, when I ran for the Senate in 2008 I, for a while 
there, my slogan was going to be return on investment. That 
wasn't a very good slogan for a Senate campaign, but.
    [Laughter.]
    Senator Franken. That lasts about a day.
    But we're talking. I just want everyone to think about 
this. We are paying the price for climate change now because 
what we're talking about are tradeoffs here. We're talking 
about a lot of our discussion is about funding about air 
tankers, about fire suppression, about the taking money away 
from--Ms. Jungwirth talked about the negative feedback loop.
    So I just want everyone to understand that we are paying a 
price now for climate change. This isn't something that's 50 
years away. We're paying it now. We're making choices, very 
painful choices, on the basis of that.
    I think that's a very important thing for everyone to talk 
about. We need to have this conversation about what are the 
costs of climate change and what are we doing to mitigate it 
and what are the smartest ways. For example, Ms. Jungwirth, you 
talked about biomass coming off that land. I think, Ms. Vosick, 
you did too.
    It seems to me that we can use that biomass. Perhaps we can 
use it to--it is carbon that we can store onsite. It is carbon 
that we can use to do use biomass to make/do combined heat and 
power, for example, in these kinds of communities.
    Speaking of these communities, I just wanted to ask Chief 
Tidwell this idea that Ms. Jungwirth talked about of a forming 
kind of a trained citizen corps. She talked about 20 people 
trained in firefighting in each of these communities that 
120,000 firefighters. What are the issues regarding that. How 
feasible is that in your opinion? What would the issues be in 
doing that?
    Mr. Tidwell. We work with the States to carry out the 
programs that they need to have to be able to train either the 
local fire or volunteer fire departments so that people are 
able to respond. We currently get a lot of assistance 
especially from local fire and volunteer fire. In fact they're 
almost always some of the very first folks to respond to the 
local fires.
    So we are using, you know, part of what Lynn is talking 
about now. It's something that we want to continue, of course 
to be able to work with the States, with the counties and local 
fire to be able to do what we can to provide the assistance to 
make sure that these folks have the equipment that they need. 
But also that the training that they have to have so that when 
they do respond they can do it in a safe way and make sure they 
come home at night.
    Senator Franken. Thank you.
    One just last, I just want to ask about sequestration. 
Could you talk a little bit about the impact that sequestration 
would have on your ability to fight fires?
    Mr. Tidwell. This year we've had to reduce the number of 
firefighters that we provide by about 500. To put that into 
context we normally provide about 10,480. So we're going to be 
a little less than 10,000. We're also going to have a few less 
engines.
    We're offsetting this impact by doing some things, just 
bringing on some of the firefighters on a little bit later than 
normal. Sometimes instead of staffing an engine for 7 days 
we're only going to staff it for 5 days to be able to make sure 
that we can respond when we need to. If this fire season 
develops as predicted we also then could call on additional 
resources under call when needed contracts to make sure that we 
can respond when we need to in the appropriate way with the 
right number of resources.
    Senator Franken. Thank you, Mr. Chairman. Again, thank both 
you and ranking member.
    The Chairman. I want to thank you, Senator Franken, for 
hammering away at this climate change question. I think we all 
saw here recently that we are now talking about 400 parts per 
million with respect to concentration of CO<INF>2</INF> in the 
atmosphere. This was a NOAA finding. This was a reading taken 
at the NOAA operated observatory in Hawaii.
    So I very much appreciate you bringing this up. I'm going 
to be working closely with you.
    Senator Heller is next.
    Senator Heller. Thank you, Mr. Chairman and appreciate you 
holding this hearing. A number of hearings that I have been 
involved in in both the House and the Senate this is always a 
topic of interest to most Nevadans. I want to begin by 
congratulating Senator Franken on his grandchild.
    Senator Franken. Thank you.
    Senator Heller. I didn't realize you were so young. I'm 
expecting my second by the end of the year. So again----
    Senator Franken. I blame my children.
    [Laughter.]
    Senator Heller. I want to delve in a little further as most 
have here on this particular issue. I want to thank everybody 
that's spent time, those who have testified today for your 
input. Again this is a topic of discussion that can go a lot of 
different directions.
    We just heard about climate change. I want to talk about 
another topic that I think you can't discuss, for example, Sage 
Grouse listing without talking about wildfires. We had about 
944 individual wildfires in Nevada last year. We burned over 
613,000 acres which is about 1,000 square miles which is about 
the size of Rhode Island. So we figure we burn Rhode Island 
every year in the State of Nevada.
    Obviously the trend is troubling. We've done a lot of 
mitigation. There's some real good examples of that in the 
State of Nevada. Lake Tahoe Basin is a real good example of 
their efforts too and how aggressive pre-fire treatment can be 
in mitigating some of these big fires. We have small towns in 
Nevada that take sheep and cattle and they run them around 
their communities to make sure that any wildfire that may occur 
that they lessen the potential damage.
    But I want to talk about the threat of the endangered 
species act listing of the Sage Grouse. I think it looms over 
11 Western States and it includes Nevada. Most of those, in all 
of those 11 Western States, of course have a heavy Federal land 
management presence including my home State of Nevada which is 
87 percent federally controlled. So as I said, I don't think we 
can talk about Sage Grouse without talking about the threat of 
wildlife. In Nevada we're committed to doing everything we 
possibly can to prevent a listing of the Sage Grouse.
    Our government, State agencies, stakeholders are working 
tirelessly to ensure that we have the tools in place to satisfy 
the needs of the Sage Grouse and their ecosystem. But we're 
getting closer to the 2015 deadline where the Sage Grouse 
listing decision is to be made. I think it's important for our 
Federal agencies to partner with our State and local 
governments.
    As I spoke earlier about mitigation, I believe one of the 3 
contracts, air tankers, one is in the State of Nevada. I want 
to congratulate my staff for their hard work and effort to get 
that contract in place because of the impact that will have on 
wildfires in Nevada. As a result, the impact it will have on 
the ecosystem for Sage Grouse.
    But I guess my question is to you, Chief. What are the 
Federal agencies doing to partner with States and the 
stakeholders to prevent the Sage Grouse listing?
    Mr. Tidwell. There's a team of folks that's actually led by 
the Department of the Interior that's working with, you know, 
the States and the interest groups to be able to come up with a 
strategy, so that we can continue to provide the habitat that's 
necessary to be able to maintain the Sage Grouse and prevent it 
from listing. Some of the things that have been changing over 
the time as we develop better and better science, is to 
understand the impacts to species, especially listed species 
when we start to lose either the ecosystem health. It's 
happening there with the Sage Grouse.
    It's just like what's happening up in the Spotted Owl 
country of the Chairman's State where today we recognize that 
the biggest threat to like the Spotted Owl is from wildfires. 
That it's essential that we get in and restore those fires to 
reduce the potential for catastrophic fire to be able to 
maintain the habitat for Spotted Owls.
    So as we move forward with the efforts around Sage Grouse 
it's essential that we factor in the need to be able to restore 
these ecosystems and to be able to use fire as a tool to be 
able to restore those ecosystems to be able to recover Sage 
Grouse.
    Senator Heller. Let me give you--Senator Risch gave you 
some comments and suggestions. Let me try a suggestion. This is 
something I brought up with Secretary Jewell when she was in my 
office. That's specifically about whether or not a farmer or a 
rancher can help stop a fire.
    We have a lot of wildfires, mostly from lightning. We will 
have ranchers, cattlemen, people out on the plains that watch a 
lightning hit, cause a fire. But they're being told by Federal 
agencies you're not allowed to go over there and put it out.
    You said that 98 percent of most fires are put out in a 
reasonable time. It's the other 2 percent that become a 
problem. Those 2 percent, I would suggest, would be helpful if 
we could allow these men and women that are out there attending 
their property. When they do spot a wildfire that they would 
have access or the ability to go there, put that fire out. Now 
they're being told they can't.
    How do you think this issue should be addressed?
    Mr. Tidwell. It needs to be addressed by working through 
the local volunteer fire departments to make sure that those 
ranchers, those farmers have an understanding of fire behavior. 
They have the right equipment so that if there is an 
opportunity for them to respond they can do it in a way that 
they can safely come home.
    That's my No. 1 concern about those folks. Often they're 
out there right when that fire gets started. So they're in a 
very good position. But I'll tell you we've had too many 
situations over my career where those volunteers have 
responded. Go out there and have not come home.
    We can do it in a way so that they have the training that 
they need, the equipment that they need and to be able to do it 
in a way that they can be successful. The thing that I would 
ask is just that they would work through their volunteer fire 
departments, through the state foresters, to be able to make 
sure that they have the right training and the right equipment.
    Senator Heller. Chief, thanks for your comments.
    Mr. Chairman, thank you.
    The Chairman. Thank you, Senator Heller.
    Senator Heinrich.
    Senator Heinrich. Thank you, Chairman. I want to thank the 
chairman and ranking member for the timeliness of this.
    Chief Tidwell I want to start by thanking all of the 
incredible people who have responded from the Forest Service in 
New Mexico over the last week or so. It's been incredible the 
resources put on the current fires at Tres Lagunas and Thompson 
Ridge fires. My first concern was going to be resources. We've 
had an incredible response.
    We've also had great response and I want to thank you, Mr. 
Decker, for the resources coming from Oregon. You know, we have 
a situation where in addition to those 2 active fires. On 
Sunday night I watched as one of our pre-monsoon thunderstorms 
rolled through the State.
    It moved through the Manzano Mountains just outside 
Albuquerque. We think there were about 1,000 lightning strikes 
during that thunderstorm and not a lot of rain to come with all 
of that. As a result there were 4 ignitions in that area and 
volunteer and Forest Service resources were able to respond and 
get those taken care of as well. So we're going to be fighting 
this for a few months until our monsoons kick into place.
    I want to suggest to the Chairman that we ask the OMB to 
come and have this kind of a conversation, this kind of a 
hearing directly with OMB so that they can explain to us their 
interpretation of the FLAME Act because there seems to be broad 
consensus on this committee that they're not implementing it 
the way it was designed. I think we all have an interest to 
make sure that we do implement that law and we get ahead of 
this. To that end, I want to lay out a contrast and then get 
your ideas, Chief Tidwell.
    In the last few years we've had 2 of the biggest fires in 
New Mexico history.
    In 2011 we had the Las Conchas Fire, 150,000 plus acres.
    In 2012 that was eclipsed. It was the largest fire in our 
State's history at the time in 2012. Whitewater-Baldy burned 
about 300,000 acres.
    Just looking at the acreage numbers you would think oh, 
well, you know, Whitewater-Baldy was the one, the example of 
how things really go badly. But when you drill down and 
actually look at the impacts on the ground and you look at the 
fact that Whitewater-Baldy, I think, over half of that was 
actually back burn, for example. Then you go look at what's 
happening in terms of flood impacts, mineralized soil and the 
condition and the dramatic change I think we're going to see 
change in stand condition on forest type in Las Conchas for at 
least the rest of my lifetime. You realize that there is a 
contrast in how the Forest Service has managed fire in 
different locations across the country.
    When you look at the combination of what the Gila National 
Forest has done with hazardous fuel reductions, progressive 
fire management and ecosystem restoration. Letting fires burn, 
where it's appropriate, to reduce those fuels on a very cost 
effective basis we see cooler, healthier fires even in extreme 
drought conditions like we were in last year when Whitewater-
Baldy burned. So I guess my question is, are the lessons that 
should be learned from the places where this combination of 
hazardous fuel reductions, of restoration and of good fire 
management, where those things have been shown to reduce the 
impacts on community we're really doing things well.
    Have those lessons been applied and are they reflected in 
your agency's budget because I think what you're hearing from 
folks on this committee is we don't think that's the case. 
We're worried that we're robbing Peter to pay Paul. We need 
more prevention to be able to reduce the cure in the long run.
    Mr. Tidwell. We have applied lessons that we've learned 
over the years, especially when it comes to the use of 
prescribed fire. The Gila has been one of the leaders in the 
Nation for years. You described very well the difference that 
it makes when we're using prescribed fire, managing natural 
fire in the right place.
    When we do get a fire started it will still maybe burn a 
lot of acres, but it burns at such a lower intensity that the 
watershed doesn't have the impacts. The country comes back 
rather quickly. We don't see the level of flooding that we 
often see from these other fires.
    So we are applying those lessons. There's just no question 
we need to do more work. That's why we came out with our 
accelerated restoration strategy last year and we identified 
between 65 and 82 million acres of our national forest that we 
need some form of restoration.
    The majority of that is going to be with fire. But there's 
also a component of that about 12 and a half million that we 
need to be used in mechanical, timber harvest field to address 
that work. That we know we can make a difference.
    Between the Department of Interior and the Forest Service 
we've done case studies on hundreds, close to the thousand 
different situations where we have done field treatments and 
then had a fire burn into those treated areas. Over 90 percent 
of them show that it's been effective to reduce the severity of 
that wildfire. We know we need to do a better job to be able to 
quantify it economically. But we know that it works.
    So these are the things that we need to be able to move 
forward with is to be able to do some additional research, to 
be able to put the economic quantification to the benefit of 
these fuels projects because we've all seen it on the ground 
without any question. When they are done at a large enough 
scale and the right place on the land that it will reduce the 
severity of the fire. It makes suppression efforts much more 
effective. It makes it a lot safer for our firefighters.
    Senator Heinrich. I want to thank you for your efforts in 
that regard because I just hate to see us taking money out of 
hazardous fuel reduction, out of ecosystem restoration, out of, 
you know, proactive fire management in order to fund the very 
real need that we need to respond to, an urgent fire situation 
now. It's really a terrible choice to be making because every 
dollar that we put into those prevention activities into 
creating healthier forest ecosystems in the first place is 
dollars we don't have to spend down the road for fire 
management after we have a catastrophic fire like the ones 
we're seeing now.
    Thank you, Chairman.
    The Chairman. Senator Heinrich, thank you.
    Your point with respect to the Office of Management and 
Budget I think is very well taken. My understanding is that OMB 
has never testified. But I want you to know I think your point 
is important.
    Your point is so important we are going to stay at this 
until we turn OMB around on the question of how important 
prevention is and carrying out the FLAME Act. It just seems to 
me, given the fact that Westerners night after night in the 
fire season--what Senator Risch was alluding to--are seeing 
these infernos, we ought to get OMB to wake up to your point 
about prevention and the FLAME Act. I'm committed to working 
with you and Senator Murkowski, Senator Flake, and all of our 
colleagues until we turn OMB around on this. I appreciate your 
suggestion.
    Senator Heinrich. Thank you, Chairman, because I think it's 
one area where regardless of party or geographic issues or 
anything else I think this committee is united around the fact 
that the FLAME Act is not being implemented in the way that we 
all intended it to.
    The Chairman. You are correct.
    Senator Flake.
    Senator Flake. Thank you. Thank you, Mr. Chairman, Ranking 
Minority Member Murkowski for calling this hearing and for 
those who have testified this has been enlightening, 
informative and obviously for Arizona this is a very important 
issue.
    I grew up in Northern Arizona in the Town of Snowflake 
surrounded by a lot of the forested areas there. When the 
Rodeo-Chediski Fire burned in 2002 I flew up there to just--it 
made me sick just to see so many in our community and other 
communities who still, 11 years later, have not recovered. I 
went up camping in the mountains just near Forest Lakes just a 
few weeks ago in one little valley that was spared the fire. 
But looking all around burned out trees, areas that won't 
recover for a couple 100 years.
    I thought that there's no way we could see a fire that big 
in our lifetimes again. But just less than 2 years ago, the 
Wallow Fire. I traveled with Senator McCain, Senator Kyl to 
Springerville. Chief Tidwell, you were there. We experienced 
exactly what Ms. Vosick said, well has proven scientifically 
with Dr. Covington over and over and over again that these 
treatments work.
    We drove on a road just outside of Alpine. To the left were 
the untreated areas. To the right were the treated areas. Just 
the road separating them.
    To the left was a virtual moonscape. Everything 
obliterated, gone. Won't recover for a couple 100 years.
    To the right, just across a little 2 lane road were the 
treated areas near Alpine. The fire dropped immediately to the 
ground, scorched a few trees at the bottom. But everything was 
intact.
    It showed anecdotally what we see over and over and over 
again and now has been proven again and again and again 
scientifically that if we treat these areas it's worth it 
economically. It saves these communities. It saves these 
forests. It saves endangered species over and over again.
    It's heart wrenching to see some of the impediments that 
are still there to keep us from treating more of the forests, 
not just the forest community interface, but deep into the 
forest as well. A lot of good work has been done by the center 
in Flagstaff. Please give my regards to Dr. Covington.
    But you've studied, Ms. Vosick, you studied the cost of the 
Schultz Fire. Can you tell a little about that? I think you 
mentioned treating a significant portion of the Schultz Fire 
imprint with an investment of 15 million. It could have greatly 
reduced the cost of that fire. That was--it was about 15,000 
acre fire and then the flooding comes.
    Can you talk a little about that? It's not just the fire 
that's devastating but in Arizona, in particular, the monsoons 
that come after. Can you talk a little about that?
    Ms. Vosick. Sure. As you recapped it was a 15,000 acre 
fire. A significant part of it burned severely. The actual cost 
of fighting the fire rolled in at about $13 million.
    But what was unanticipated was a monsoonal event that 
happened 29 days later. That basically a rainstorm that parked 
over the fire area and led to a tremendous flooding event that 
moved debris, rocks, incredible amounts of material off the 
slopes, very steep slopes around Flagstaff and into the 
downstream communities. So it's interesting to note that we 
could have treated every acre of that fire which you don't 
really need to do.
    You know, the data show, the experiments show, you can 
usually get by with about 30 percent of the area treated. We 
could have treated every acre for a $1,000 an acre which is 
high for a treatment cost. We could have avoided, for every 
dollar spent on treatments, $9 to $10 in damage costs.
    So the question becomes can we afford not to treat. Because 
of you either pay at the beginning or you pay at the back end. 
If you look at how that cost is spread across the community. A 
lot of people can appreciate the fact that cost were spread 
against--there were 4 Federal agencies that bore the cost. 
There were 3 State agencies, the county, the city, non-profit 
organizations, social service agencies and the citizens.
    The citizens still live in fear every time we have a 
monsoonal rain in that community because they don't know what 
debris might be delivered back to the community.
    Senator Flake. This is 3 years later after that fire.
    Ms. Vosick. Yes.
    Senator Flake. My recollection is there was a young girl 
that was killed, swept away, by the flood waters there as well.
    Ms. Vosick. That's right. That's right.
    Senator Flake. Just one quick question if I could, Chief 
Tidwell?
    Again and again we see some of the moneys that are put 
aside for hazardous fuel reduction cut and additional money 
requested for land acquisition. Now I know some of this is 
outside of your purview or pay grade. But can you kind of give 
us some rationale or explanation for that given what we know 
about the value of hazardous fuel reduction?
    Mr. Tidwell. The additional request that we have in our 
2014 budget for more land and water conservation funding for 
acquisition and conservation easements. There's not a direct 
tradeoff. The purpose for those programs is to respond to what 
we hear from the public of a need to be able to acquire these 
key parcels to be able to maintain key habitats but also 
provide recreational access. In almost every case it actually 
reduces our administrative costs.
    These are just the challenges of some very difficult 
tradeoffs that we have to make. It's one of the things that 
with the Department of Interior has proposed I think a very 
innovative approach with LWCF to be able to provide a different 
revenue stream to make a mandatory system that would allow us 
to be able to move forward and acquire these key parcels. But 
we have to find this balance.
    That's just the challenge of finding the balance of not 
only doing the fuels work, continue to do the restoration, 
provide for recreation, to be able to acquire these key parcels 
of land. It takes all of it. It's just one of the challenging 
situations that we're in. It's where we need your help. We need 
the help of Congress to be able to find the right mix of 
programs and the right mix of funds so that we can move 
forward.
    Senator Flake. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Senator Flake, thank you.
    We're very much looking forward to working with you on this 
because I think part of the challenge--having watched you on 
budget issues--is to try to target the maximize amount of value 
of what we're doing in this area. That's why I think this point 
about prevention that you and others are making is what it's 
all about. So, I look forward to working with you.
    Mr. Decker, let me turn to a different matter which I think 
is going to be increasingly important particularly as we look 
at some of these issues in the wildland urban interface, the so 
called WUI description. Now, you mentioned the poor condition 
of the Federal lands is placing a burden and a threat on State 
and private lands. In effect you have these fires leaping off 
the Federal lands causing significant losses on private and 
State lands.
    Of course, we saw that last summer in our home State at the 
town meeting that I recently had in Lakeview, for example, 
people were continually coming back to the Barry Point Fire. I 
guess folks in the legislature are interested as well in doing 
good work, bipartisan work, in terms of the State-Federal 
relationship of what ought to be done here.
    Summarize for me what you think the Federal Government 
ought to be doing in this area, and maybe, Chief, you could 
answer as well because I think folks want to be located in 
these areas close to the forests, these wildland urban 
interface areas. This is an issue and a concern that is going 
to increase in our part of the world and certainly lots of 
other places. So what do you think the Federal Government ought 
to be doing in terms of staking out a smarter policy in this 
area?
    Mr. Decker. Thank you.
    The partnership that we have with the Forest Service is 
critical. We have what we call in Oregon, a complete and 
coordinated system of fire response. We must work together. We 
do work together. We work together well in most cases.
    There is a natural tension in the system that has to do 
with the difference in fire policy. Part of that is who, you 
know, we're paid by the landowners to fight fire aggressively 
on their land. They basically don't want fire on their land. 
They're paying us to exclude fire.
    Different management objections on those lands than on 
national forest lands. So there's a tension there that we face 
regularly. In Lakeview, as an example, we have a closest forces 
agreement where we will, whoever is closest, will respond to 
the fire. We'll do initial attack together. It doesn't matter 
the color of the land. That works out very well in most cases.
    I think I would echo the themes that you've heard from this 
group in terms of things that the Federal Government can do as 
you've asked. I think it's about getting the mix right. Early 
on Senator Murkowski talked about the strategic, what is the 
best strategic way to invest funds.
    I think it's hazardous fuels. It's initial attack and 
extended attack. It's, you know, it's all of those pieces 
together. It's the State fire systems, the volunteer systems 
that comes our way.
    Really it's, in addition to those funding pieces, it's also 
maybe a paradigm shift in terms of the use of active management 
on national forest lands. I think we have to fundamentally 
change the way fire lives on the landscape. We do that by 
active management on that landscape.
    So there's some funding pieces. I think there's some policy 
pieces that can change as well.
    The Chairman. Chief, what would you like to add to that?
    Mr. Tidwell. What I'd add is that we need to continue to do 
a better job with coordination. It needs to be up front before 
the fire season, before the fires start. This is one of the key 
lessons that we learned from the situation last summer that we 
have to do a better job. We have to do it across the board.
    So we'd, I think if we do that up front coordination so 
that when we do get a fire started everyone is together about 
the actions that need to be taken. I think that will help. But 
that's about the only thing.
    I agree with what Mr. Decker has said. But I would just 
stress we need to do a better job. The Forest Service needs to 
a better job to do the coordination, not only with the State 
agencies, but with those communities prior to the fire seasons.
    The Chairman. Let me just ask one other question. Perhaps 
we can bring you into this, Assistant Secretary Thorsen and Ms. 
Jungwirth.
    We've heard a lot of very favorable comments about the 
community wildfire protection plans. These are the plans, of 
course, where the local communities get together at the 
grassroots level and make judgments about their priorities for 
fuel treatments. In some States, like New Mexico, apparently 
they've been so successful that they're requiring the 
communities in the State to actually develop these community 
wildfire protection plans.
    So Ms. Jungwirth and perhaps we can get you into this, Ms. 
Thorsen, what has been your experience with these plans in 
terms of actually protecting communities and reducing costs? In 
other words we're looking for approaches that give you both the 
protection you want at a lower cost than the approaches that 
we're seeing today.
    What are you seeing with respect to those and your 
judgment, Ms. Thorsen?
    Ms. Jungwirth. In California, as you know, we have many 
community wildfire protection plans. They've been in place for 
many years. In fact many of them have been updated now.
    The virtue of those is that all the land owners are 
involved. The volunteer fire departments are involved. The 
Office of Emergency Services is involved and CDF and the Forest 
Service.
    So they're getting the--not only are they getting the land 
treatments done in a strategic manner and in a coordinated 
manner, but they're also building our prescribed fire capacity, 
our trained and coordinated work force capacity and then our 
fire response. As a result of that we have fire safe councils 
that now are in existence. They meet every month. They've been 
doing that for 10 years.
    So we're getting the infrastructure on the landscape built 
out. When we have a fire event, as we had last year right 
around my community, we had a local area advisor from the 
community who worked with the volunteer fire department, the 
Forest Service and CDF and helped people understand where the 
roads were, where the fuel breaks were, where the water was 
because that when you get teams into a community they know 
fire, but they don't know that landscape. As a result we were 
able to have a better response.
    It's a long term investment. But there will be a tipping 
point. That, I think, is what OMB needs to start thinking 
about.
    I think they also need to think about what are the numbers 
that justify their fire suppression budget.
    The Chairman. Ms. Thorsen, again the prospects for reducing 
costs with this kind of approach?
    Ms. Thorsen. Senator, we are very supportive actually of 
the CWPP plan. In fact when the Department of Interior goes 
through our priority setting process for our hazardous fuels 
and allocating those dollars for hazardous fuels part of what 
we look for and one of the criteria is CWPP plan. So it's very 
much a part of what we look at when we're allocating the 
dollars that we do have for hazardous fuels.
    So a big part of also the cohesive strategy effort now and 
working with communities and partnering at that local level is 
looking at those plans as part of the overall--one of the 
solutions to the challenges we have in the hazardous fuels 
program. So.
    The Chairman. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman. Thank you all 
for your testimony here this morning.
    We've all been talking about the FLAME Act and how it 
hasn't been working as we had intended. It's been suggested 
that we need to treat these mega-fires like we treat other 
emergencies and fund them out of some kind of off-budget 
account outside the agencies. The concern there of course, 
there, is that if you do that, then you remove the incentive to 
keep the cost containment strategies in place.
    Mr. Topik, you mentioned in your comments and you actually 
put forth several different proposals there as to how we can 
work to reduce our fire suppression. You mentioned a disaster 
prevention fund.
    Chief,--and anybody else can jump in here--if we move to 
that framework, the incentive to deal with cost containment be 
lost? If you know, that every year, Congress is going to come 
forward and magically print more money to pay for these mega-
fires--how big of a problem is this?
    Mr. Tidwell. You know, I don't see that as a problem as 
long as we continue the level of the focus we have on making 
the best decisions. Then realizing that we're always driven by 
what is the tactics that are effective. Cost containment was 
focused around dealing with some rather financial management 
around fires.
    The thing that's more important is for us to be able to do 
the preventive work, to do the fuels work up front. But when we 
do have a large fire, when we can recognize that what we're up 
against and eliminate those ineffective tactics, those things 
that in the past that I personally have done a lot myself, put 
on retardant, load after retardant load and had zero effect 
built mile after mile a line. We just burned through the next 
day because I didn't recognize, understand, what I was up 
against.
    Today we have that science. So as long as we can maintain 
that focus to be able to make the right decision and then we 
need to be held accountable. We need to be able to respond. We 
need to continue our large fire reviews so that we can learn 
from that.
    But I think we can have both. The current budget does not 
provide an incentive. The incentive is doing the right thing on 
the ground to make sure our firefighters are safe and doing 
everything that we can to keep our communities safe. That's 
what drives our decisions today. It's what's driven our 
decisions in the past.
    So I believe we can continue to do both.
    Senator Murkowski. I mentioned to the Chairman that one 
thing we seem to have a problem with here in the Congress, is 
being proactive when it comes to any form of prevention. 
Whether it's prevention as it relates to our health care costs. 
Whether it's prevention as it relates to the health and safety 
of our forests and our wildlands. I'm a firm believer in 
prevention and really working to implement some of these 
policies from a more holistic perspective.
    This is going to be good for all of us, not only from the 
perspective of the health of our forests, for the safety of the 
people that live and around them, but also from a financial 
perspective. So I look forward to working with you, Mr. 
Chairman, and the rest of you. Thank you for your commitment to 
this.
    The Chairman. Thank you, Senator Murkowski.
    You're being way too logical, obviously, for purposes of 
the Federal Government in this area because clearly--
    Senator Murkowski. I've been accused of that.
    [Laughter.]
    The Chairman. The message has not gotten through with 
respect to the choice. You can spend more modest amounts on the 
front end with preventive kind of efforts or you can spend your 
time investing substantially more money trying to play catch up 
ball as these infernos rip their way through the West.
    I just want for the Federal witnesses because I know both 
of them and talk to the Chief often. Very responsive. Very 
professional.
    We appreciate your being here, Ms. Thorsen. I know how 
difficult it is to get into these discussions with respect to 
OMB in an open hearing.
    But I want both of you to know I am going to stay at this 
until we turn this around. We have spent the better part of 2 
hours talking about prevention issues, talking about tanker 
questions, talking about the FLAME Act. I just think our 
priorities are out of whack. I mean that's what you've heard 
both Democrats and Republicans talking about.
    When one of these conflagrations rips through a community, 
nobody is sitting around talking about Democrats and 
Republicans. They're talking about why it seems, year after 
year, the Federal Government can't get this right. We've got a 
lot of very good people in this country, in the communities.
    Mr. Decker made an additional important point about the 
Federal/State partnership and these fires leaping off the 
Federal lands and affecting private property and the States. I 
think now with the combination of the fires getting bigger and 
hotter and the season lasting longer, the Administration seems 
to be concerned, as I am, about the 400 parts per million 
finding with respect to carbon dioxide in the atmosphere.
    I think we've also got to deliver the same kind of wake-up 
call on this question of a new focus on prevention, carrying 
out the FLAME Act as intended, and some of the good suggestions 
that you've made, Mr. Topik, as well.
    So thank you for your patience. Suffice it to say, next 
steps, particularly with the Office of Management and Budget, 
are going to be set in motion right away.
    With that the Energy Committee is adjourned.
    [Whereupon, at 12 p.m. the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

     Responses of Diane Vosick to Questions From Senator Murkowski
    Question 1. As you know, the bulk of the hazardous fuel reduction 
treatments have been implemented in the wildland-urban interface (WUI) 
at a significant cost. Currently, over 70 percent of the hazardous fuel 
appropriations go to WUI treatments. Based on your report it looks like 
this focus is misplaced. (a) Is that the case? (b) What priority should 
be given to locating hazardous fuel reduction treatments in the 
backcountry v. the WUI? Why?
    Answer. 1(a) Following the 2011 Wallow Fire, the United States 
Forest Service (USFS) Deputy Chief for State and Private Forestry asked 
the Ecological Restoration Institute (ERI) to answer the question of 
why we continue to see large and severe landscape scale (mega) fire in 
dry forest types after 10 years of fuels reduction and restoration 
treatments.
    To analyze the question of whether or not national priorities for 
treatment implementation reduce the impact of mega-fires, we used fire 
and treatment models. Specifically, the modeling evaluated, ``If 
nationally developed USFS fuel reduction priorities had been 
implemented on the Apache-Sitgreaves National Forest prior to the 
Wallow Fire, would wildfire outcomes under mega-fire (Wallow-like) 
conditions have different fire severity and probability patterns when 
compared to no implementation? What we found (the results are reported 
on page 20 of the report) are:

    Fuel reduction treatments are effective at reducing fire behavior 
where implemented and can successfully reduce risk to prioritized 
values like communities. (This is demonstrated through modeling and on-
going field research).

  <bullet> Forest restoration treatments at broader scales (outside the 
        WUI) can break-up continuous fuel and degraded conditions that 
        are at higher risk for causing large and severe fires.
  <bullet> In summary, WUI treatments are effectively addressing 
        national priorities to protect communities at risk. However, if 
        we only focus treatments in the WUI then there will be large 
        areas of degraded forest conditions and excess fuels in the 
        wildlands that can support mega-fire.

    Answer. 1(b) Where to locate treatments depends on the goals of 
Congress, the federal agencies, and the public. This question came up 
in different conversations during agency staff briefings where when we 
presented the report.
    If the goal is to restore degraded landscapes so that they are 
resilient and resistant to insect infestations, disease, potential 
climate changes, as well as to reduce the risk of severe, landscape 
scale (mega) fire then treatments will be needed in the wildlands and 
the WUI. Our research shows that without more comprehensive treatment 
of the wildlands we will continue to see large, severe fires.
    Due to public safety and economic concerns the agencies have 
emphasized placing treatments in the WUI. There is evidence to support 
that under extreme fire conditions, such as plume dominated fires, 
treatments can fail. The comprehensive solution to modifying this 
extreme fire behavior is to reduce fuels and restore resiliency to 
unhealthy forests at the landscape scale.
    Finally, the Schultz Fire Full Cost Accounting report (the second 
document provided to the committee) demonstrates that there are 
important values at risk in the forest (watersheds, critical habitat, 
aesthetic values tied to recreation) and other natural resources that 
have economic value to communities. These areas also benefit from 
treatments in the wildlands and will provide long-term economic and 
ecological benefits.
    Question 2. Based on the findings in your report, it is suggested 
that not all hazardous fuel reduction treatments are created equal. The 
relationship of a treatment to long-term risk reduction is contingent 
on the quality of the treatment at the start. (a) What characterizes a 
quality treatment at the start? (b) Are their influences that could 
sub-optimize treatments from the start? What are these influences and 
can you provide some examples?
    Answer. 2(a) Treatments are designed based on forest type. The 
ERI's expertise is in the area of ponderosa pine forests, mixed conifer 
forests, and pinyon-juniper woodlands. These are dry forests and unlike 
the moist forests of Alaska or the Pacific Northwest.
    The goal of ecological restoration treatments in dry forests is to 
restore health and resiliency. This approach will also reduce hazardous 
fuels in these forest types. It is worth noting that treatments that 
are designed with the sole purpose of reducing hazardous fuels may not 
accomplish multiple natural resource objectives such as restoring 
resiliency, enhancing watershed health, or improving wildlife habitat 
whereas taking an ecological approach will provide multiple benefits.
    Based on scientific research, in order to restore forest resiliency 
and reduce the risk of unnatural fire in the forest types previously 
mentioned, treatments should seek to establish more natural conditions. 
This means fewer trees, with an uneven age distribution that emulates 
the natural pattern that existed before the period of fire suppression, 
livestock grazing and aggressive logging. By doing so fire (which is 
inevitable in a landscape prone to lightning and recreation use) is 
less extreme and can even be used as a management tool under safe 
circumstances. Future use of managed fire in a restored ecosystem will 
also serve to reduce forest management costs. Also, by restoring 
forests to more natural conditions they are better positioned for 
warmer and drier climate conditions.
    Answer. 2(b) Treatment effectiveness in frequent fire forests are 
sub-optimized by leaving too many or the wrong trees at the treatment 
site. Based on our experience there are multiple reasons why excess 
trees are retained.
    From a USFS perspective this is often done in order to manage for 
the multiple resources required by Land Management Resource Plans and 
other legal mandates. These include, but are not limited to: a) 
maintaining future opportunities for timber harvest; b) maintaining 
wildlife habitat for existing species populations (which may be 
different than historic populations); c) maintaining scenic views or 
screening for recreational use in National Forests; and, d) limited 
operational capability to actively manage in steep terrain, in roadless 
areas, or other management designations.
    From a social perspective excess trees can also result when 
diameter caps are used to limit which trees can be removed (diameter 
caps in this case limit the number of trees above a certain size that 
can be taken). Negotiated diameter caps have been one way the Forest 
Service has been able to implement hazardous fuels reduction treatments 
without being challenged by litigious environmental groups. An example 
of where an informal agreement occurred that limited the size of trees 
removed during fuels restoration treatments is on the Apache-Sitgreaves 
National Forest as a part of the White Mountain Stewardship Contract.
    In summary, a proportion of forested landscapes will always be in a 
condition outside its natural range of variation. Even where treatments 
are feasible they may not be able to optimally reduce fire risk 
reduction because they are required to meet other management goals. 
However, even with these existing management guidelines we can place 
treatments to strategically change the fuel loadings that contribute to 
mega-fire.
    Note: Dr. Scott Abella identifies the trade-offs associated with 
diameter caps in a paper published in the Journal of Forestry entitled, 
``Diameter Caps for Thinning Southwestern Ponderosa Pine Forests: 
Viewpoints, Effects, and Tradeoffs''. It can be found on the ERI 
website at http://library.eri.nau.edu/
                                 ______
                                 
   Responses of Christopher Topik to Questions From Senator Murkowski
    Question 1. Your testimony seems to acknowledge that NEPA 
compliance can be a significant impediment to achieving efficiencies in 
the planning and implementing of restoration-based forest treatments. 
Do I have that right? Please explain.
    Answer. The Nature Conservancy is committed to meaningful public 
engagement in and environmental review of National Forest management 
and believes that the National Environmental Policy Act (NEPA) provides 
an appropriate framework for this activity. Unfortunately, the actual 
implementation of NEPA is often driven by fear of law suits and results 
in lengthy, inflexible documents that take so long to produce that the 
decisions may be out of date by the time they're issued. We believe 
that there are many ways for the federal government to be in full 
compliance with NEPA procedures while also benefitting from public 
input and review that does not unduly delay need actions. We also 
believe that there is a greater chance for increasing the scale and 
pace of forest treatments if the agency follows NEPA; there may be more 
opportunities for common kinds of projects to follow the categorical 
exclusion provisions of the NEPA procedures. We do not believe that the 
NEPA compliance is the barrier, but it is the procedural step at which 
a wide variety of problems can be manifested. Fortunately, the U.S. 
Forest Service is working both internally and with external partners to 
identify and support alternative approaches to NEPA that encourage more 
timely action, result in more adaptive decisions, and facilitate larger 
scale management on the ground.
    Question 2. Your testimony also appears to suggest that there could 
be opportunities to streamline NEPA. Can you describe the kind of 
streamlining you envision and whether legislation would be necessarily 
or desirable to achieve it?
    Answer. The Nature Conservancy supports and is engaged with the 
U.S. Forest Service in testing a variety of alternative approaches to 
NEPA, including the large-scale NEPA being developed by the Four FRI in 
Arizona and an adaptive approach to NEPA underway in Colorado. We hope 
to find additional ways to increase this kind of agency creativity and 
flexibility because we believe it will serve to increase the pace and 
scale of management while also decreasing the time and resources spent 
in analysis. There are likely to be more opportunities to streamline 
NEPA procedures by using categorical exclusions for ordinary and common 
kinds of treatments that are well understood. We also see some national 
forests use area or watershed NEPA planning that covers common and 
ordinary kinds of forest and fire treatments over large areas, allowing 
individual treatments to be conducted rapidly under the umbrella of the 
area plan. We would also be interested in exploring ways that NEPA may 
be made more favorable to management alternatives developed through and 
supported by a robust collaborative process. Further, we would be 
interested in finding a way to clarify that collaborative groups are 
not violating the Federal Advisory Committee Act (FACA) when they 
engage in the NEPA process. We do not believe legislation would be 
required but would be open to discussing a range of alternatives.
    Response of Christopher Topik to Question From Senator Barrasso
    Question 1. As a doctor, I understand that an ounce of prevention 
is worth a pound of cure. Your testimony and the Ecological Restoration 
Institute's recent study highlight the importance of hazardous fuels 
reduction programs and more overall active management. An ounce of 
hazardous fuel treatment can prevent a pound of wildfire suppression. 
In your testimony you stated your disappointment in the President's FY 
2014 Budget cuts to Hazardous fuel programs.
    Do you support hazardous fuel treatments in the backcountry and do 
you agree with the conclusions in the Ecological Restoration 
Institute's study that we need to do more hazardous fuel reduction 
particularly in the backcountry or undeveloped forest areas?
    Answer. Yes, The Nature Conservancy was concerned to see that the 
Administration's FY 2014 budget proposal continued to emphasize 
protecting structures to the near exclusion of the natural areas that 
support both life and livelihood. The Conservancy agrees that funding 
is urgently needed to create community protection buffer zones that can 
limit the damage from wildfire. Fighting fires will remain costly until 
such buffers are in place and people feel safe. But shifting too much 
funding away from undeveloped forest areas where fires have been 
excluded for a century, and conditions remain overly dense and 
susceptible to unnaturally damaging wildfire, will have a long-term 
negative impact on forest health and resiliency.
    The Conservancy urges a balanced allocation of funding between 
treatments in wildland and developed areas. Strategic mechanical fuels 
reduction in wildlands, combined with controlled burning to reduce 
fuels across large areas, can significantly reduce the chance that 
megafires will adversely impact the water supply, utility 
infrastructure, recreational areas and rural economic opportunities on 
which communities depend. We also see that modest investments in 
community capacity building and community involvement, such as the 
``Fire Adapted Communities'' project, can yield tremendous gains by 
increasing the social license to do forest treatments and by helping 
determine, with the benefit of local knowledge, what areas are the 
highest priority. Furthermore, even though there are well over 60 
million Forest Service managed acres that would benefit from some 
treatment, strategic treatments of the right acres with the right 
methods can yield large gains to society by treating a much smaller 
area. That is attainable and realistic. With adequate support for fire 
and management science, priorities can be more clearly established and 
monitored to ensure a sound return on federal investment.
                                 ______
                                 
      Responses of Kim Thorsen to Questions From Senator Murkowski
    The rapid assessment report by the Ecological Restoration Institute 
on the Efficacy of Fuel Treatments makes the point that more hazardous 
fuel treatments are needed in the backcountry if we are going to reduce 
the size and severity of landscape-scale mega-fires that can scorch 
watersheds and drain agency budgets.
    Question 1. How much of the hazardous fuels budget is focused on 
treatments in the backcountry?
    Answer. The Ecological Restoration Institute report describes the 
benefits from both WUI and non-WUI fuel treatments, as each can provide 
benefits to reducing the risks posed by wildland fire. The Department 
of the Interior (DOI) has long recognized the need for fuel treatments 
near communities as well as on surrounding landscapes, as a means of 
reducing the risk and severity of potential catastrophic wildfires. The 
number of acres that would benefit from Hazardous Fuels Reduction (HFR) 
treatment far exceeds the annual budget. The budgetary challenge for 
the program is to seek the optimal treatment mix across the spectrum of 
values and resources. In fiscal years 2003-2010, approximately 60-65 
percent of the HFR budget was allocated to the Wildland-Urban Interface 
(WUI), with the remaining 35-40 percent applied to more remote areas 
(i.e., ``backcountry'' or non-WUI areas). In recent years, the 
Department has approached the challenge by prioritizing the reduction 
of risk to communities and their values. Beginning with FY 2011, 
approximately 90 percent of the HFR budget was applied to the WUI, with 
the remainder to more remote areas.
    Question 2. How will this report and this finding in particular, 
affect your planning and budgeting in hazardous fuel reduction programs 
in the future?
    Answer. This research improves the body of knowledge we have for 
executing a fuels reduction program that meets fire management, land 
management, and community objectives through sustainable and cost-
effective means. The findings will inform our approach to executing the 
fuels management program now and into the future.
      Responses of Kim Thorsen to Questions From Senator Barrasso
    Question 1. Earlier this year, the House passed a Continuing 
Resolution to fund the Department of the Interior Wildland Fire 
Management at $823,473,000. Senate Majority Appropriators then stripped 
the Wildland Fire Management account of $97 million dollars before it 
became law.
    Was the Department of the Interior made aware of these substantial 
cuts to Wildland Fire Management before they took place?
    Did the DOI agree with the Senate Majority's action to reduce 
Wildland Fire management by $97 million dollars?
    If not, did the DOI contact Senate Appropriators and ask them to 
keep the House passed funding levels available for fighting fires?
    Answer. The President's FY 2013 President's Budget for Wildland 
Fire Management (WFM) was $726 million. The House passed CR included 
$929.9 million for the Wildland Fire account and the Senate passed CR 
included $833.8 million for the Wildland Fire account. The Department 
was not aware of the funding levels for the program included by the 
House or Senate in the CR until the information was released to the 
public. There was not an opportunity or a forum for the Department to 
express its position with regard to the House or Senate CR.
    Question 2. One of the primary risks facing sage grouse habitat is 
wildfire. Not only is sage grouse habitat destroyed, but the burned 
landscape paves the way for invasive species such as cheatgrass to 
spread. What steps are being taken to limit wildland fires in sensitive 
sage grouse habitat areas?
    Answer. The Department of the Interior manages a majority of the 
sage-grouse habitat in the West. While firefighter and public safety 
and the protection of life and property remain the priority for fire 
managers, the conservation of sagebrush habitat, especially preliminary 
priority habitat, is one of our top conservation concerns. To fulfill 
this commitment, the Department, through its agencies, implements 
comprehensive best management practices before, during, and after a 
fire.
    Pre-fire preparation that minimizes fire damage to critical habitat 
includes: training of both fireline managers and firefighters in best 
practices of habitat protection; habitat areas are identified and 
recommended response actions are pre-loaded into dispatch and decision 
support systems; habitat maps are provided to dispatch offices and 
field-going fireline managers; and firefighting resources are pre-
positioned near areas of sage grouse habitat most susceptible to 
wildfires. Additionally, fuels management projects are planned and 
designed to assist in minimizing the destructive spread of wildfire. 
Projects include the use of prescribed burning, chemical and natural 
deterrents to invasive species, the augmentation of existing fuel 
breaks through mowing along roads and open areas, and the creation of 
greenstrips on the landscape to slow or alter fire spread.
    During a fire, best practices include: involving resource advisors 
early in the response for scientific advice and direction, using 
tactics and tools that minimize the size of the fire, and conserving 
all possible unburned habitat (such as retaining unburned islands).
    Post fire actions include: assessing burned areas in order to 
develop Emergency Stabilization plans and, if necessary, developing a 
Burned Area Rehabilitation Plan. The Emergency Stabilization plans are 
designed to mitigate immediate threats to life and property to minimize 
further degradation of the surviving habitat due to invasive species or 
other threats. These plans outline the areas that can benefit from re-
seeding and those likely to re-establish on their own. Plans include 
treatments to combat the spread of invasive species such as cheat 
grass, maintenance of site soil stability, and hydrologic function. The 
post fire programs use an adaptive management process that monitors 
treatments for effectiveness and requires the reporting of results. The 
Burned Area Rehabilitation Plan is then developed one to three years 
after a damaging wildfire to promote recovery from fire damages 
including results that are not achieved by emergency stabilization 
treatments alone, in order ensure the long term and recovery of 
habitats as well as the development of fire-resilient landscapes for 
the future.
                                 ______
                                 
       Response of Doug Decker to Question From Senator Murkowski
    Question 1. State Foresters protect two-thirds of the nation's 
forests, with jurisdiction over and response to 75 percent of all 
wildfires. Based on your experience, what measures do the state 
foresters recommend taking to address escalating fire suppression 
costs?
    Answer. The condition of our forests is one of the primary drivers 
of the increasingly costly fire seasons we are experiencing. The 
millions of acres that are well outside the historic range of 
variability for fuel loads support large-scale wildfires that usurp 
increasingly larger sums of federal fire suppression dollars. 
Unfortunately, the USDA Forest Service (Forest Service), a land 
management Agency, now spends more than 40 percent of its entire budget 
on fire suppression. State foresters have recently urged Congress to 
find a solution that would fund emergency wildfire suppression 
activities in a similar way to how we fund other federal disasters. A 
solution that finally eliminates the need to raid non-fire programs at 
the Agency to fund wildfire suppression would be a substantial step in 
combating escalating fire suppression costs. Importantly, such a 
solution would help the Agency make real progress in treating unhealthy 
forests while they can have the greatest impact-before a fire starts.
    With the fire budget already eating up nearly half of the Forest 
Service budget and repeated fire transfers over the past 10 years, the 
ability of the Forest Service to accomplish any fuels reduction, 
restoration, and active forest management has been substantially 
eroded. As a result, the Forest Service is facing a backlog of forest 
restoration over millions of acres of National Forest System lands that 
will only continue to grow if we do not address the issue of fire 
transfers and how they impact the ability of the Agency to manage the 
National Forests. As noted in my testimony to the Committee, a recent 
report for Oregon Governor John Kitzhaber and Oregon's Legislative 
leaders suggests that ``[a]n investment in forest health restoration 
has the potential to save millions of dollars in state and federal 
funds by avoiding costs associated with fire suppression, social 
service programs and unemployment benefits.''\1\ Congress must provide 
the Forest Service with the tools it needs to succeed-including an 
emergency fire funding structure that protects important land 
management programs. Failure to do so will only exacerbate the current 
wildfire and forest health crisis facing our National Forests.
---------------------------------------------------------------------------
    \1\ National Forest Health Restoration: An Economic Assessment of 
Forest Restoration on Oregon's Eastside National Forests at pg. IV. 
Nov. 26, 2012. Available at www.oregonstate.edu/inr/national-forest-
health-restoration
---------------------------------------------------------------------------
       Response of Doug Decker to Question From Senator Barrasso
    Question 1. As you know, the NASF supports S. 327, the Good 
Neighbor Forestry Act. Colorado has used Good Neighbor Authority 
successfully on hazardous fuel reduction projects. In your written 
testimony, you talked about how passive forest management by the 
federal agencies is transferring risk to neighboring landowners. Good 
Neighbor authority would allow state foresters and agencies to 
voluntarily work in a collaborative fashion to address a variety of 
forest health needs within intermixed land ownerships.
    As a state forester, how do you view Good Neighbor Authority 
working to further our cooperative land management goals and are there 
things Congress can do-or not do-to ensure state foresters will use the 
tool to enter into contracts with federal agencies?
    Answer. The Good Neighbor Authority has proven a successful model 
of cooperation in Colorado and Utah. Declining federal budgets and 
increasing spending on wildland fire suppression have resulted in fewer 
forest management projects, which only further inhibits our ability to 
address the growing forest health and economic problems in rural 
America. The Good Neighbor Authority provides states and federal 
agencies with an additional tool to implement land management projects 
to treat insect infested forests, reduce hazardous fuels, and restore 
or improve forest, rangeland and watershed health, including fish and 
wildlife habitat. NASF supports the expansion of the Good Neighbor 
Authority to all states with National Forest System and Bureau of Land 
Management lands. As you consider expanding the Good Neighbor 
Authority, state foresters urge Congress to move forward with language 
that retains maximum flexibility for states to implement projects under 
the Authority.
                                 ______
                                 
      Response of Thomas Tidwell to Question From Senator Franken
    Question 1. Please provide an update on the progress you are making 
in working with the State of Minnesota and with the Superior National 
Forest on both the exchange and sale components of the Boundary Waters 
Canoe Area land exchange issue.
    Answer. We fully support the value and importance of the proposed 
purchase and exchange of State of Minnesota lands within the Boundary 
Waters Canoe Area. This is the second year the Eastern Region has 
submitted the proposed purchase and land exchange as a LWCF Pre-
Proposal. LWCF projects are to be collaboratively developed including 
the robust participation of at least two Federal agencies. To date, the 
project has not been selected to move forward, but the Forest Service 
continues to discuss options to submit a full proposal with the full 
support from other federal agencies, the State of Minnesota and other 
partners. In the meantime, the Forest Service is moving ahead with the 
State of Minnesota regarding feasibility analysis for a portion of the 
proposed candidate federal exchange parcels outside of the BWCAW. This 
is an initial step towards the combined purchase/exchange that the 
State and Forest Service agree is appropriate solution. Funding through 
LWCF or other source for federal purchase of school trust lands within 
the BWCAW will move us closer towards this solution.
    Responses of Thomas Tidwell to Questions From Senator Murkowski
    The rapid assessment report by the Ecological Restoration Institute 
on the Efficacy of Fuel Treatments makes the point that more hazardous 
fuel treatments are needed in the backcountry if we are going to reduce 
the size and severity of landscape-scale mega-fires that can scorch 
watersheds and drain agency budgets.
    Question 1. How much of the hazardous fuels budget is focused on 
treatments in the backcountry?
    Answer. The Forest Service does not track direct expenditures in 
the backcountry directly. The agency tracks the number of acres treated 
within and outside the Wildland Urban Interface (WUI). In FY 2012, 77% 
of acres treated using Hazardous Fuels funding was in the WUI. That 
means 23% of the acres treated using Hazardous Fuels funding were 
outside the WUI.
    Acres treated within the WUI are often more expensive than acres 
outside the WUI. Program direction used by the Forest Service guides 
decisions regarding hazardous fuel reduction for protecting communities 
(and associated lives, property and public infrastructure) and other 
high priority areas.
    Question 2. How will this report and this finding in particular, 
affect your planning and budgeting in hazardous fuel reduction programs 
in the future?
    Answer. The Efficacy of Fuel Treatments report from Northern 
Arizona University confirmed that decisions about natural resource 
management are complicated and dynamic. It is important to consider the 
dynamics of the ecosystem, the scale of the treatments, and the timing 
of the treatments. The impacts of a wildfire can extend well beyond the 
boundaries of the fire and the timing of the suppression effort.
    We believe the report reinforces and strengthens our commitment to 
a tiered system of planning and budgeting. There are some decisions 
that are appropriate at a national-scale, e.g., budget distribution to 
regional offices. On the other hand, decisions about design and 
implementation of site-specific fuel treatment projects are best made 
collaboratively, at the local level, in conjunction with the affected 
communities and our partners. This helps us avoid the pitfalls of a 
``one-size-fits-all'' program.
    This report contributes to the best available science that must be 
considered when making land management decisions. It is likely that in 
many areas this report will help collaborative efforts establish the 
best mix of treatments to be implemented across the landscape, both 
inside and outside of the WUI.
    Fuel treatments will reduce the severity of wildfire resulting in 
less damage to watersheds, increasing suppression effectiveness and 
reducing the threat to communities, the public and firefighters. We 
need to increase our efforts to treat larger areas of both WUI and the 
back country in conjunction with work on private and State land.
    Question 3. What measures are currently being taken by the agencies 
to contain wildfire suppression costs? What performance measures does 
the Forest Service currently use regarding cost containment?
    Answer. We have made significant strides in implementing risk 
management for fire suppression efforts, to ensure we have an 
appropriate, risk informed, and effective response to all fires. Cost 
is one outcome of our decisions. By utilizing risk management 
techniques we are successful in having positive financial outcomes on 
our suppression operations. We are currently evaluating new performance 
measures that focus on management decisions and their outcomes.
    Question 4a. There is a certification process that all operators 
must put their aircraft through to be allowed to fight on Forest 
Service fires. It includes FAA certification and certification by the 
Air Tanker Board.
    How long does the certification process take to get aircraft in the 
air fighting fires?
    Answer. It can be three years or more for vendors to achieve both 
FAA certification and certification by the Interagency Airtanker Board. 
The length of time to achieve both certifications depends on the 
aircraft, tank design and the capital invested by the vendor in 
development.
    Question 4b. What is the quickest you have seen a company get one 
of the existing certificated aircraft through that process?
    Answer. Three years is the quickest a company has previously 
completed the required aircraft certification and approval process. 
This includes design, manufacture and retardant tank approval as well 
as FAA certification, Interagency Airtanker Board evaluation, and final 
Forest Service approval.
    Question 4c. How long did it take the Forest Service to accomplish 
the airworthiness surveys it undertook after the agency grounded all of 
the heavy slurry aircraft in 2003 and 2004?
    Answer. The Forest Service worked with the FAA and National 
Transportation and Safety Board who provided input into the process and 
plan to return the aircraft back to the wildland fire mission. It took 
four months to determine if the aircraft had an operational life for 
the airtanker role and an additional two years to perform the 
engineering analysis and develop inspection programs for the airtanker 
mission.
    Question 5. If you get the C-27Js from the AirForce are you fully 
committed to using most (90% or greater) of those aircraft to deliver 
slurry on the forest fires the Next Generation aircraft have been 
contracted to do?
    Answer. The Forest Service is committed to using any C-27J aircraft 
transferred from DoD in multiple wildland fire missions. The primary 
mission as a medium airtanker would be aerial application of fire 
retardant. Secondary missions would be smokejumper and cargo delivery 
and fire crew transport. The Fleet of C-27J aircraft would augment the 
fleet of Next Generation large airtankers currently on contract. We 
cannot predict exactly how many C-27J aircraft will be available and 
what the ratio will be compared to the Next Generation aircraft.
     Responses of Thomas Tidwell to Questions From Senator Barrasso
    Question 1a. Earlier this year, the House passed a Continuing 
Resolution to fund the Forest Service Wildland Fire Management account 
at $2.44 Billion. Senate Majority Appropriators then stripped the 
Wildland Fire Management account of $473 million before it became law. 
This reduction to the Forest Service budget is more than four times the 
approximate $114 million sequester cut to Wildland Fire Management.
    Was the Forest Service made aware of these substantial cuts to 
Wildland Fire Management before they took place?
    Answer. The Forest Service was not part of the Congressional 
deliberations regarding this subject.
    Question 1b. Did the Forest Service agree with the Senate 
Majority's action to reduce Wildland Fire management by $473 million 
dollars
    Answer. The Forest Service supports the funding level requested per 
the FY13 President's Budget Request.
    Question 1c. If not, did the Forest Service contact Senate 
Appropriators and ask them to keep the House passed funding levels 
available for fighting fires?
    Answer. The Forest Service supports the funding level requested per 
the FY13 President's Budget Request.
    Question 2a. By all accounts the U.S. is facing another active fire 
season. On May 13, 2013 Secretaries Vilsack and Jewell were at the 
National Interagency Fire Center in Boise, Idaho to discuss the 
upcoming fire season. Secretary Vilsack said because of sequestration, 
the Forest Service will have 500 fewer fire fighters. Given the 
importance of protecting life and property, I am concerned with 
Secretary Vilsack's statement that the Forest Service will have 500 
fewer fire fighters.
    My understanding is the Forest Service currently has transfer 
funding authority under the Forest Fires Emergency Act of 1908 to bring 
on additional fire fighting personnel if needed. Is that correct?
    Answer. The Forest Service does have authority to transfer ``any 
appropriations or funds available'' to the Wildland Fire Management 
appropriation for forest firefighting upon notification to 
appropriators that fire suppression funds (in both the Wildland Fire 
Management and FLAME accounts) will be obligated within 30 days. The 
transfer authority is provided in the annual appropriation acts.
    Question 2b. Why did Secretary Vilsack indicate the Forest Service 
will be short 500 fire fighters for the season when State, Tribal, and 
Local government personnel, and other Call When Needed crews stand 
willing and ready to assist?
    Answer. The Secretary was only referring to the agency's internal 
capacity. We will continue to utilize all available cooperators and 
contracted firefighting assets to support suppression operations.
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

                                    The Wilderness Society,
                                      Washington, DC, June 3, 2013.
Hon.  Ron Wyden,
Chairman, Committee on Energy & Natural Resources, U.S. Senate, 
        Washington, DC.
Hon. Lisa Murkowski,
Ranking Member, Committee on Energy & Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Chairman Wyden and Ranking Member Murkowski:
    The Wilderness Society respectfully requests that this statement be 
included in the June 4, 2013, Committee on Energy and Natural Resources 
hearing record regarding wildland fire management.
    Wildland fire is a natural disturbance that is essential to the 
development of flora and fauna in many forested ecosystems. Some 
forests are adapted to frequent surface fires under the canopy, while 
others are adapted to burning less often as landscape-clearing fires. 
While fire is a necessary natural process, it nevertheless poses well-
known challenges to land managers and policy-makers, especially in 
places where people and forests overlap. Every year, fires tragically 
destroy homes and burn uncharacteristically through wildland vegetation 
that is not adapted to regular crown fire. Recent research shows that, 
in the Southwest and southern Rocky Mountains at least, fires have 
increased in severity and extent over recent decades\1\, putting at 
risk the ability of ecosystems to recover. Climate change promises to 
increase the trend.
---------------------------------------------------------------------------
    \1\ Dillon, G.K., Z.A. Holden, P. Morgan, M.A. Crimmins, E.K. 
Heyerdahl, and C.H. Luce. 2011. Both topography and climate affected 
forest and woodland burn severity in two regions of the wester US, 1984 
to 2006. Ecosphere 2(12):130. Doi: 10.1890/ES11-00271.1
---------------------------------------------------------------------------
    In response, enormous amounts of money have been spent on 
suppression activities and fuel treatments to reduce the risk. Wildland 
fire now consumes a significant fraction of the budget of the U.S. 
Forest Service, stealing resources from stewardship activities and 
public services like recreation management. Fuel treatments generally 
have been shown to be effective at changing local fire behavior under 
moderate weather conditions, but fires continue to degrade landscapes 
and destroy homes. More money spent on fuel treatment and restoration 
in dry forests may improve the situation over time, but such treatments 
are enormously expensive, and the return on investment is unclear.
    Fortunately, there is one management alternative that has been 
shown to pay off: Wilderness. Wilderness fire management, where natural 
ignitions are allowed to burn under safe, prescribed conditions, has 
been shown to reduce fuels and improve landscape condition at a 
fraction of the cost of fire suppression\2\. In places like the Selway-
Bitterroot\3\ and Bob Marshall\4\ wilderness complexes in the northern 
Rocky Mountains, the Gila Wilderness\5\ in the Southwest, and Yosemite 
National Park\6\, decades of natural fire management have produced 
forests that are demonstrably more resilient to fire than adjacent 
landscapes where fire has been excluded. In the Selway-Bitterroot, past 
burns from several decades of natural fire now regulate the growth of 
new fires\7\, and on the Gila, a history of wilderness fire has 
produced a landscape that now burns at a lower severity than 
surrounding lands from which fire has been excluded.\8\ The designation 
of land as wilderness and its subsequent management under a program of 
natural fire is one of the great success stories in the challenging 
world of wildland fire management.
---------------------------------------------------------------------------
    \2\ Noss et al. 2006. Managing fire-prone forests in the western 
United States. Front Ecol Environ 4(9): 481-487.
    \3\ Brown et al. 1994. Comparing the prescribed natural fire 
program with presettlement fires in the Selway-Bitterroot Wilderness. 
Int. J. of Wildland Fire 4:157-168.
    \4\ Larson et al In Print. Latent resilience in ponderosa pine 
forest: effects of resumed frequent fire. Ecological Applications.
    \5\ van Wagtendonk, J.W. 2007. The history and evolution of 
wildland fi re use. Fire Ecology 3(2): 3-17.
    \6\ van Wagtendonk, J.W. 1995. Large fires in wilderness areas. In: 
Brown et al., Tech. Coords.Proceedings: Symposium on fire in wilderness 
and park management; 1993 March 30-April 1; Missoula, MT. Gen. Tech. 
Rep. INT-GTR-320. Ogden, UT: U.S. Department of Agriculture, Forest 
Service, Intermountain Research Station: 113-116; Collins, B.M. and 
S.L. Stephens. 2007. Managing Natural Fires in Sierra Nevada Wilderness 
Areas. Frontiers in Ecology and the Environment 5(10): 523-52
    \7\ see Success Stories from the Western Region: Selway Bitterroot 
Wilderness Fire Program (http://www.wflccenter.org/success__stories/
pdf-53/)
    \8\ see Neil LaRubbio, Fire science: Research in Gila National 
Forest unprecedented, High Country News, November 12, 2012 (http://
www.denverpost.com/opinion/ci__22041591/larubbio-what-scientists-are-
learning-from-wildfire-new#ixzz2V5zcXlki)
---------------------------------------------------------------------------
    The policy of wilderness fire management has its roots in a very 
simple conception of the landscape. It holds that in any landscape 
there are places where we want to exclude fire because of its potential 
damaging effects (e.g., communities) and other places that are far 
enough away from communities that we need not be concerned about 
damage, and fire can be managed for its well-known beneficial effects 
on ecosystems. In between is a tension zone that is close enough to 
communities that residents are not completely comfortable with fire but 
where fire does not present an immediate threat to community 
infrastructure if it does occur. There, managers may choose to suppress 
fires, but also may use prescribed fire and mechanical fuel treatments 
to restore forest structure and ensure that inevitable escapes inflict 
minimal damage. In general, Wilderness is found on the most remote 
parts of the landscape, and it is there that managers, beginning almost 
fifty years ago, realized they could use fire to sustain healthy 
ecosystems while saving on suppression costs.
    The Wilderness Society believes that recognition of these three 
zones provides a coherent framework for achievement of fire management 
priorities: community protection, ecosystem sustainability, and reduced 
costs. We recommend that federal agencies develop a landscape-scale, 
three-zone fire management strategy across each administrative unit 
that reflects these three situations:

  <bullet> The ``Wildland-Urban Interface'' (WUI) exists immediately 
        adjacent to communities and is managed for their protection.
  <bullet> The ``Frontcountry Zone'' occurs beyond the WUI and is 
        managed to minimize unplanned fire (through suppression or 
        containment) but also to restore conditions that are resilient 
        to inevitable fires, restoring forest structure and using fire 
        as a tool when conditions are safe.
  <bullet> Beyond those zones, the full range of management responses 
        to fire (from suppression to allowing natural fire) is 
        possible, but a priority is placed on the use of fire to 
        achieve ecological benefits. This area is called the 
        ``Backcountry Zone'' to reflect the preference for fire use 
        when conditions allow.

    These three planning zones can improve management of public lands 
by focusing resources where they are most needed and helping to restore 
natural processes to those lands that can benefit from the restoration 
of natural fire regimes.
The Wildland-Urban Interface (WUI)
    The highest priority of fire management must be the protection of 
people and their homes. Thus, the first step in designing a plan that 
addresses fire is to identify the WUI the area around communities that 
should be managed to protect homes and structures from wildland fire. 
The WUI is that area in and adjacent to communities that should be 
examined for opportunities to improve public safety through 
infrastructure improvement and fuel treatment to protect homes. It will 
not be necessary to treat fuels everywhere within that zone, but 
quantifying the extent of the area where communities are at risk from 
wildland fire can help focus community protection efforts.
    It has been demonstrated that the most effective way to protect 
homes is to build them out of fire-resistant materials and aggressively 
reduce adjacent fuels. The simple principle behind this notion is that 
homes will not burn if they do not ignite, regardless of what happens 
to the surrounding forest, and research by the U.S. Forest Service has 
shown that a very narrow ``home ignitability zone'' of approximately 60 
meters determines whether a home will burn. By clearing highly 
flammable fuels near homes, thinning small-diameter trees within 60 
meters of homes, and building with non-flammable materials, especially 
roofs, fire risk to homes can be dramatically reduced.
    Beyond the 60-meter home ignitability zone, communities may wish to 
thin trees to create ``defensible space'' within which firefighters may 
work safely, to reduce the probability of crown fire, and to protect 
scenic views or watershed quality. Rules of thumb developed by fire 
physicists and fire safety personnel suggest that community protection 
zones of 400 meters could provide an area that would allow firefighters 
to work safely to protect structures. In general, extension of the WUI 
more than a half-mile beyond community boundaries serves only to dilute 
the effectiveness of community protection efforts.
The Frontcountry Zone
    The Frontcountry Zone extends beyond the WUI to a distance where it 
may be viable for fire to occur as a natural landscape process. Within 
the Frontcountry Zone, prescribed fire may be used intentionally to 
achieve management objectives. There, the primary management objectives 
are the protection of critical resource values within the zone, such as 
recreation sites, experimental forests, and research natural areas, and 
the restoration of forest composition and structure in dry forests that 
have suffered from a century of logging, grazing, and fire exclusion. 
The objective of restoration is to reestablish a condition that is 
resilient when the inevitable fire occurs, based on an understanding of 
the conditions that made forests resilient to fire historically.
    While some may argue that the Frontcountry Zone should be as broad 
as possible to facilitate restoration across the maximum extent of the 
landscape, there are many practical reasons to constrain the 
Frontcountry Zone. First, the larger the Frontcountry Zone, the more 
land must be managed under an obligatory suppression/containment 
response, which has proven to be more difficult and expensive over 
time. Constraining the Frontcountry Zone allows suppression forces to 
focus on a smaller portion of the landscape where they can be most 
effective. Second, restoration work is expensive and simply cannot be 
done everywhere. So far, restoration work has not paid its own way, and 
for the foreseeable future, it will need to be supported through 
taxpayer investments. Sound fiscal management requires that those 
investments be limited.
    Finally, to be effective, restoration must be focused on the places 
where it is needed most. Throughout the arid West, the landscapes that 
are most in need of restoration are those immediately adjacent to 
communities, often at the base of adjacent mountain ranges. These dry, 
low-elevation forests of ponderosa pine, Douglas-fir, and various oaks 
have been the most altered by fire exclusion and are the most in need 
of treatments to restore a fire-tolerant forest structure. Constraining 
the Frontcountry Zone to the area closest to the WUI will focus 
restoration efforts where they will yield the greatest benefit.
The Backcountry Zone
    In the Backcountry Zone, although the full suite of management 
responses (including suppression and containment) are available 
depending on the severity of weather conditions, the intent is to 
maximize opportunities to use fire to achieve ecological benefits. 
Managing naturally burning fires in designated, remote sections of the 
landscape is widely accepted by scientists and policymakers as an 
important tool for helping to restore forest health and mitigating the 
escalating costs of fire suppression.
    Identifying the specific conditions under which to allow fires to 
burn requires detailed scientific and spatial analyses. Even in remote 
areas, forest conditions, weather and wind factors may preclude the 
safe use of fire. Fire use is only appropriate where the results of 
fire are likely to produce resource benefits. Generally, this requires 
a determination that fire behavior will be natural or historically 
typical for the location and a determination made before the fire, 
either in a land and resource management plan or a fire management 
plan, that natural fire is likely to benefit the ecosystem. Because 
remote areas tend to be in higher-elevation, cooler vegetation types, 
little of the Backcountry Zone is likely to be in low-severity-fire 
forest types that may require thinning or prescribed fire before 
natural fire will yield resource benefits. The vast majority will be in 
less-frequent fire regimes that will likely benefit from natural fire.
    While the Backcountry Zone may include roadless areas and remote, 
roaded lands, it is especially appropriate for wilderness. Wilderness 
policy already supports maintenance of fire as a natural process, and 
managers are accustomed to its presence. In many places, decades of 
fire use have produced conditions that are well adapted to fire, and in 
many others, fire, if allowed to burn under moderate weather 
conditions, will yield benefits even after decades or centuries without 
it. Wilderness is a valuable component to a comprehensive landscape-
scale fire management strategy.
            Sincerely,
                                   Gregory H. Aplet, Ph.D.,
                                           Senior Forest Scientist.

                                    

      

</pre></body></html>
